<html>
<title> - ROUNDTABLE: ``ANSWERING THE CALL: THE RESPONSE OF COMMUNITY-BASED ORGANIZATIONS TO THE 2005 GULF COAST HURRICANE''</title>
<body><pre>[Senate Hearing 109-440]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 109-440
 
   ROUNDTABLE: ``ANSWERING THE CALL: THE RESPONSE OF COMMUNITY-BASED 
            ORGANIZATIONS TO THE 2005 GULF COAST HURRICANE''

=======================================================================

                                HEARING

                                 OF THE

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

  EXAMINING THE RESPONSE OF COMMUNITY-BASED ORGANIZATIONS TO THE 2005 
                         GULF COAST HURRICANES

                               __________

                             MARCH 7, 2006

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions




                    U.S. GOVERNMENT PRINTING OFFICE
26-611                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                   MICHAEL B. ENZI, Wyoming, Chairman
JUDD GREGG, New Hampshire            EDWARD M. KENNEDY, Massachusetts
WILLIAM H. FRIST, Tennessee          CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              JAMES M. JEFFORDS, Vermont
MIKE DeWINE, Ohio                    JEFF BINGAMAN, New Mexico
JOHN ENSIGN, Nevada                  PATTY MURRAY, Washington
ORRIN G. HATCH, Utah                 JACK REED, Rhode Island
JEFF SESSIONS, Alabama               HILLARY RODHAM CLINTON, New York
PAT ROBERTS, Kansas

               Katherine Brunett McGuire, Staff Director
      J. Michael Myers, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                         TUESDAY, MARCH 7, 2006

                                                                   Page

Enzi, Hon. Michael B., Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Wilkins, Kay, director, Southeast Louisiana Chapter for the 
  American Red Cross.............................................     4
    Prepared statement...........................................     5
Franklin, Almetra, executive director, St. Mary Community Action 
  agency, Franklin, LA...........................................     9
    Prepared statement...........................................     9
Bourg, Lorna, president and CEO, Southern Mutual Help 
  Association, New Iberia, LA....................................    13
    Prepared statement...........................................    14
Hazelwood, Tom, United Methodist Committee on Relief.............    16
    Prepared statement...........................................    16
Gaddy, Rev. Dr. Welton, president, Interfaith Alliance...........    18
    Prepared statement...........................................    18
Nemitz, Craig, disaster services manager, America's Second 
  Harvest........................................................    22
    Prepared statement...........................................    23
Wright, Jayne, director, Louisiana State Voluntary Organizations 
  Active in Disaster and Head of the Food Bank of Central 
  Louisiana......................................................    26
    Prepared statement...........................................    27
Feltman, Heather, Lutheran Disaster Response.....................    29
Green, Thomas E. assistant director, Office of Community 
  services, Little Rock, AR......................................    30
    Prepared statement...........................................    31
Daroff, William, United Jewish Communities.......................    32
    Prepared statement...........................................    33
Harris, Tanya, lead organizer in the Lower Ninth Ward of New 
  Orleans for the Association of Community Organizations for 
  Reform Now.....................................................    36
    Prepared statement...........................................    36
Hawks, Major Todd, national public affairs secretary and 
  associate community relations secretary for the Salvation Army.    38
     Prepared statement..........................................    38
Mahboob, Mostafa, Islamic Relief USA.............................    41
    Prepared statement...........................................    41
Miller, Ande, executive director, National Voluntary 
  Organizations Active in Disaster...............................    48
    Prepared statement...........................................    49
Fagnoni, Cynthia, director, Education, Workforce and Income 
  Security Issues, Government Accountability Office (GAO)........    64

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Response to question of the committee by Heather Feltman.....    30
    Prepared statement of Senator Kennedy........................    74
    National Disability Rights Network (NDRN)....................    75


   ROUNDTABLE: ``ANSWERING THE CALL: THE RESPONSE OF COMMUNITY-BASED 
            ORGANIZATIONS TO THE 2005 GULF COAST HURRICANE''

                              ----------                              


                         TUESDAY, MARCH 7, 2006

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee roundtable convened, pursuant to notice, at 
10:00 a.m., in room SD-430, Dirksen Senate Office Building, 
Hon. Michael B. Enzi (chairman of the committee) presiding.
    Present: Senators Enzi and Isakson.

                   Opening Statement of Senator Enzi

    The Chairman. Good morning.
    I want to welcome all of you to the roundtable discussion 
on ``Answering the Call: The Response of Community-Based 
Organizations to the 2005 Gulf Coast Hurricanes.''
    I remember calls that Senator Kennedy and I were exchanging 
during the hurricanes, trying to figure out what would come 
under the responsibility of our committee and how we might be 
able to handle that, and we started with roundtables about 2 
days after the hurricanes hit, and we had the education package 
together faster than any other committee had it together, and 
then we followed that quickly with the health package. But we 
watched in agony over the things that happened, and we have 
been following the progress, and in some cases lack of it, 
since that time and have been trying to figure out what we 
could do to make things better.
    I want to congratulate all of you and your organizations 
for the work and effort that you have put in. I want to 
particularly thank you for the testimonies that we received. I 
have been through it, and I appreciate the suggestions that 
were in there; they were very helpful and remind us of the work 
that you have ahead.
    Today the committee holds another in a series of hearings 
and roundtable discussions on the hurricanes that caused that 
devastation in the Gulf Coast region and our efforts to respond 
to the needs of those whose lives were forever changed by that 
catastrophe.
    Today's roundtable will be taking a closer look at the role 
of community-based organizations in responding to the great 
needs of the region in the aftermath of these powerful storms.
    Today we are 6 months away from the destruction caused by 
the hurricane season and just a few months away from the next 
as the committee continues to look back on the hurricanes and 
the destruction they caused. To ensure that we are better-
prepared for the next challenge, we will be discussing the role 
of the community-based organizations that came to the aid of 
the people of Louisiana, Texas, Alabama, and Mississippi. These 
organizations located in cities and towns all across the 
country took in many of the people who evacuated the region.
    In addition, millions of Americans donated their time and 
resources to these organizations so that those who were in need 
of assistance could receive it as soon as possible.
    I will never forget the trip that Senator Kennedy and I 
took with several of our colleagues to the New Orleans region 
the weekend after the storm had hit. The devastation that we 
saw there was unlike anything we had ever seen before. There is 
nothing to compare with the fury of Mother Nature.
    Fortunately, our community-based organizations were quick 
to act and an important part of the cure for what was wrong 
with the Gulf Coast region. All over the United States, people 
of every region wanted to know what they could do to help. More 
often than not, they turned to their community-based 
organizations to determine what could be done as a community to 
address so great a need. I know that people started sending 
things before things could even be received; everyone was eager 
to help.
    There are many accomplishments that these organizations 
have made that deserve our praise and appreciation for all they 
did to help so many.
    We will also look at what worked and did not work with 
regard to the National Voluntary Organizations Active in 
Disaster. This is an organization with important 
responsibilities in the national response plan for facilitating 
communication among community-based organizations and with the 
Government.
    As a former mayor and now, as a Senator from Wyoming, I 
have seen for myself the devastation that severe weather can 
bring a community. Last year, Wright, WY, a little town 38 
miles south of Gillette, which is my home town, was hit by a 
tornado that did a lot of damage to the town. Plans to rebuild 
Wright have included support and cooperation on the local, 
State, and Federal level, much the same as will be required to 
continue to recover from the Gulf Coast tragedy.
    That is why we have brought together some of our Nation's 
most experienced relief organizations. We are looking forward 
to hearing your suggestions as to what we should do next as we 
continue the reconstruction and recovery of the Gulf Coast 
region. We have no time to wait. Every minute is precious, as 
it brings us closer and closer to the 2006 hurricane season, 
which again is only a few months away.
    We could not have this roundtable without you, so let me 
thank all of you who took time from your schedules to be with 
us today. You will be the source of a lot of information; as I 
mentioned, you already have been with the statements that I 
have received. That will help to guide the committee's efforts 
and provide a record of what happened during the hurricanes and 
since, as we begin work restoring and rebuilding what was lost.
    The committee will continue to follow events in the Gulf 
Coast region and work together to address the issues that 
demand our attention.
    I definitely want to thank the ranking member, Senator 
Kennedy, for his leadership and concern and active involvement 
in these issues and the early communication that he had with me 
and the cooperation that he always provides on all the issues. 
We have multiple hearings going on during the day, and of 
course, he has seniority on all of the committees that he is 
on, but he will be joining us later and will make an opening 
statement at that time.
    In the discussion, we have requested that participants 
confine their comments as briefly as possible, hopefully within 
2 minutes. And you will not need to make an opening statement; 
your opening statement will be made a part of the record.
    I would also mention that if you don't get a chance to 
express or rebut or whatever on any of the comments that are 
made, you can also submit comments afterward that will become a 
part of the record. We need your information, and that is why, 
instead of having a panel with three or four people on it and 
mercilessly raking them with questions, we invite in a lot of 
experts to get as many ideas as we possibly can. And we will 
keep the record open after the hearing is over so that 
additional comments can be made, and also so that Members of 
the Senate can ask additional questions after they and their 
staff have an opportunity to go over what you say today; and 
that helps us to clear up some of the other points so that we 
can get it as right as possible. Seldom is Federal legislation 
perfect, but I want you to know that we do our best. It is a 
difficult process. It is also a little frustrating--we usually 
know when we are going over a piece of legislation that there 
is somebody in the audience that knows a loophole to it, and 
they do not tell us about it until after they can take 
advantage of the loophole. So those who help us to cover 
loopholes, we really appreciate that.
    You have name tags in front of you. If anyone wishes to be 
recognized, stand it on end, and I have some people who will be 
helping me keep track of which ones go up and in what order. 
And again, I would appreciate it if you would limit your 
responses to 2 minutes so we can get as many responses as 
possible, and then you can expand on those in writing if you 
would like to.
    I will introduce the panel of participants, and people will 
be able to see what a wide variety of organizations we have. We 
are extremely fortunate today to have such a distinguished 
panel of peers.
    The participants are: William Daroff, from United Jewish 
Communities; Heather Feltman, from Lutheran Disaster Response; 
Tom Hazelwood, from the United Methodist Committee on Relief; 
Major Todd Hawks, the national public affairs secretary and 
associate community relations secretary for the Salvation Army; 
Mostafa Mahbood, from Islamic Relief USA; Andy Miller, 
executive director of the National Voluntary Organizations 
Active in Disaster; Craig Nemitz, disaster services manager to 
America's Second Harvest; Kay Wilkins, director of the 
Southeast Louisiana Chapter of the American Red Cross; Jayne 
Wright, director of the Louisiana State Voluntary Organizations 
Active in Disaster and head of the Food Bank of Central 
Louisiana.
    We also have with us Cynthia Fagnoni, director for 
education, workforce and income security issues at the 
Government Accountability Office. Ms. Fagnoni has been kind 
enough to bring her expertise to the roundtable and has agreed 
to serve as moderator should I be called away during the 
discussion--and we do have a vote that is coming up this 
morning, so I will have to be away for a few minutes.
    We also have Lorna Bourg, president and CEO of Southern 
Mutual Help Association in New Iberia, LA; Almetra Franklin, 
executive director of St. Mary Community Action Agency in 
Franklin, LA; Reverend Welton Gaddy, president of Interfaith 
Alliance; Thomas E. Green, assistant director of the Office of 
Community Services in Little Rock, AR; Tanya Harris, the lead 
organizer in the Lower Ninth Ward of New Orleans for the 
Association of Community Organizations for Reform Now.
    To each and every one of you, welcome, and thank you for 
taking the time to be with us today.
    The question for the roundtable was outlined in the 
invitation letter you received. The question was: ``What was 
the nature of your work in the areas affected by storms, and 
how did you coordinate that work with other charitable groups 
and local, State and Federal agencies, and how did it work?''
    What we are really looking for here is what were the 
solutions, what worked, what did not. Often, what did not work 
is of more help than what did work, because that is what needs 
to be worked on.
    Again, I would like to thank those of you who listed some 
specific changes. That was very helpful. And all of you will 
have a chance to add to what you said. Hopefully, this is 
almost a brainstorming session, so that ideas that other people 
have will help you to think of additional things that you can 
do.
    So, with the remaining time, I would like to open the floor 
to comments that you might have.
    Yes?

  KAY WILKINS, DIRECTOR, SOUTHEAST LOUISIANA CHAPTER FOR THE 
                       AMERICAN RED CROSS

    Ms. Wilkins. Thank you again for the opportunity to come 
and really tell our story. As you look around the table, you 
see a lot of faces and a lot of hands that actually helped with 
our Katrina response in Louisiana.
    On your question, what worked and what did not, I can tell 
you that what did not work actually helped us work a little bit 
better, and that was that once communications were down after 
Katrina, it was really important that we continue to rely on 
the networks and the connections that we had made before the 
hurricane season so that we could expect that help would be on 
the way. We knew the players. We knew what to expect from those 
players.
    We knew, for instance, that Second Harvest was going to be 
bringing us food; we knew that the VOAD agencies were going to 
be available once we could get through this. It was really just 
kind of keeping balls in the air, making sure for the American 
Red Cross that people were sheltered and fed until help could 
come.
    So those connections that we made pre-Katrina are what 
worked when the communication system failed.
    [The prepared statement of Ms. Wilkins follows:]

                   Prepared Statement of Kay Wilkins

    Dear Chairman Enzi and Senator Kennedy: Thank you very much for the 
opportunity to meet with you in March as a participant in your 
roundtable discussions focusing on the community based organizations 
response to relief and reconstruction efforts in the Gulf Coast due to 
this past year's hurricanes. I am looking forward to sharing lessons 
learned as well as gaining valuable information from my colleagues and 
your committee as together we plan and prepare for the 2006 hurricane 
season. I want to take this opportunity to also provide you with my 
personal statement.
    As Chief Executive Officer of the Southeast Louisiana Chapter of 
the American Red Cross for the past 6 years, and as its Emergency 
Services Director for 3 years prior to that, I have had the unique 
opportunity of being able to work with local, State and national 
partners during the past 9 years to develop and help implement 
preparedness measures in our chapter that helped lay the groundwork for 
the operations we began, and continue to support today, the American 
Red Cross' response to Hurricane Katrina.

About the American Red Cross

    For more than 124 years, the mission of the American Red Cross has 
been to help Americans prevent, prepare for, and respond to 
emergencies. In 1905, Congress chartered the American Red Cross to 
provide a system of disaster response and to mitigate suffering caused 
by disaster. We continue to meet this mandate today. We have a long and 
proven track record of immediate response to major disasters, both 
natural and man made. In towns and cities across the United States, the 
more than 800 chapters of the American Red Cross responded to more than 
72,000 disasters in the past year, ranging from residential house fires 
to the devastating hurricanes that struck the Gulf Coast.
    Governed by volunteers and supported by community donations, the 
Red Cross is a network of more than 800 chapters, eight regional 
service areas, and 35 Blood Services regions dedicated to saving lives. 
The Red Cross provides a unique community-based network to support all-
hazard preparedness in your districts, to your constituents, each and 
every day. As an integral member of the first response community with 
expertise in meeting the human needs associated with disasters, we are 
integrated into State and local government agency disaster planning 
exercises and response efforts. We partner with local, State, and 
Federal Government to provide emergency shelter, food, and health and 
mental health services as well as short-term financial assistance to 
address basic human needs.
    While we are a single organization, I will limit my remarks 
following to my role as chief executive officer of one of these 800 
chapters in our network, the Southeast Louisiana Chapter, headquartered 
in New Orleans, Louisiana.

My Experience Operating in the Gulf Coast

    As the winds of Hurricane Katrina were racing across Florida on 
Thursday, August 26, our chapter began preparations for the possibility 
of its landfall near the metropolitan New Orleans area. We staffed 
emergency operations centers (EOC) in the twelve parishes that comprise 
our chapter's jurisdiction as they opened and began outlining our 
response with other community and governmental partners for the 1.2 
million residents within this area.
    On Friday, August 27, the timbre of our conversations changed as 
the possibility that New Orleans could receive a direct hit from 
Hurricane Katrina was mentioned with increasing frequency. Our chapter 
began its rundown of checklist items--from making sure our disaster 
volunteers were both ready to help and aware of pre-set staging 
locations in the event of an evacuation, to making sure our own 
employees had prepared their homes and families for this threat. As the 
chief executive officer, I notified our board of directors of current 
plans. I also called our staff together on that Friday afternoon for 
what would be our last full staff meeting at our chapter headquarters, 
located on Canal Street in downtown New Orleans. During this meeting, I 
answered questions and advised our staff of the current situation with 
the storm, reminding each of us of our responsibility to open shelters 
pre-landfall and reviewing our Continuity of Operations Plan (COOP). 
(Our Southeast Louisiana Chapter's COOP was developed to ensure that 
needed resources for business continuity were evacuated with our 
chapter when the likelihood of such an evacuation seemed imminent.) 
Once chapter staff had supplied our management team with weekend 
contact numbers, they were given the opportunity to leave early to 
prepare their homes and pack their bags. Each would be notified on 
Saturday should the hurricane's path and threat dictate an activation 
of our COOP.
    On Saturday, August 28, after consultation with my Emergency 
Services director and my board chairman, I activated our chapter's 
COOP. Hurricane Katrina was indeed heading toward our chapter area as a 
Category 5 storm, with winds of over 150 miles per hour. Because the 
American Red Cross had long ago determined that no area below 
Interstate 12 in our chapter was safe from storm surge and flooding due 
to hurricanes, activating the COOP meant relocating our chapter to an 
area outside this ``risk'' zone. Our American Red Cross representatives 
at the EOCs in the ``risk'' areas met with their local emergency 
preparedness officials for the last time that Saturday morning and then 
traveled to our chapter's staging site 35 miles north of New Orleans in 
Covington, Louisiana. I attended a press conference that afternoon with 
New Orleans Mayor C. Ray Nagin and Governor Kathleen Blanco as the 
recommended evacuation order was given to our citizens of the New 
Orleans area. At the end of the press conference, I spoke with both 
Mayor Nagin and Governor Blanco and again reviewed our own evacuation 
plan for the northshore location. At 5:00 that afternoon, I turned off 
the lights to our building on Canal Street for the last time.
    Throughout the days during and following our Saturday evacuation to 
a safe site north of New Orleans, our chapter staff of 42 was called 
upon to perform what can only be described as Herculean tasks. We 
opened 26 shelters to persons seeking safety from the storm--shelters 
whose populations at times exceeded 5,000. Ever mindful that their own 
homes stood in the path of this deadly storm, my staff continued to man 
their stations, stretching resources to the max, knowing that each 
person who sought their hand in comfort was also lost in a shared fear 
of the unknown. Shelters originally designed to house 200 residents 
made room for 50-100 more. While many of those who sought shelter with 
us before the storm hit came with supplies, hundreds more brought to us 
after the storm, arrived with nothing except that which could be 
hoisted on a rope into a boat or onto a helicopter from a rooftop. 
There were many ``walking wounded'' among our residents--and time and 
time again, that same Red Cross employee or volunteer who feared he or 
she had lost their own home in this storm, were the same individuals 
who offered a hand and a shoulder to someone less fortunate.
    For a short period of time, I was out of communication with my 
staff, only able to hear their stories from others' accounts. This was 
perhaps the darkest time for me. Being responsible for the lives of 42 
very dedicated persons who put their trust in my guidance--and not 
being able to reach out to touch them to make sure they were okay--was 
incredibly difficult. I worked night and day to ensure that resources 
were sent to each of our staff in the shelters they were operating, and 
I depended on the knowledge that our training and preparations which 
occurred before this storm would get us through the tough times.
    I was able to meet with our staff for the first time 5 days after 
Katrina. We all gathered under an old oak tree in northern Washington 
parish, about 70 miles from our chapter headquarters on Canal Street--
but light-years away from our last staff meeting that fateful Friday 
afternoon. As I looked at the faces of the individuals who in my mind 
are the untold heroes of Katrina--those who held the hands of countless 
individuals whose own were shaking because of a storm with unheard of 
viciousness; those who provided comfort, shelter and security in a time 
when chaos ruled; and those who remained calm despite the uncertainties 
of their own homes and families--I looked into the very essence of what 
is good in our country, and I saw the untouchable spirit of the 
American Red Cross that drives someone to risk all they know and love 
to help their fellow man. I looked into a group of people who, for a 
brief moment in time, were able to give hope through the offer of hot 
food, shelter, an encouraging hand and an open heart.
    As I told our staff what I knew at that moment--of their homes 
flooded, of neighborhoods and communities they loved lost, of an era of 
innocence and safety we all knew vanquished--I also told them of my awe 
and respect for what each of them were able to accomplish in the face 
of unspeakable odds. I asked each of them to remember what happened 
here, and to never forget what we were able to overcome, as part of the 
American Red Cross . . .
    And then I told them help was on the way.
    Getting to that place was not accomplished alone--there were many 
partners, both governmental and community-based organizations who 
helped contribute to our success that day. And, as we mark the 6th 
month anniversary of a disaster called Katrina which has forever 
changed the path of our city, there are many other partners who 
continue to support our recovery and without whom we would be unable to 
take the significant steps toward becoming whole again.
    Allow me to highlight a few:

    In late January 2004, our chapter convened a group of individuals 
who shared one common theme--an expressed need to find evacuation 
options for people with no transportation resources when an evacuation 
order was given due to an approaching hurricane. From an original group 
of about 40 to a nucleus of 10, we met weekly during this time until 
September 2004 to develop a grassroots plan that helped address that 
need. Named ``Operation Brother's Keeper'' (OBK), the plan was simple. 
With the help of the faith communities, identify persons within the 
inner city faith congregations who had no transportation options during 
an evacuation; partner those same persons with congregation members who 
had space to offer for transportation out of the city; match this at-
risk inner city congregation with a partner host congregation outside 
the risk area; train that host congregation to become a shelter for 
those in need; and, support that shelter as an American Red Cross 
shelter. A local foundation funded a grant for OBK and we officially 
began meeting with a defined set of expectations and outcomes in March 
2005. While it is not the role of the American Red Cross to evacuate 
areas at risk, we had much to contribute.
    We were 5 months into the grant cycle and on target with defined 
expectations when Hurricane Katrina hit. While no concrete plans had 
been developed with individual congregations, we had been able to train 
community educators who would also help with congregational surveys and 
hurricane preparedness seminars. In addition, we had identified our 
first match of risk congregation and host congregation and were in the 
process of setting up shelter management training.
    In February 2005, our chapter met with the Louisiana State Police 
and the Louisiana Department of Homeland Security and Office of 
Emergency Preparedness to begin drafting a single map which could be 
used by all segments of the community and media for evacuation 
planning. Subsequent meetings involved our State's Government relations 
chapter lead, the Louisiana Capital Area Chapter, and the Louisiana 
Department of Transportation and Development (LA DOTD). The result of 
this process was an all-hazards brochure that contained an evacuation 
map detailing the phased evacuation process for Louisiana's coastal 
areas, including the contraflow system, which had been redesigned by LA 
DOTD and the State Police. The American Red Cross was able to 
contribute valuable preparedness information and provide a portion of 
the funding. An additional grant from the Department of Homeland 
Security and the LA DOTD allowed the printing of 1.5 million copies. 
During the months of July and August, prior to Hurricane Katrina, we 
were able to distribute nearly 1 million of these to residents of 
Southeast Louisiana.
    Many of these copies were distributed by our faith community to 
congregation members through Operation Brother's Keeper. In addition, 
educational presentations were held in many venues to help our citizens 
understand the need to evacuate during a hurricane event and the 
critical need of preparedness.
    Being ready for any category hurricane or tropical storm is not 
something our chapter takes lightly. This past hurricane season was no 
exception. In the spring of 2005, we participated in the State's 
Hurricane Pam exercise and used this participation as an opportunity to 
test our own volunteer and staff's disaster readiness level. In June, 
we conducted our own disaster exercise, ``Hurricane Mike,'' a 12 parish 
simulated evacuation and disaster shelter response. Tropical Storm 
Cindy, which affected our area also in June, again tested our disaster 
volunteers and staff's ability to respond quickly as we set up shelters 
in the affected portion of our chapter jurisdiction. Hurricane Dennis 
had our chapter once again packing our own evacuation boxes and 
preparing to evacuate from our downtown New Orleans location to a site 
35 miles north of the city. By the time the evacuation order had been 
given for Hurricane Katrina, our chapter had experienced four 
evacuations since June. We felt prepared to meet the challenge.
    In hindsight, we did so exceedingly well.

Coordinated Activities With Other Community-Based Organizations

    Disaster preparedness and response is not the sole responsibility 
of any one organization. It is the collective responsibility of the 
entire community and of each and every citizen. Hurricane Katrina 
brought that note home many times. In the months prior to Hurricane 
Katrina hitting our city, our chapter had met with many of our 
community partners to ensure a coordinated response during disasters. 
Collaborating with other organizations on response efforts is nothing 
new to our chapter. Before Hurricane Katrina changed the New Orleans 
area population, the Southeast Louisiana Chapter was the fourth busiest 
Red Cross disaster response chapter in the country--responding to a 
fire or other natural disaster every 8 hours. While our chapter was the 
only organization in the city to respond directly, we collaborated with 
other organizations active in disasters to help provide additional 
resources to those whose homes had been affected or destroyed. We had 
working memorandums of understanding (MOUs) with many of our social 
service providers to help provide additional resources of food, 
clothing, household furnishing and emotional support to those in need. 
With many of these community-based organizations, we were able to 
leverage our assessment of damage to help increase the services 
provided to one of our clients.
    In the days prior to Katrina hitting our area, our chapter met with 
the local agency that administers 2-1-1 to review our chapter's 
disaster evacuation plans. We provided this agency with preparedness 
information so that those who called this help line would understand 
how to access evacuation information. In addition, we met with our 
local food bank, Second Harvesters, to review our current MOU and 
identify additional ways we could work jointly in the event of a large 
scale disaster. We spoke to other community partners--United Ways (of 
which five are located in our chapter area), Catholic Charities, 
Salvation Army, the Southern Baptists and, of important note, to our 
governmental leaders and partners--including the Mayor of New Orleans 
and Parish Presidents of many of the other 11 parishes our chapter is 
responsible for. In each of the conversations, we reiterated our own 
evacuation plan for our chapter and our commitment to the people of the 
communities we serve. In the days and weeks following Hurricane Katrina 
and subsequently Hurricane Rita, these conversations helped lay the 
basic foundations of our disaster response. We are still working with 
all of our community partners today as we continue to feed more than 
7,000 hot meals each day in the Southeast Louisiana Chapter area and 
provide bulk distribution of clean-up and basic household items. We 
have been the recipient of many volunteers and donated goods from these 
organizations--all of us united by one common goal . . . to help our 
community recover.

Preparing for the 2006 Hurricane Season

    Each week, our chapter plays host to a group of non-profit agency 
executive directors who meet to help define community needs and build 
collaboratives to address those needs. Each week, we take steps to 
prepare our agencies, our employees and constituencies, and our 
communities for this year's hurricane season.
    This is a unique season--for many reasons.
    Many of those who have moved back into our area now live in a 
trailer and have given very little thought of evacuation planning. Our 
chapter is seeking to address that now by going into areas with a large 
number of trailers (either in villages or on the front lawns) and 
distributing informational brochures on hurricane safety. By creating 
``safe neighbor networks,'' we hope to define steps families can take 
to be prepared for this hurricane season.
    With the condition of our levee system still very much in question, 
and the coastal erosion that occurred as a result of this past season's 
hurricanes, it is critical that the residents in these vulnerable areas 
develop an evacuation plan and be ready to put that plan into action at 
an earlier stage than ever before. Tropical storms that used to send us 
into our homes for safe shelter will now send us seeking safety out of 
the area--from a physical well-being standpoint as well as an emotional 
stability standpoint.
    Our citizens' sense of security has been shaken to its core by 
Mother Nature. When evidence of her ability to turn our world upside 
down once again is presented, nerves will be on edge. We continue to 
work with our mental health professionals to find ways to help our 
communities cope with the emotional traumas this year's season may 
bring, engendering yet another opportunity for us to partner with newer 
community based organizations, such as Louisiana's Spirit.
    It is critical to continue work in the community around Operation 
Brothers Keeper. We know this is a grassroots effort for evacuation 
planning that can work--and did to some extent during Hurricane 
Katrina. We have begun meeting with our OBK table of original partners 
and are inviting others to join us as we define the obstacles to 
evacuation planning for those with no transportation resources, 
utilizing community based solutions. The faith community performed 
exceptionally in response to Hurricane Katrina, and we are honored to 
partner with these individuals and congregations to attack a problem 
that has no easy answer. Bi-weekly meetings with this group continue.
    As we move into the hurricane season this year, our chapter 
continues to work with our national organization to identify lessons 
learned from Hurricane Katrina and implement changes that will improve 
our overall preparedness. These lessons are the ones taken from the 
stories of the families who lived through the nightmare of Katrina and 
from those who did not.
    Our responsibility to the American people is to make sure they are 
heard . . . and heeded. Again, thank you for your invitation. I look 
forward to meeting with you on March 7th.
            Sincerely,
                                            Kay W. Wilkins,
                                           Chief Executive Officer,
                    Southeast Louisiana Chapter American Red Cross.
                                 ______
                                 

    The Chairman. Thank you.

ALMETRA FRANKLIN, EXECUTIVE DIRECTOR, ST. MARY COMMUNITY ACTION 
                      AGENCY, FRANKLIN, LA

    Ms. Franklin. I just want to expand a little further on 
that. That was the same situation in our community, which is 
very rural. We had those partnerships in place already, and it 
really worked for us in that we established who would do what 
early on. As soon as the people started coming in, we met with 
local government, our mayor designated the CSBG unit, the 
Community Action Agency, as the first responder. So we were 
able to assign everybody their roles and responsibilities, and 
that way, things moved quickly for us and moved smoothly for 
us.
    But some of the kinks that we had--the organizations that 
we were looking to provide us with the resources were not there 
as early on as we had hoped, but because those partnerships 
were in place, we were able to move and assist our clients 
quickly.
    [The prepared statement of Ms. Franklin follows:]
                 Prepared Statement of Almetra Franklin

Organizational Information

    St. Mary Community Action Committee Association, Inc. is a 501(c) 3 
tax-exempt, human service organization that has effectively served as a 
non-profit instrument for the delivery of quality human services to 
low-income residents of St. Mary since 1967. In recent years, the 
agency has developed presences in Vermilion Parish via its Head Start 
program and Assumption Parish via its Louisiana Partners in Prevention 
program. Currently the agency employs 329 people in full- and part-time 
capacities.
st. mary community action committee association, inc. mission statement
        The mission of St. Mary Community Action Agency is to alleviate 
        poverty for low-income citizens through strategic planning and 
        implementation of projects and services that will strengthen, 
        promote quality, renew, and guide families into self-
        sufficiency.

    St. Mary/Vermilion Community Action Agency/Head Start currently 
operates 52 social service programs with funding from Federal, State, 
and local levels, as well as from philanthropic organizations. It is 
governed by a tri-part board of 21 members representing the public, 
private and target sectors of the community. St. Mary Community Action 
Agency has five departments: Administrative, Fiscal, Head Start, 
Housing, and Special Services. The Head Start department operates 16 
centers; 14 of which it owns. A sampling of programs and services 
offered by the agency include child development, literacy training, 
education, substance abuse prevention, violence prevention, employment 
training, transportation, housing counseling for renters, homeowners 
and prospective homeowners, homeless shelters, weatherization 
assistance, economic development (Revolving Loan program), emergency 
assistance, money-management assistance, USDA commodity distribution, 
elderly feedings, and utility assistance.
    The largest of the agency's five departments, St. Mary/Vermilion 
Head Start serves two economically depressed parishes with a combined 
population of nearly 110,000. The percentage of employment in St. Mary 
and Vermilion parishes is approximately 8 percent lower than the 
national average. See table below for further demographic data on St. 
Mary and Vermilion Parishes.
           st. mary community action agency's accomplishments

    <bullet> HUD--Best Practice for Developing a Multi-Family Unit 
(Sparrow Gardens);
    <bullet> National Head Start Association--Outstanding Grantee 
Award;
    <bullet> Faith Place--15 newly constructed single-family 
subdivision;
    <bullet> Certified Housing Counseling Agency;
    <bullet> Certified Community Housing Development Organization 
(CHDO);
    <bullet> Welfare to Work--trained and found employment for 629 
residents of Iberia, St. Mary and lower St. Martin Parishes (60 percent 
are still employed!);
    <bullet> Only Robert Wood Johnson Free-To-Grow site in Louisiana;
    <bullet> 95 percent of Head Start teachers have acquired college 
degrees through our Staff Development Program;
    <bullet> Cars For A Cause transportation model successfully placed 
45 households in cars. (All 45 households met program standards and now 
have clear vehicle titles.)

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 1. Map of St. Mary Parish, Highlighted. http://www.answers.com/
topic/st-mary-parish-louisiana.
Figure 2. Map of Vermilion Parish, Highlighted. http://www.answers.com/
topic/vermilion-parish-louisiana.


------------------------------------------------------------------------
                                        St. Mary Parish     Vermilion
            Census Category                   \1\           Parish \2\
------------------------------------------------------------------------
Population............................           52,833           53,807
Under 5 years.........................            3,965            3,830
Families Below Poverty Level..........            2,903            2,523
Median Household Income in 1999                 $28,072          $29,500
 (dollars)............................
Families Below Poverty Level With                 1,076              886
 Related Children Under 5 Years of Age
 (1999)...............................
In Labor Force (population 16 years               55.9%            56.1%
 and over) [percentage]...............
------------------------------------------------------------------------
\1\ St. Mary Parish 2000 Census Information. http://
  factfinder.census.gov.
\2\ Vermilion Parish 2000 Census Information. http://
  factfinder.census.gov.

Problem

    St. Mary Parish was the first fully functioning parish on Highway 
90 West from New Orleans. Therefore the parish experienced a great 
initial influx of evacuees immediately before and after Hurricane 
Katrina. Franklin, the city in which St. Mary Community Action Agency's 
Central Office is located, had a pre-Katrina population of 
approximately 8,354.\3\ In the weeks following Hurricane Katrina, St. 
Mary Community Action Agency staff processed disaster relief 
applications that accounted for 3,100 people seeking shelter in St. 
Mary Parish.\4\ This influx of refugees caused a 5.8 percent increase 
in the population of St. Mary Parish.
---------------------------------------------------------------------------
    \3\ 2000 US Census. http://factfinder.census.gov.
    \4\ On file in database at St. Mary Community Action Agency, 2005, 
Franklin, LA. Figure 3. Map of Coastal Louisiana. http//
images.google.com.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Immediately after Hurricane Katrina struck, St. Mary Community 
Action Agency banned together with many organizations, businesses, 
churches and private citizens to help those refugees that have arrived 
in the communities of St. Mary and Vermilion Parishes. Every department 
in the agency has experienced a remarkable increase in its workload in 
the wake of Hurricane Katrina. St. Mary Community Action Agency 
---------------------------------------------------------------------------
response to this crisis included:

    <bullet> Increasing the hours of operation.
    <bullet> Distributing items donated by Community Action Partnership 
members from over 30 States.
    <bullet> Acting as the point of entry for the St. Mary Parish 
relief system.
    <bullet> Processing disaster applications for the refugees and 
developing a database.
    <bullet> Referring clients to other partners in the St. Mary Parish 
relief system.
    <bullet> Providing clients with a city map; list of other relief 
venues, relief referral tickets.
    <bullet> Making counseling available to evacuees in the shelters.
    <bullet> Serving as a warehouse for disaster relief supplies 
(Central Office Site).
    <bullet> Assisting with the FEMA, Red Cross, and Food Stamp 
application processes.
    <bullet> Utilizing Tweety Bird and Goldilocks Head Start centers as 
shelters.
    <bullet> Providing Low Income Home Energy Assistance to hurricane-
impacted clients.
    <bullet> Employing funds received from the National Head Start 
Association for costs associated with the evacuees' temporary housing 
expenses.
    <bullet> Preparing and serving hot meals to evacuees.
    <bullet> Hosting a delegation of medical staff, counselors and 
spiritual advisors from California.
    <bullet> Hosting child behavioral specialist Charlie Jury and 
Michele Scalzo of Cen-Clear Child Services, Inc. of Clearfield, 
Pennsylvania.
    <bullet> Sponsoring the Adopt-An-Evacuee program (23 families 
adopted).
    <bullet> Hiring displaced evacuees from the New Orleans area 
(several are still employed by the agency).
    <bullet> Accepting 105 Head Start age children into the classroom 
in both St. Mary and Vermilion Parishes.
    <bullet> Nearly 6 months after Hurricane Katrina, assisting those 
still displaced in St. Mary Parish with rent, fuel passes, medical 
prescriptions and other needs determined at the time of interview.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Figure 4. Caseworkers assist refugees at St. Mary Community Action 
Agency's Central Office Site.
Figure 5. Employees unload relief supplies sent by Community Action 
Organizations from Ohio.

    Weeks after Hurricanes Katrina and Rita arrived, the refugees 
housed in St. Mary and Vermilion Parishes are attempting to negotiate 
new lives in these rural communities. Neither St. Mary Parish nor 
Vermilion Parish has any metropolitan areas--at least one urbanized 
area of 50,000 or more inhabitants.\5\ The communities in these two 
parishes, like many other rural communities that are hosting refugees, 
are finding it very difficult to absorb the population surge.
---------------------------------------------------------------------------
    \5\ Definition of metropolitan area. http://www.census.gov/
population/www/estimates/aboutmetro.html. Figure 6. Clients wait 
outside St. Mary Community Action Agency's Central Office Site for 
Hurricanes Katrina and Rita Assistance.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A large percentage of the housing stock is either inhabited or 
substandard. Rural communities do not have parking garages. Street 
congestion is on the rise. Local grocery stores do not have the storage 
space to stock enough items that correspond to the population growth. 
Locals must drive to other communities to find grocery items. 
Households are bursting at the seams with relatives and friends from 
the affected areas. Like most gas stations in the region, rural gas 
stations in St. Mary and Vermilion Parishes exhaust their inventory 
more rapidly than normal. At the time of writing, the St. Mary Parish 
School Board has accepted 844 new students into the public school 
system.
    Some of the agency's partners in the relief effort are:

    <bullet> Local Churches;
    <bullet> St. Mary Parish Office of Emergency Preparedness;
    <bullet> St. Mary Parish Office of Family Support;
    <bullet> National Head Start Association Members;
    <bullet> City of Franklin;
    <bullet> Franklin Fire Department;
    <bullet> St. Mary Parish Sheriff's Department;
    <bullet> Bayou Teche Community Health Network;
    <bullet> St. Mary Parish Medicaid Office;
    <bullet> Acadiana Works;
    <bullet> Teche Action Clinic;
    <bullet> Fournet's Pharmacy;
    <bullet> Discovery Daycare;
    <bullet> Chitimacha Fire Protection;
    <bullet> St. Mark's Lodge #25;
    <bullet> Office of Dr. Donna Tesi;
    <bullet> The Banner-Tribune;
    <bullet> KBZE 105.9 FM;
    <bullet> Community Action Partnership Members;
    <bullet> Highland County Community Action Organization (Ohio);
    <bullet> Lima/Allen Council on Community Affairs, Inc. (Ohio);
    <bullet> Community Action Organization of Scioto County, Inc. 
(Ohio);
    <bullet> Relief on Wheels;
    <bullet> Columbian Chemicals Company;
    <bullet> Church of God in Christ (California);
    <bullet> St. Mary Parish Government;
    <bullet> Senator Butch Gautreaux;
    <bullet> Representative Karla Dartez;
    <bullet> Representative Jack Smith;
    <bullet> Senator Nick Gautreaux;
    <bullet> Boys & Girls Club;
    <bullet> London Grove Township, Pennsylvania.
        To date, St. Mary Community Action Agency has served over 5,000 
        victims of Hurricanes Katrina and Rita from over 50 communities 
        from Franklin, Louisiana to Biloxi, Mississippi.

The Future

    How can we respond more effectively during future hurricane 
seasons? Coordination is needed both within and between agencies. So 
many questions need to be answered. Learning from the crisis particular 
to New Orleans, we feel that chains of command need to be established 
and shared. Emergency coalitions need to be formed (building on and 
learning from) the coalition formed in the wake of Hurricane Katrina. 
Phone trees need to be created and shared. The basis of what needs to 
be done revolves around establishing thorough plans of who needs to do 
what when and for every agency (including every employee) to know its 
own role in the wake of a disaster.
    Once these plans have been created they need to be distributed to 
each agency, to the State, published in the newspaper and made 
available on the web. After a 1 month disaster plan publication/
training period, disaster drills need to occur every 3 months. After 
each drill evaluations should be made and each entity scored on its 
effectiveness.
    These results should be made public. The code word for a disaster 
plan should be cohesiveness. Good deeds done by one person or agency 
will certainly help in the wake of a disaster. Cohesiveness at every 
level will help tremendously.

     LORNA BOURG, PRESIDENT AND CEO, SOUTHERN MUTUAL HELP 
                  ASSOCIATION, NEW IBERIA, LA

    Ms. Bourg. I very much want to build on what you said 
initially, Kay, that the networks that existed before the 
disaster were critical. So what we need to spend as a Nation, 
making sure that the infrastructure of Community Development 
Corporations and their connection to philanthropy at its best 
are in place before disasters occur.
    In some of the statements that I submitted, Senator, there 
is discussion about several policies that would really be 
helpful. One is FEMA working through that network of banks, 
philanthropic, and Community Development Corporations that are 
on the ground and have the community capital, the knowledge, to 
know who is in the community and who needs help.
    In the rural areas, we are used to getting ``least and 
last'' of everything, and that is still happening. We are still 
arriving in rural communities in 11 parishes and counties and 
finding 80-year-old women sitting under a carport, trying to 
drag out moldy furniture, and no one there to help.
    So even today, there is just nothing there. If it had not 
been for philanthropy at its best, like the Heron Foundation, 
the MacArthur Foundation, the Kellogg Foundation--Oxfam America 
was fantastic, and so was Rural LISC, Local Initiative Support 
Corporation. They pulled experts together, people from the 
tsunami region, and brought them together to instruct me so 
that I could go back, and we created the Rural Recovery 
Response, and so far, we have done almost 200 homes with 
another 200 getting ready to be worked on--and that without a 
single dollar of government money.
    So it was philanthropy at its best and the networks between 
that philanthropy and the Community Development Corporations 
that was extraordinarily helpful.
    [The prepared statement of Ms. Bourg follows:]

                   Prepared Statement of Lorna Bourg

    Mr. Chairman, ranking member and members of the committee, thank 
you for your interest, leadership and commitment to community-based 
organizations and their role in recovery from the 2005 Gulf Coast 
hurricanes. I want to tell you the untold story of Hurricane Rita and 
its devastating impact on rural Louisiana and how we can do better in 
our response as a Nation.
    As President and Executive Director of Southern Mutual Help 
Association, Inc. (SMHA, a 501(c) not-for-profit community development 
corporation), based in New Iberia, Louisiana, I had the opportunity and 
duty to SMHA's mission of creating healthy, prosperous rural 
communities to see first hand what had happened to our beloved 
Louisiana.
    There are three important points I wish to make as a result:
    1. Outside of the levee breaks, most rural Louisiana residents 
could recover with some normal assistance from Hurricane Katrina. 
Hurricane Rita, coming only weeks later caused devastation of biblical 
proportions. As a lifelong resident of Louisiana, having experienced 
many terrible hurricanes, nothing comes close to the scale and scope of 
Hurricane Rita's devastation of rural Louisiana.
    After traveling extensively to Louisiana rural communities, 
villages, settlements, towns and cities, the SMHA team believes there 
are nearly 200,000 homes, facilities and businesses that are destroyed 
or inundated (not counting in New Orleans). The power of tsunami-like 
waves obliterated whole parishes (counties) leaving little evidence 
that structures existed. The marsh-mud liquid mixture inundated nearly 
every structure as well as agricultural lands all along coastal 
Louisiana.
    After 40 years in rural community development, I can tell you it's 
difficult to find any words that convey the geographic scale and depth 
of trauma and turmoil Louisiana's rural communities are experiencing. 
You must see for yourself. I invite you to do so.
    2. The failure of Federal policy, understanding, leadership and 
response even until this date is a gross negligence and, as one 
visiting film maker stated to me recently, ``borders on criminality.''
    <bullet> As a Nation we must have the capacity to respond in a 
timely manner to enormous disasters within our borders. We do not now 
have such capacity. I'll recommend how we can do better.
    <bullet> As a Nation we must be able to generate the resources for 
immediate and full recovery from such a level of devastation. We do not 
now generate such needed, expected and deserved resources. I'll 
recommend how we can do better.
    <bullet> America must have a level of policy and leadership equal 
to the level of response required. We have not yet seen such policy or 
leadership. I'll recommend how we can do better.
    Failure to understand, structure bold policy and lead Americans to 
a timely and full recovery in this natural disaster telegraphs to our 
enemies that we are unprepared to deal with a recovery from a man-made 
disaster. It is a huge crack in America's homeland security.
    3. As a Nation we can and must do better.
    Southern Mutual Help Association recommends the following:

    <bullet> First, pre-disaster preparation must be more strategic to 
achieve timely response in the face of such a national disaster. We 
need to use existing resources in local communities and in geographic 
regions. Federal dollars for relief, recovery and redevelopment must 
flow quickly to affected States. Pre-disaster selection, training, 
bonding and certification of local not-for-profit community development 
corporations (CDC's), financial institutions, first responders and 
relief organizations can accomplish a more timely response.
    These entities have community social capital and intelligence to 
quickly determine who was impacted and to what extent. Recovery dollars 
could be quickly transferred electronically to banking institutions 
within States and disbursed to support first responders, relief 
organizations and CDC's. This would minimize non-sensical and seemingly 
arbitrary cash assistance. FEMA temporary shelter units could be 
distributed with more community-based intelligence. (Currently in 
Iberia Parish large numbers of FEMA trailers sit idly at the airport 
while locally, hundreds of families are in desperate need of such 
shelter assistance on their own land.)
    A strategy of ``down-to-the-closest-local-community'' distribution 
of resources creates the national infrastructure to respond in a more 
timely manner. Having such pre-disaster strategy in each region in 
America allows needed resources closest to an affected area to be 
delivered most quickly.
    <bullet> Second, no new bureaucracies need be created to achieve a 
level of policy and leadership equal to such a national disaster.
    Americans have always responded with generosity to disasters. Just 
witness the volunteers from across our Nation who are in Louisiana to 
help us, the fundraisers and checks from adults, children, churches, 
foundations, colleges and corporations. Yet it is not nearly enough.
    I remember my grandmother telling me about the war bonds everyone 
bought in World War II. Some, in a sense of patriotism, never even 
cashed them, they were so proud to be a part of such a noble effort.
    Congress needs to establish a National Disaster Recovery Bond 
giving Americans a structured way to express their generosity beyond 
writing a check to the charity of their choice.
    The billions of dollars generated could be used to retire home 
mortgages and business debt for which collateral no longer exists. This 
preserves the integrity of our financial institutions, prevents 
defaults and credit debacle. The refinanced rebuilding spurs the local 
economy. Refinancing packages could carry a small monthly fee or 
premium to pay interest to bond-holders. It takes vision and leadership 
to use a national disaster to call on all Americans to invest in 
rebuilding better than before so America's enemies will not perceive us 
as weak and ineffectual. A National Disaster Recovery Bond could be 
used for any natural or man-made disaster and would be part of 
America's first line of defense and national security.
    <bullet> Third, both political parties and our President have 
voiced belief in America as an ownership society. Using the Gulf Zone 
area (Texas, Louisiana, Mississippi, Alabama and Florida) to model a 
true Homeownership Tax Credit would incentivize investment in the re-
building of so many lost homes. Congress and the President need to 
seize this unique opportunity.

    Finally, SMHA wants you to know that over 5 months later our 
organization is often the first and only responder helping rural 
Louisiana clean out, de-construct and begin reconstruction. Without the 
quick and un-bureaucratic help from national foundations such as W.K. 
Kellogg, F.B. Heron, Mary Reynolds Babcock, Jesse Smith Noyes, Fannie 
Mae, MacArthur, Needmore, Flora, Associated Black Charities, community 
trusts such as N.Y. Community Trust, partners such as Oxfam America, 
the Union for Reformed Judaism, Farm Aid and intermediaries such as 
Rural Local Initiatives Support Corporation and volunteers from 
colleges and universities such as Colgate, Berea, Warren Wilson, and 
church groups such as The Mennonite Disaster Service, The Amish, 
Unitarians, United Methodists, Presbyterians, Catholic congregations of 
religious women such as the Sisters of Providence, the Volunteers of 
America and the rural network of CDC's especially that led by Jim 
Upchurch, and the many generous individuals across America who 
contributed--none of SMHA's Rural Recovery Response would have been 
possible. With their help SMHA has 150 homes and businesses repaired or 
in process of repair. There are tens of thousands of homes, facilities 
and businesses left to repair or rebuild. We count on your leadership 
and policy for a full recovery.
    To learn more about Southern Mutual Help and the Rural Recovery 
Response, please go to www.SouthernMutualHelp.org.

    Ms. Franklin. One of the things that I would like to say is 
that the faith-based organizations played a key role in the 
work that we were doing in that the churches act as shelters; 
we act as a clearinghouse making referrals to the churches. But 
all of the churches beyond denominations stepped up to the 
plate to make sure that the community-based groups and the 
churches worked together. All together in our community, we 
served 5,100 households that came through our network and 
through our databank. But through the CSBG Unit, and through 
the other community-based organizations, and through the faith-
based groups, that is how we were able to successfully do the 
work that we did.
    The Chairman. Mr. Hazelwood.

      TOM HAZELWOOD, UNITED METHODIST COMMITTEE ON RELIEF

    Mr. Hazelwood. I want to say a word of thanks, I think, in 
some ways, for all of the criticism that has been out there 
toward FEMA and that seems to be very abundant.
    One thing I want to say is that the FEMA people that we 
work with on the ground, in the States, down in the areas where 
they are affected are most effective, and they do a wonderful 
job, particularly as the Voluntary Agency Liaisons who have 
spent years building these relationships, who knew each of us, 
have done a good job of helping us coordinate in our response.
    So I want to say that all is not negative that we hear 
about that.
    One of the other thing that I want to bring to your 
attention that I did not write in my statement was that as 
people were being sheltered--in particular I am thinking about 
in Texas, the Katrina victims that were in Houston and 
actually, all over the State of Texas--the Red Cross shelters 
were overwhelmed and many of the others, so that many of our 
churches opened their doors as shelters. And one of the things 
that happened for us as we opened shelters was that we found 
that we were housing persons with disabilities. I think there 
has been a woeful lack of preparedness in being able to handle 
persons with disabilities. As we have worked into the future on 
the response, we are working with the National Disabilities 
Rights Network to build those relationships.
    But I think that remembering persons with disabilities also 
needs to be thought about as we are thinking about sheltering 
and moving people.
    [The prepared statement of Mr. Hazelwood follows:]

                  Prepared Statement of Tom Hazelwood

    In the days immediately following Hurricane Katrina, UMCOR sent 
staff and consultants to Alabama, Mississippi and Louisiana. Our 
purpose was to connect the national response agency to the local United 
Methodist response as well as Federal and State responses. Contacts 
were made with local disaster response coordinators, judicatory 
leaders, FEMA Voluntary Agency Liaisons, and local response agencies.
    Daily calls hosted by National Voluntary Organizations Active in 
Disaster (NVOAD) enabled UMCOR to know and coordinate ongoing 
activities with those of other response agencies. Separate calls hosted 
by Church World Service (CWS) enabled the faith-based organizations to 
coordinate their response. These calls were particularly helpful in the 
distribution of material resources.
    Within a few days, UMCOR placed persons in the FEMA Joint Field 
Offices (JFO) in MS and LA. These persons were engaged in the ongoing 
meetings and dialogue between Federal, State and local response 
organizations/agencies.
    In the MS JFO, UMCOR was also participating in meetings of the 
Joint Housing Command, where solutions for the many displaced families 
were being discussed.
    Because of UMCOR's experience in setting up and running refugee 
camps internationally and providing case management leadership and 
training in the United States, we were asked by the FEMA staff in the 
JFO to write a proposal for work in MS.
    It has been evident from the earliest part of the response to 
Katrina and then Rita that while the FEMA staff on the ground are very 
well aware of the work of voluntary agencies and the tremendous 
resources they bring to response, the FEMA staff at the highest levels 
have no understanding or appreciation of the voluntary sector.
    It was at the urging of the long-time FEMA employees that UMCOR 
changed its proposal from only serving MS to one presented in 
conjunction with National VOAD for a consortium of case management 
agencies to be formed to work on a national scale. The lack of 
understanding at the highest levels was made evident by the repeated 
number of conference calls, answering questions, writing papers all to 
explain over and over what disaster case management is.
    The lack of awareness extended to other Government Agencies. The 
offices of faith based and community initiatives in the Departments of 
Health and Human Services and Housing and Urban Development and the 
Veterans Administration began dialogue with the White House's Office of 
Faith Based Initiatives and developed a plan using refugee resettlement 
as its frame of reference. When members of the National VOAD tried to 
make these two entities aware of the already existing faith-based 
disaster programs, there was little to no willingness to even invite 
those disaster organizations to be in the conversation. I personally 
could not get an invitation to attend the meetings even after pointedly 
asking to attend.
    After UMCOR/National VOAD had been awarded a $66 million grant to 
provide long-term disaster case management for individuals and families 
affected by Hurricane Katrina, the leadership of FEMA continued to 
miscommunicate the intended result of the grant by sending notices that 
the grant would solve the Katrina hotel housing crises that FEMA was 
facing.
    I was in the FEMA offices in Washington, D.C. dozens of times in 
the weeks and months following Hurricane Katrina. Several times I 
either tried or made appointments to see FEMA Recovery Director David 
Garratt and FEMA Director David Paulison in order to discuss UMCOR's 
long-term recovery case management plans specifically and the 
involvement of voluntary agencies generally. Each time I would either 
be shuffled off to someone else or brushed off due to ``lack of time.''
    Finally after meeting with FEMA staff in the Recovery Division a 
meeting with Garratt and Paulison was scheduled for Feb. 9, 2006. When 
the National VOAD leadership arrived for the meeting, Dave Garratt met 
us with the apology that another meeting had come up and he would not 
be able to participate in our meeting. As we met with Paulison, he made 
clear his lack of knowledge of the voluntary agencies by repeatedly 
telling the group that they needed to ``step up to the plate.''
    The lack of consideration by Garratt to attend and the utter lack 
of preparation or care by Paulison in the meeting with National VOAD 
leadership gives a clear indication of the disconnect between the 
leadership at FEMA and the people, and organizations on the ground that 
provide relief in disasters.
    An article published on Feb. 27, 2006 by The Washington Post 
reports that the voluntary sector has raised over $3.27 billion. Of 
that, over $2 billion has already been disbursed. It is clear that the 
voluntary sector has ``stepped up to the plate.''

Observations on What Can Be Done to Better Coordinate Relief and 
                    Reconstruction Efforts

    <bullet> Faith-based and voluntary organizations have expended a 
great deal of effort to build relationships with each other before 
disasters occur. Federal and State officials could learn from the 
voluntary sector that in the midst of a disaster is not the time to 
build relationships.
    <bullet> Better relationships between top levels at FEMA and FEMA 
on the ground would keep help voluntary agencies from bearing the brunt 
of this disconnect. A ``firewall'' between the political appointees and 
the government employees who are charged with implementing the policies 
and programs would help keep continuity in disaster response rather 
than have response policies constantly fall prey to new political 
trends.
    <bullet> There must be some understanding with regard to disaster 
response between Government Agencies. So often two separate agencies 
will be attempting to solve the same problem while being isolated from 
each other.

Preparation for 2006 Hurricane Season

    <bullet> Meeting with judicatories affected by the 2005 hurricanes 
to evaluate lessons learned.
    <bullet> Ongoing training with coastal judicatories to prepare for 
disasters. (For example, we have training scheduled on April 24-26 for 
our Southeastern States.)
    <bullet> Restocking material resources.
    <bullet> Meeting with Volunteers in Mission leadership to refine 
deployment strategies for individual volunteers as well as response 
teams.
    <bullet> As a form of mitigation, United Methodist case managers 
working with Katrina/Rita clients are addressing concerns related to 
the upcoming 2006 season on a case-by-case basis.

    The Chairman. Mr. Gaddy.

   REVEREND DR. WELTON GADDY, PRESIDENT, INTERFAITH ALLIANCE

    Mr. Gaddy. Thank you, Senator Enzi.
    I want to affirm what Ms. Franklin said about the 
importance of faith-based organizations in the delivery of 
services in a region and explain a little bit why it could be 
that way.
    I think that faith-based organizations move with quickness 
and with flexibility and with spontaneity that enhance the 
delivery of services in a crisis like this.
    One caution I have about strict coordination relates to 
those strengths. I do not want us to add a layer of government 
coordination to faith-based organizations that in the end 
compromises the very strengths that allow faith-based 
organizations to do their work.
    We were talking beforehand--I find sometimes that the 
people strategizing about how to meet disaster needs do not 
really understand faith-based structures and the way they do 
business, and this impacts both the delivery of services and 
funding related to services.
    One reason that faith-based organizations are there on the 
ground is because they are not doing this because of the 
special moment--they are doing it because of an enduring 
compassion. This is what faith-based organizations do. You can 
count on them being there because it is a part of our makeup. 
So we are not there to be guided by what someone else wants 
done. We are there out of our own unique faith traditions that 
need to have the freedom to find expression, and that means 
that we need good communication, a minimal level of 
coordination, and a respect for the importance of sharing 
whatever our religious tradition is as we do the work of 
compassion.
    [The prepared statement of Rev. Dr. Gaddy follows:]

             Prepared Statement of Rev. Dr. C. Welton Gaddy

    Chairman Enzi, Ranking Member Kennedy, Senators and staff of the 
committee, thank you for allowing The Interfaith Alliance this 
opportunity to share with you our experiences with regards to the role 
of faith based organizations in the wake of Hurricane Katrina.
    A mixture of anger, compassion, appreciation, and anxiety has 
motivated my daily actions in the wake of Hurricane Katrina. As the 
pastor of a church in Monroe, Louisiana, I have been privileged to work 
alongside members of my congregation and other members of our community 
in a variety of relief efforts involving spiritual, logistical, and 
financial issues. The personal and religious compassion that I have 
witnessed have, at times, been overwhelming. Such has not been the 
case, as you know, with governmental responses to screaming needs.
    In response to the compassion of the religious community--and the 
failures of our Government--on October 21, 2005, The Interfaith 
Alliance led an unprecedented interfaith delegation of religious 
leaders to Baton Rouge. This delegation met with Katrina evacuees and 
the many religious leaders and community, local and State agencies 
providing relief efforts to all those adversely affected.
    We felt it of the utmost importance that this delegation spend its 
day listening to the evacuees and their caregivers. We needed to hear 
their heroic stories. We needed them to tell us what their needs were, 
be it spiritual, emotional, financial or all of the above. This 
delegation was less about who we are and what we do for a living, but 
rather more about our fellow brothers and sisters in need and our 
abilities to make a positive difference.
    Upon our return to Washington, The Interfaith Alliance compiled a 
written and video report of our trip. The report we wrote was not the 
report we anticipated. Because our organizational focus is on the 
protection of people's religious and civil liberties, our lens with 
which to see Baton Rouge was focused in this direction. But what we saw 
and heard were the personal stories of the people from this region--
personal stories laced with important insights into the gross tardiness 
of governmental officials, the stark failure of Government Agencies, 
the repulsive ugliness of a rampant racism that knows no socio-economic 
boundaries and which, if left unresolved, in the long run, will prove 
more destructive than the onslaught of a cluster of Category 5 
hurricanes. These stories also abound with references to heroic efforts 
on the part of people of faith, compassion, and goodwill who have 
demonstrated a level of generosity without which the region today would 
be devoid of most of the most helpful efforts of the past several 
months.
    This report is a collection of what The Interfaith Alliance saw, 
felt, heard, touched, and thought during its visit to Baton Rouge, 56 
days after Hurricane Katrina ravaged the Gulf Coast region.
    While thousands of people's lives were impacted in the area, this 
report only deals with the current situation in Baton Rouge.
    If there is one visual that best describes in our minds what Baton 
Rouge ``looks'' like spiritually and emotionally, it would be one big 
mess. And without the selfless acts of community groups, local elected 
officials and especially the religious community, it is impossible to 
describe where the city and its new population of almost 500,000 would 
be today.

The Cause

    The Government clearly failed in its preparation and response to 
the devastating effects of Hurricane Katrina. In doing so, the weakest 
and poorest among us have suffered greatly.

The Effects--What We Saw and Heard

    The Interfaith Alliance respects and praises the important role 
that religious groups have played in providing assistance to those in 
need. They responded--as they should--both compassionately and 
charitably to people in need and expected no Government money for 
support. Why? Because this is what they do.
    When the religious community reacted to the hurt inflicted not only 
by the hurricane, but by the Government, did they realize the full 
impact on themselves? Did they realize that they would cut their 
daycare programs and after school-programs just to make physical space 
for a food bank and clothing distribution center? Did they realize they 
would not be able to pay their light bill because they were too 
concerned with helping elderly evacuees pay for their diabetes 
medication? Did they realize they could be caring for and possibly 
housing evacuees for up to 3 years? Did houses of worship, which had 
never even been in the business of running a shelter, realize they 
would open up for business and take in 50 residents?
    In the months, days, hours and minutes following Hurricane Katrina, 
numerous and diverse religious communities rose to the occasion and 
offered help, ranging from serving up meals to tired rescue workers to 
offering solace to the elderly man who had just lost his wife to the 
raging waters of a levee break. But did they, or could they understand 
just how much undue responsibility they were assuming in acting on 
their compassion? Did they realize this would be a commitment of up to 
3 years? Would it have mattered?
    From what we saw and heard, the local religious community of Baton 
Rouge is stretched beyond its breaking point, both financially and 
spiritually. Houses of worship and religious organizations are trained 
to minister to the sick, hungry and poor. But they are not trained, nor 
should they be, FEMA's replacement. Because many Government leaders 
reacted so poorly, the religious community--among many other community 
groups--has been left holding an empty bag with no relief in sight.
    I speak only about what I have seen, felt, heard, touched, and 
thought.
    I hear the complaints of a man imprisoned by stereotypes--a 
gentleman in the first of the trailer cities to go online in Baton 
Rouge, a man who is crippled in efforts to find employment because of 
the outrageous assumption that anyone living in one of these--what the 
people of Louisiana are calling ``FEMA ghettoes''--must be 
impoverished, lazy, and incapable of meaningful work.
    I feel the nausea evoked by public officials in New Orleans 
speaking with disdain about the people of color whom they need to help 
and expressing in whispers their wish that they simply could eliminate 
these people from the scene.
    In the trailer village in Baker, LA, wading in dust as deep as snow 
after a major winter storm, I heard people talk of their difficulties 
with breathing and seeing. I am haunted by the outburst of a young 
woman reflecting on the question ``What do you need?'' ``What do I 
need?'' she asked rhetorically. ``What do I need?'' How about my toe 
nail clippers? How about my curling iron? Do you know what it is like 
to have nothing--nothing and no way to get anything?
    I saw Mayors stretched to their limits in efforts to help the new 
citizens of their cities who bring to their new homes only hurt, needs, 
and a desire for a new life. And, I hear these Mayors speak of no 
financial help from FEMA.
    I listen and watch basic State institutions in Louisiana making 
plans to close because of a lack of funding in the wake of the Federal 
Government's refusal to provide adequate assistance for a State to 
function as a State.
    I watch with gratitude and amazement scores of religious 
communities that continue to provide shelters and programs for evacuees 
with little idea of where the money will come from to pay the costs 
involved and, because they have not been on the photo-ops tours of 
public officials, they are receiving no aid from even the Red Cross.
    But, let's get this straight. Religious leaders and their 
congregations provide help in a time of crisis because that is what we 
do. We do not wait on the President or a Governor to call us to action. 
The compulsion comes from our convictions. The hurt is our call to 
service.
    Personally, I am offended as well as astounded by people, who under 
the guise of religion, now request Federal financial hand-outs--a 
request inspired by a President who has promised money to houses of 
worship that cannot be delivered--to cover the costs of budget deficits 
that were on their books long before there was even a tidal wave that 
started swirling its way into a hurricane.
    I am weary of listening to Government officials patronizing 
religious people with comments about the importance of our work in this 
disaster. It is time for these officials to get busy doing their work--
providing for the public welfare, which is a moral responsibility of 
Government.
    I am worried as I watch the manipulation of catastrophic hurt in 
the interest of advancing legislative initiatives for which the 
Government has not been able to secure public affirmation or 
congressional approval in normal times. The policies at the center of 
my concern may provide a pittance of money immediately, but, 
ultimately, these policies will result in a diminished guarantee of 
civil rights and a compromise of religious liberty. We can do better!
    Were it not for the initiative and generosity of many social 
agencies and religious groups, the Gulf Coast region would be in even 
more terrible trouble than is presently the case. But let us not blame 
the Government. We are the Government. Let us blame those whom we have 
employed to do the essential work of Government that is not being done. 
Let us demand that they do better or get out of the way and allow 
someone else a chance to lead by helping people in need.

Recommendations

    Religions in this Nation recognize that the Federal Government can 
be of immense help in relieving the suffering that they address every 
day and encourage Government officials to act to make this relief a 
reality. These recommendations lend themselves to the Government acting 
in a way the American people expect them to:

    <bullet> We need tax incentives for charitable giving and tax 
relief for the poor in our land who are carrying a part of the burden 
created by tax relief for the wealthy.
    <bullet> We need a commitment to public education and funding for 
public education that assure every student quality preparation for 
exiting poverty through the doorway of meaningful employment.
    <bullet> We need an interest in welfare that does not adjust the 
welfare rolls to cut funding but provides people with the training and 
support they need to outgrow the welfare rolls.
    <bullet> Real compassion should be evident in every line item in 
the Federal budget, not just at those places intended to promote the 
Government's funding of religion.
    <bullet> We need a partnership between religious institutions, the 
Federal Government and private philanthropy that draws upon their 
collective resources and protects the integrity of all.

What Does ``Better Coordination'' Mean?

    Because so much attention has been given to the tremendous role 
that faith-based groups played during this crisis, a lot of talk has 
been around making permanent, the President's White House Office of 
Community and Faith Based Initiatives. The Faith Based Initiative is an 
example of manipulation, not coordination.
    Neither in a time of crisis nor in normal times do we need a faith-
based office in the White House. We have faith-based offices all over 
this Nation and they are where they belong--in synagogues and 
gurdwaras, in mosques and churches, in temples and store-front ministry 
centers.
    Religion should not be dictated from the White House or legislated 
from the halls of Congress; this is not where religion works. Religion 
thrives on freedom, not on imposition. Even the most avid evangelists 
know that religion can never be pushed down a person's throat. The 
result is not authentic religion.
    The term ``coordination'' in and of itself is a legal term that 
connotes expectations as well as entanglement. Governmental leaders 
must communicate their programs and priorities with religious groups 
and other non-profit organizations in order to enhance the work of all. 
The religious community accepts the appreciation expressed by President 
Bush for the hard work in the aftermath of Katrina, but the greatest 
show of thanks would be for the Federal Government to now step up and 
do its job. Regular communications and mutual awareness is absolutely 
necessary. But at the end of the day, only the Federal Government can 
provide assistance to current and future evacuees on the scale and size 
of a problem as large as Hurricane Katrina.
    Katrina has taught us many lessons in the past 6 months. For The 
Interfaith Alliance, the lesson most amplified is that the Government 
must act like the Government and respond helpfully to the weakest and 
poorest among us. And the religious community will continue to act like 
the religious community in responding compassionately and charitably to 
people in need.

A Report From the Field--Gautier, MS

    As The Interfaith Alliance's delegation departed Baton Rouge 56 
days after Katrina came ashore, a promise was made by the delegation 
that we would find ways in which to share the stories and experiences 
of those we met. Rabbi David Gelfand, a member of the delegation, 
shared his experiences with local religious leaders in East Hampton, 
NY. In return, one of the Rabbi's colleagues went to Mississippi to 
offer his help and reported back to his congregation his experiences. 
We share this with the members of this committee because it is 
important to always keep in front of us what is most important:

        Eleven of us from the East Hampton Church returned last night 
        from a week's stay in Gautier (pronounced Go-che), Mississippi. 
        We were part of the Presbyterian Disaster Assistance team which 
        has been on the ground since September, helping people put 
        their lives and homes back together. It was a remarkable 
        experience for all of us on this team.

        With a wide variety of skills (or in my case non skills) we 
        were assigned varying ranges of tasks, from cooking, to office 
        management, to roofing. Together, we shingled and insulated one 
        home for a woman with disabilities who has been living in 
        Memphis since the storm, and mucked out (taking the debris, 
        wallboard, rugs--everything--out of the house); repaired poorly 
        constructed boards, insulated and wall boarded another home. In 
        the meantime, we erected the camp tent, did camp clean up 
        duties, and purchased supplies for the work teams that would 
        follow us. (There were three others in camp when we left 
        yesterday.) We had a great sense of accomplishment as we saw 
        tasks being completed.

        But our work is such a small imprint on an overwhelming canvas. 
        The devastation is beyond description and beyond belief. As we 
        drove toward the coast from the Airport in Jackson, we began to 
        point out trees that had fallen, neon signs that had been blown 
        away in Hattiesburg, some 60 miles away. Throughout the week we 
        would see little pockets of the damage; homes with blue tarped 
        roofs, FEMA trailers on the front yards, and debris piled in 
        near the curb. But as we left yesterday, we drove along Highway 
        90 along the coast in Biloxi and Gulfport, and we began to see 
        the enormous task that lies ahead. Blocks and blocks are still 
        waiting for the rubble to be removed. There are areas that look 
        like they have been bombed. Businesses are gone--there is the 
        foundation, but nothing else. These are most likely mom and pop 
        variety of stores that populate beach communities, and there is 
        little chance that they will come back. There is construction 
        being done on the casinos in Biloxi--one is already open for 
        business--and some of the larger hotels and homes, but 
        everything else is piecemeal. There is no economy outside of 
        the service industries--the fast food chains are up and running 
        and feeding the construction workers--and Lowes, Home Depot and 
        WalMart were running at full-speed. Workers are hard to find 
        for these establishments, they advertise $7.00 an hour wages, 
        but there is no place for people to live.

        The Presbyterian Disaster Assistance will be onsite for 2 to 3 
        years. Groups are strongly encouraged to plan work camps and 
        mission trips; there is so much work to do. We are thankful for 
        the nearly $5,000 that was raised in the East Hampton Community 
        for this trip. We will be offering a report in worship on March 
        12, and at other opportunities as they develop.

        One final word of encouragement. On Sunday we worshiped at the 
        Gautier Presbyterian Church, a small church with about 70 
        members. The church sustained some damage as did many of its 
        members. But we were all struck by the powerful spirit of hope 
        that was present in worship that morning. There were several 
        visiting groups to join the congregation in worship. Every seat 
        was taken (and they were new, of course, since the old pews 
        were found floating in a couple feet of water when the doors 
        were opened after the storm.) They sang with enthusiasm along 
        with the new piano, hymnal and bibles. In the service there was 
        a service of ordination and installation of one elder, and when 
        the call came out for all elders to come forward, there were 
        people representing churches from South Carolina, Pennsylvania, 
        Michigan, Virginia, Ohio, New York and other States, forming 
        again, an unbreakable bond of the Body of Christ.'' Kent 
        Winters-Hazelton, Interim Pastor, First Presbyterian Church 
        East Hampton, NY.

    Thank you for allowing The Interfaith Alliance this opportunity to 
address the U.S. Senate Committee on Health, Education, Labor, and 
Pensions.

    The Chairman. Mr. Nemitz.

   CRAIG NEMITZ, DISASTER SERVICES MANAGER, AMERICA'S SECOND 
                            HARVEST

    Mr. Nemitz. Thank you again for convening this roundtable.
    I want to echo a couple of things. The first is Mr. 
Hazelwood's recognition of FEMA for the good work they did. I 
would also like to recognize the Public-Private Partnership 
Office of DHS, which also helped my organization, America's 
Second Harvest, get a lot of work done that we could not have 
gotten done without their help and without FEMA's help.
    The Voluntary Agency Liaisons that Mr. Hazelwood mentioned 
are vital, and in my written testimony, I would request, ask, 
beg, that they be permanent employees, that they not be left to 
every 2 years having to reapply for their jobs. They are a 
great group of people who know disaster response from the 
ground up.
    Along those same lines, though, during the time of the 
disaster is not when we should be exchanging business cards 
with each other, be it faith-based, community-based, or 
otherwise. The Emergency Management Institute at Emmitsburg, MD 
needs to be better-funded. That was a training ground for many 
of us to cut our teeth on when we first got involved, and I 
think a lot of us would benefit from that facility having 
proper funding to allow small organizations, large 
organizations, new employees at the State and local levels of 
government, to go and get disaster management basics under 
their belts.
    A lot of what we did this year had to be built on the fly--
and I speak only for my organization, because I am sure that 
everybody else's plans worked perfectly. But a lot of what we 
had to do, we did with the best of intentions, with the best of 
support, and let us take away the lessons we learned from this 
to make sure that the mistakes we have made before are not made 
again.
    I see the clock is running. I came across a quote yesterday 
that I just had to share with this group. We are seeing all 
these final reports coming out from various organizations--the 
final report from the White House, the final report from 
lessons learned, information sharing. I did not realize there 
were so many final finals. But this quote is credited to 
Eleanor Roosevelt, who once said, ``Great minds discuss ideas; 
average minds discuss events; and small minds discuss people.'' 
I hope we are going to be with the great minds as we put 
together our lessons learned from this.
    [The prepared statement of Mr. Nemitz follows:]

                   Prepared Statement of Craig Nemitz

    Dear Chairman Enzi and Senator Kennedy, thank you very much for 
your invitation to participate in a roundtable discussion focusing on 
the contribution of community-based organizations to the relief and 
reconstruction effort on the Gulf Coast. I look forward to the 
opportunity to describe my experiences and offer my thoughts and 
suggestions.

Background

    The destruction caused by Hurricane Katrina, followed closely by 
Hurricane Rita, is unlike anything this country has seen. Amid the 
devastation, however, came an unprecedented outpouring of assistance 
from many levels. America's Second Harvest--The Nation's Food Bank 
Network, the Nation's largest hunger-relief charity, was there to 
supply the basic necessities: food and water. With more than 200 food 
banks and food-rescue organizations serving all 50 States, the District 
of Columbia and Puerto Rico, which in turn serve more than 50,000 
charitable agencies, the America's Second Harvest Network provides 
emergency food assistance to approximately 25 million Americans each 
year. Because the America's Second Harvest Network is so expansive and 
experienced, when disaster strikes, we are ready to respond quickly and 
efficiently.

Our Disaster Experience

    America's Second Harvest has been an active member of National VOAD 
(Voluntary Organizations Active in Disaster) for many years. Our Vice-
President of Programs (Christopher Rebstock) served as NVOAD's 
President and I currently am a member of the board of directors.
    This involvement is not by happenstance; we long ago realized that 
the strength of one organization is complimented by the collective 
strength of many. America's Second Harvest values our partnerships pre- 
and post-disaster as this is how our network of food banks function to 
lessen hunger in the United States everyday.
    America's Second Harvest--The Nation's Food Bank Network has a long 
standing Statement of Understanding with the American Red Cross and on 
August 9, 2005 we signed a Memorandum of Understanding with the Federal 
Emergency Management Agency/Department of Homeland Security; never 
anticipating that just 19 days later the largest natural disaster in 
U.S. history would begin. These are two examples of formalized 
relationships we have but dozens more informally exist as a matter of 
course. I would be remiss, however, if I did not specifically mention 
the Food and Nutrition Service (FNS) of the USDA. Federal commodities 
are critical to food bank operations, whether in disaster mode or not. 
America's Second Harvest is very fortunate to have an excellent 
relationship with USDA and that relationship allowed for a very smooth 
transition to an emergency mode of operations during the disaster. With 
the USDA's commitment to meeting emergency needs during the hurricanes 
and their aftermath, commodity deliveries to food banks were quick and 
effective. While food banks in the affected areas did a tremendous job 
meeting immediate need, emergency food stamps issued by the USDA helped 
address more ongoing need.
    Our food banks in the Gulf States and nationwide work daily to 
distribute donated food and grocery items to local charities that serve 
people in need. These efforts doubled and redoubled after Katrina 
struck. Hundreds of local agencies ceased to exist post-storm and 
dozens of new agencies sprung into action to help people affected by 
the destruction. Local groups that had a NVOAD or State VOAD connection 
were the easiest routes to channel disaster response products towards. 
Other groups needed to be quickly educated on the standards set by 
America's Second Harvest before they could safely and efficiently 
access food from a local food bank. This procedure was time consuming 
but food bankers are flexible people that streamlined processes in 
order to expeditiously get food to the affected areas.
    Knowing that the hurricanes had significantly altered the landscape 
of the Network as well as the face of demand for food assistance, 
America's Second Harvest has sought to quantify such changes. Last 
November, America's Second Harvest devised a plan to interview clients 
in food pantries, soup kitchens, and shelters to learn more about the 
circumstances that led them to seek emergency food assistance and 
better understand their needs, and to survey provider agencies and food 
bank representatives to assess how the hurricanes affected service 
delivery. The end result was an assessment of the impact of Katrina and 
Rita on charitable food assistance delivery that will enable the 
America's Second Harvest Network to be even more effective in 
responding to future disasters. I would like to share some of the 
results of that study with you.
Clients
    <bullet> Demands for food assistance overall in the Gulf Coast 
States are 50 percent above pre-Katrina levels.
    <bullet> 72 percent of clients seeking food assistance in the 
impacted States were first time clients, tripling the demands in the 
impacted States as a result of the hurricanes.
    <bullet> One in nine households representing 6.4 million people in 
the impacted States received food assistance.
    <bullet> Nearly 40 percent of the households requesting food 
assistance were African-American.
    <bullet> 31 percent of households requesting food assistance had a 
child 12 years of age or younger.
    <bullet> Households seeking emergency food assistance had median 
incomes of $26,000 compared to $42,000 for the total area; 21 percent 
report having an income below $10,000--more than twice the percentage 
found throughout the area.
    <bullet> 28 percent of the people seeking emergency food assistance 
immediately after Katrina were already receiving food assistance before 
the hurricane hit.
    <bullet> 77 percent of the new food recipients no longer needed 
assistance following the ``peak'' period in October. Of the people 
still requesting food assistance, 65 percent were already receiving 
food assistance prior to Katrina.
Food Banks Respond
    <bullet> America's Second Harvest--The Nation's Food Bank Network 
provided an unprecedented response to Hurricanes Katrina, Rita and 
Wilma with more than 1,600 truckloads carrying 62 million pounds of 
food providing approximately 48 million meals valued at an estimated 
$84 million.
    <bullet> 39 of 210 (13 percent) of America's Second Harvest Members 
are located in the impacted States.
    <bullet> Two food banks in the primary markets reported a three-
fold increase in food distribution since Katrina. The Bay Area Food 
Bank in Mobile, AL reported a ten-fold increase at the peak of the 
relief effort, tapering off to 75 percent now.
    <bullet> Secondary markets reported an average of 60 percent 
increase in food distribution.
Agency Infrastructure
    <bullet> 41 percent of the people receiving food assistance prior 
to Katrina report that the agency where they received assistance is no 
longer in operation.
    <bullet> The primary markets reported 86 percent of their agencies 
currently being served were temporary disaster-relief programs.
    <bullet> 80 percent of clients receiving food assistance prior to 
Katrina reported food availability being the same or better following 
Katrina.

Issues to Consider

    Local Emergency Management and City Government officials would be 
wise to include the non-governmental organizations (NGO's) and State 
VOAD members in ALL exercises, drills and planning meetings. The time 
to exchange business cards and decide who has what skills and abilities 
is not after a disaster strikes. NGO's must be included in all pre-
event planning and in the mitigation process in order to be effective. 
Government officials at all levels must broaden their definition of 
``first responders'' beyond police officers and fire fighters. NGO's 
are first responders by design but are somewhat neglected in the 
emergency management cycle.
    On the State level, Emergency Operation Centers coast-to-coast must 
have a seat for their State VOAD representatives. This not only puts 
the collective abilities of the NGO's at the Governor's doorstep but it 
also opens up resources for the charities to access in order to get 
their jobs done. Each State needs to also include NGO's at all stations 
of their planning.
    For the Federal side of this equation, the issues get much more 
convoluted. The single greatest asset that NGO's have in the disaster 
arena is the FEMA VAL's (Voluntary Agency Liaisons). This core of 12 
seasoned FEMA employees and their liaison at FEMA's Response and 
Recovery Directorate in Washington, D.C., gives a vital lifeline 
between the decisions made in Washington and the NGO's actually doing 
the job on the ground. The VAL's helped America's Second Harvest access 
scarce fuel, permits and other resources in Louisiana, Mississippi and 
Alabama when no answers were forthcoming from State EOC offices. The 
VAL's need to be made permanent, core positions in the FEMA structure.
    The Public Private Partnership Office of the Department of Homeland 
Security was an outstanding resource in countless ways during the 
response in the Gulf. This office helped America's Second Harvest 
secure much needed warehouse space for disaster supplies in Louisiana 
and helped to secure lodging for food bank responders. The DHS 
oversight of FEMA adds a layer to the communications channels but 
fortunately my office knew who to call at the right time for the right 
answers. This was by design but occasionally good fortune smiled upon 
us.
    During the 2005 hurricane season there were occasions when State 
and Federal entities were competing with non-profit organizations for 
financial contributions. Governors were setting up relief funds and the 
Clinton-Bush Fund was also appealing for support. These admirable 
efforts take away desperately needed sources from community groups, 
faith based organizations, NGO's and VOAD members. Time and effort then 
needs to be expended applying to the big funds so charities can 
continue their jobs. A corporate CEO is not going to say ``no'' when a 
former President of the United States knocks on his door or when the 
Governor calls, but that diminishes the timely support available to 
non-profits. There are only so many slices in the charitable pie.
    Another tidbit for the Federal issue is for FEMA/DHS to fully and 
eternally fund the Emergency Management Institute in Emmitsburg, MD. 
This world class facility was where all newcomers to disaster 
management went to cut their teeth on critical issues like donations 
management, incident command and unaffiliated volunteers. EMI gave 
everyone (Governmental and NGO's) a common basis of knowledge and 
usable training to take into the field. The EMI VAL position was 
eliminated due to budget cuts and restructuring a few years ago; this 
critical position needs to be re-established and supported.
    Based on my experience, it is only the military that would have had 
the ability to handle the affects of hurricane Katrina alone. This 
brings to mind an area where your influence would be extremely valuable 
at the local, county and State levels. In Mississippi our food banks 
worked closely with the Mississippi National Guard--this marriage of 
resources made perfect sense, we had the food they had the trucks and 
personnel to get into areas cut off from normal distribution channels. 
In Texas after hurricane Rita it was a completely different story. The 
Texas National Guard was ordered not to transport any relief supplies 
on their vehicles if those supplies came from a non-profit 
organization.
    Any assistance that you can offer to help NGO's standardize 
relationships with National Guard Command from state to state would be 
greatly appreciated.
    Finally, I submit to you that NGO's, VOAD members, faith-based 
organizations and community groups would be best served at all levels 
of Government if the playing field was level. For example; low interest 
disaster mitigation loans are available to for-profit small business 
owners to reinforce a roof or install a generator for back up power 
through the Small Business Administration. However, non-profit 
organizations like the 213 food banks in the America's Second Harvest 
Network are not even allowed to apply for these types of urgently 
needed loans. This disparity becomes even more confusing because non-
profits can apply to the SBA to rebuild after their facilities are 
destroyed. The logic is not bubbling to the surface here.
    Food banks, some houses of worship and other non-profit buildings 
are distributing relief supplies hours and often days before State and 
Federal resources can access hard hit communities after a disaster. 
Shouldn't these valuable organizations at least have access to funds 
that can help them do better during the worst of times?
    In preparation for the upcoming 2006 hurricane season (as well as 
whatever else Mother Nature throws at us) America's Second Harvest has 
recently conducted a Disaster Debrief Conference in Chicago for those 
food banks that were primarily affected and secondarily supported the 
relief efforts from Katrina & Rita & Wilma. We are collecting and 
deciphering our internal lessons learned in order to strengthen our 
ability to respond when a disaster strikes. Our Network and those 
agencies we worked with did a tremendous amount of good to alleviate 
suffering this past year--but we know that as local and State Emergency 
Management offices and DHS focuses and invests more on terrorism 
issues, the natural disaster response and long term recovery will fall 
more and more onto the shoulders of the community based organizations.
    Again I want to express my appreciation for your invitation to take 
part in this discussion and I hope that our meeting will be the first 
of many that will help us all learn where the shortcomings could have 
been avoided and to also celebrate the chance to duplicate the 
successes when things worked well.
            Respectfully submitted,
                                       Craig A Nemitz, CEM,
                                         Disaster Services Manager,
          America's Second Harvest--The Nation's Food Bank Network.
                                 ______
                                 

    The Chairman. Thank you.
    Ms. Bourg. Well, in deference to my colleagues who made 
rather kind statements about FEMA, I seriously, strenuously, 
vociferously disagree. Our experience in rural Louisiana with 
FEMA has been a disaster, and no one has the authority to say 
or do anything, and they frequently and regularly contradict 
each other. I am not talking about the people who try to work 
hard and are out there, but the fact is there is something 
seriously wrong with the structure of FEMA, especially in 
regard to rural areas--at least, that is my experience in rural 
Louisiana.
    I do recommend in my comments the restructuring of FEMA and 
how to do that a little bit, and I guess I would like to pay a 
little more attention to something called the National Disaster 
Recovery Bond, which has kind of taken something from my own 
grandmother, who remembers World War II and how we won the war 
and rebuilt Europe, and Americans were looking for a way to be 
part of that victory. I think Americans would like to do more 
than, hopefully, write checks to the Red Cross. The National 
Disaster Recovery Bond could not only be used from Texas to 
Florida right now, but could be used in any national disaster 
anywhere, and people would buy those bonds. That would help 
retire the debt on mortgages and businesses, and when they 
refinance, a small premium could be paid in order to pay, let 
us say, 3 percent on the bond. I think Americans would put that 
as part of their investment portfolio.
    The Chairman. Thank you.
    Ms. Wright.

JAYNE WRIGHT, DIRECTOR, LOUSIANA STATE VOLUNTARY ORGANIZATIONS 
    ACTIVE IN DISASTER AND HEAD OF THE FOOD BANK OF CENTRAL 
                           LOUISIANA

    Ms. Wright. I have a couple things to say. First of all, I 
want to echo the comments about what worked and about 
relationship-building before a storm happens. The networks that 
we build in communities, in VOAD meetings, and knowing who is 
going to be on the other end of the phone when the call does 
actually go through are very important, and knowing what the 
other partner is going to do as far as the food is going to be 
there, the shelter is going to be there, the one phone call 
request are the best kind during the chaos; and knowing that in 
many cases, the way we work together, your word is your bond. 
And that is kind of old-fashioned these days, but that is the 
way this community works.
    Communication, of course, was a tremendous challenge from 
day one, and when all the systems went down, a lot of the 
communication eventually happened face-to-face, because people 
are having to drive in. I was in the stadium for months, and 
slept on a cot in the back, so I had the experience of 
sheltering as well--when I did sleep.
    I also want to echo some of the comments about FEMA and the 
State operations people. Those were my primary contacts in the 
initial days, and then the FEMA VALs, the Voluntary Agency 
Liaisons. They were very responsive to our requests. We 
requested equipment and help finding different resources during 
the storms, and they might tell me ``No,'' but when I came 
back, they had reconsidered, so they were very open to the 
discussion.
    A lot of the things that happened with FEMA from my 
perspective is that a lot of the rules kept changing with the 
people on the ground. That is one reason that there was a lot 
of confusion, because they started off operating under one set 
of parameters, but it changed during the whole thing, and it 
kept changing. That is the reason why a lot of times, you would 
get ``Yes'' one time and ``No'' the next time--the ball kept 
moving.
    [The prepared statement of Ms. Wright follows:]

                   Prepared Statement of Jayne Wright

    Senators Enzi and Kennedy, thank you for the opportunity to 
participate in this discussion about the response of the Voluntary 
Agencies to Hurricanes Katrina and Rita. It is difficult to capture 
everything in a few minutes. There are so many things that happened 
with this response, more good than bad. However, that is not the 
picture that many choose to paint.
    The majority of my time was spent in the State Emergency Operations 
Center (EOC), in Baton Rouge prior to the landfall of Katrina until 
mid-October. My responsibilities as the President/Chair of Louisiana 
Voluntary Organizations Active in Disaster (LAVOAD), were to represent 
the group in the EOC, (handling requests from the parish governments, 
other State agencies, State officials, voluntary organizations, assist 
in the implementation of the donation management plan, coordinate the 
flow of donated goods and volunteers until the donations coordination 
team was in place), and facilitate the weekly meetings of the LAVOAD 
groups.
    In addition, to the aforementioned duties, my volunteer job, I am 
also the Executive Director of the Food Bank of Central Louisiana, my 
day job. We are a member of America's Second Harvest, the Nation's Food 
Bank Network. I serve on the National Council of the group.
    My Food Bank is located in shelter sector A, the initial area for 
evacuees to be sheltered within the State. Our job is to supply the 
shelters during the time that they are open, whether they are part of 
the Red Cross system or not. During these storms, we supplied food to 
49 groups that were not part of the Food Bank network or the Red Cross 
network. In addition, our team provided food to more than 12,000 
families that were staying in private homes or hotels/motels.
    During the height of the chaos, communication was difficult at 
best. The only system that did not go down was the blackberry and I did 
not have one, most volunteers did not. Eventually the land lines, e-
mail and cell phones came back, but in those first couple of weeks we 
had to send volunteers out to areas where we could not reach the local 
Office of Emergency Preparedness. They reported back and we sent 
supplies accordingly. The parishes that were able to communicate sent 
requests as did State agencies at an unbelievable pace. We responded 
and sent volunteers and supplies all across the State. Fortunately, the 
food banks had a good stock on hand, the Southern Baptist travel with 
initial stock, so, we had access to food immediately.
    USDA's Food and Nutrition Service was on site within a few days to 
offer more food. Of course, the food in the schools is made available 
to those shelter operations, but so many shelters were located in 
places that had never served as shelters before. There was a much 
greater need for congregate feeding and household distribution.
    America's Second Harvest, the Nation's Food Bank Network (A2H), 
responded with unprecedented support from other food banks, food 
donors, and trained volunteers. Food and grocery products were flowing 
into staging warehouses and the local food banks very quickly.
    Adventist Community Services came in to operate the one of two 
multi-agency warehouses that we set up in New Iberia; A2H ran the other 
in Baker. Donated goods were shipped to these locations in addition to 
the four remaining food banks in Louisiana. Community based 
organizations, both VOAD and non VOAD, and local governments, including 
first responders, accessed the supplies from these points.
    An example of this type of situation was during Hurricane Rita, one 
rural parish OEP sent in a request for food for 6,000 people that had 
evacuated to Sabine Parish. We responded by forwarding the request to 
the nearest food bank and that team delivered food to them within a few 
hours.
    LAVOAD responded to requests for supplies and resources within our 
own network as well, coordinating shipments of supplies to warehouses 
and agencies as needed. We worked beside the American Red Cross team in 
the EOC and helped whenever they had a request for assistance. We were 
able to work with the American Red Cross to get services into parishes 
in Southwest Louisiana where there had been little service or 
communication with the Voluntary Agencies before.
    We also worked closely with the State Department of Social Services 
to provide supplies to the shelters that they were coordinating. Many 
baby products, toiletries, blankets, food and other supplies were 
delivered to their sites across the State.
    As the storms quieted, and the efforts to place people into 
transitional housing progressed, the LAVOAD team stepped forward to 
take donated goods and put ``living kits'' together. These kits 
contained basic household goods and linens that were placed in the 
trailers at the FEMA staging site in Baton Rouge.
    There are many more examples of team work between the Voluntary 
Organizations, local and State government, and community based 
organizations. We are not without challenges. Communication is probably 
the biggest, followed by education of the government agencies with 
regard to their responsibilities in the State plan, education of 
government at all levels with regard to VOAD and logistics. Logistics 
are always a challenge in this type of situation.
    Both the efforts of the LAVOAD team and the Food Bank are ongoing. 
The pace has shifted toward long-term recovery with 18 committees 
formed across the State to address unmet needs of their communities. We 
continue to support the parishes that are still in the stages of 
repopulation.
    Part of this support has come through a grant that we received from 
the Corporation for National Service to provide AmeriCorps*VISTAs to 
serve with the Long Term Recovery Committees. The grant is in the 
beginning stages, but will be an invaluable resource as the work of 
these groups moves forward.
    Many of the LAVOAD members have or are going through debrief 
conferences or after action reviews at this point. Our State 
organization will be holding its State conference later this month. It 
will include such an exercise to point out positives and negatives of 
our combined response and make recommendations on how we can grow and 
build upon our experiences of the last 6 months.
    Personally, this has been a life changing experience. I have seen 
things that I had never dreamed of and pushed myself beyond anything 
that I ever thought I could do. These storms have made me reevaluate 
myself and my life and what is truly important. My faith in God has 
given me the strength to honor my commitment to serve the people of my 
State and my organizations, the Food Bank and LAVOAD, when it felt as 
if everything was falling apart.
    There are some very special people that worked in the State EOC. I 
am not speaking of the brass or the elected officials, the people that 
were there all hours of the day and night finding a way to make things 
work for weeks and months. They are heroes in my book and have gotten 
more criticism than recognition.
    No one group can be the ``end all, be all'' solution to a disaster. 
It takes everyone, and it is imperative that we remember that everyone 
has something to offer and that as a responder you do not have all of 
the answers. Sometimes it is easy to get into a mentality of ``We have 
always done it this way.'' Being open to new ideas can be one of the 
most powerful resources we have.
    Education is a powerful tool as well. Many of the groups within 
government, on all levels, did not comprehend the role or the 
capabilities of Voluntary Organizations. Of course, this situation has 
rewritten all of the records for every group. We have all responded 
beyond what we thought we were capable of doing. More evacuees/
survivors were sheltered, fed, clothed in this operation than ever 
before.
    One way to better structure the approach of government is to 
include the VOADs in their planning processes and to educate those 
employees that are involved in disaster response at each agency about 
Voluntary Organizations. Another approach would be to include the VOADs 
in training and exercises.
    Traditionally the activities of the VOADs have centered on the 
response to natural disasters. Oklahoma City and September 11th have 
certainly changed the arena in which we may be called to respond. 
Voluntary Agencies need more training with regard to man made 
disasters, biological and chemical weapons, etc. Pandemics are another 
area where training will be invaluable.
    Communication between the government entities and the Voluntary 
Agencies needs to be addressed. Clear channels need to be outlined.
    Again, thank you for including me in this conversation. I think it 
is imperative that these types of discussions happen as we go forward.
            Sincerely,
                                              Jayne Wright,
                                                Executive Director.
                                 ______
                                 

    The Chairman. Ms. Feltman.

          HEATHER FELTMAN, LUTHERAN DISASTER RESPONSE

    Ms. Feltman. Thank you, Senator.
    I just want to reiterate that joint planning is essential 
and necessary as we move forward, and at the stage of these 
disasters that we have experienced over the last 24 months, it 
has stretched us all to continue to come up with new ways to 
respond effectively.
    Also, I think that coordinating creates an understanding of 
roles and functions and capabilities between the faith-based 
and community organizations in any structure of government. To 
me, that impacts the level of trust in relationships and what 
you can count on. I think that is key, because what we have 
experienced on the ground is sometimes transition of resources. 
If it is FEMA or Salvation Army or Red Cross, and they are 
living out their mandate, sometimes, as we come in behind with 
voluntary organizations, we could maybe really do some 
resource-sharing, and if these are kind of laid out prior to 
the time that we are living the disaster, it could be very 
beneficial and we might not have such a long, dragged out time, 
and be able to respond quicker.
    The last thing I want to say is that from what we have been 
doing, I am concerned about the medical situation. We have had 
several congregations acting as free clinics. Again, the impact 
on the infrastructure in the medical community in rural, no 
less, but also for the vulnerable populations, the disabled, 
the elderly, the mentally ill, the chronically ill, we have 
seen a huge necessity to look at the scale of that. Yes, FEMA 
and Red Cross could stop by and write prescriptions, but that 
was for 2 or 3 days of critical looking at where those 
prescriptions could be coming from, who was going to hold them, 
who could get over to write the prescription. We are under a 
state-of-emergency, which is very good, and it kind of allows 
us a guiding road map right now, but that will be transitioning 
before too long. And we are doing free clinics, but I am really 
concerned about the underinsured and uninsured and how doctors 
will be able to handle that.
    Thank you.
    [Response to question of the committee by Ms. Feltman:]

 Response to Question of the Committee on Health, Education, Labor and 
                      Pensions by Heather Feltman

    Question. How can local, State or Federal Agencies better structure 
their approach to disaster relief to support the work of community-
based organizations?
    Answer. Key for success in the future--communication and planning 
with community-based organizations and key disaster personnel.

    <bullet> Joint planning necessary;
    <bullet> Community-based center within or adjacent to Disaster 
Recovery Center--one-stop shop for services and referrals--track 
trends;
    <bullet> Assessment of key medical facilities--be able to establish 
temporary structures for the purpose of distribution and goods and 
resources if necessary;
    <bullet> Impact on Free Clinics--growing population of uninsured, 
unemployed, or underemployed who are displaced. The decrease in 
patients able to pay for health care impacts the physician and provider 
ability to cover overhead costs. Trend--M.D.'s moving from the area, 
bed closures in hospitals. Access to conventional and/or group 
insurance is limited;
    <bullet> Preparing for the next time--include the faith- and 
community-based organizations in discussions for future planning and 
response--most of the organizations have been recipients of information 
in a haphazard way--make organizations part of creating the solution 
and thus achieving success in the response efforts;
    <bullet> Coordinating response creates an understanding of the 
roles and capabilities of faith-based and community groups--trust is 
developed, not seen as an unknown entity;
    <bullet> Sharing of key resources (food)--support the value of 
skilled volunteerism.

    Contact Information: Participant: Heather L. Feltman, Lutheran 
Disaster Response Executive Director, 8765 West Higgins Road, Chicago, 
Illinois 60631,Telephone: 773-380-2719; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="165e7377627e7364385073627a7b777856737a75773879647138">[email&#160;protected]</a>

    The Chairman. Thank you.
    Mr. Green.

   THOMAS E. GREEN, ASSISTANT DIRECTOR, OFFICE OF COMMUNITY 
                   SERVICES, LITTLE ROCK, AR

    Mr. Green. Thank you, Senator.
    One of the challenges for us, being a neighboring State, in 
Arkansas--we of course are fortunate in that the disasters come 
every year, and not in the scale of Katrina, but from ice 
storms, floods, and tornadoes. The good thing about our State 
is that we have somewhat developed a process. All the 
organizations at this table--most of the organizations, I 
should say--are part of that process. The Community Action 
Agencies, the Red Cross, the Salvation Army, different church 
groups, all play a vital role in trying to address the needs.
    One of the key things that happened with the Katrina 
evacuees in Arkansas was that because of the inundated number 
of person, we had to open up Fort Chaffee. We had not done that 
since the Cuban evacuees came to Arkansas and the Vietnamese 
refugees came to Arkansas. Because of the number of people who 
came, we had to use that process. What it enabled us to do then 
was to look at our voluntary sources in the State. We were able 
to utilize our church camps to house people; we were able to 
use different programs, social agency office, which is a part 
of the Department of Health and Human Services within the State 
of Arkansas, provided the medical care--food stamps, all of 
those basic needs.
    But as someone indicated, the basic needs are temporary. 
Now we are talking about 1,000 people still in hotels within 
the State of Arkansas. We have to look at long-term 
opportunities, and the Community Action Agency Network is one 
of those vital resources that we utilize. They are providing 
those services and trying to make the difference, because for 
emergency needs, we all volunteered. My church gave housing, we 
gave clothes, we gave food--but those were temporary. The 
permanent resources are important, and that is the thing that 
we have to look at. The Community Action Network is there and 
is going to be the long-term provider for a lot of those 
services.
    One thing that I think is vital that we need to keep in 
mind is that the communications need to be ongoing, the 
coordination needs to be ongoing. It is important that we do 
not stop the process, because at the local level, regardless of 
who is there, the community-based organizations are going to 
play a vital role in resolving the problems of those 
communities.
    [The prepared statement of Mr. Green follows:]

                 Prepared Statement of Thomas E. Green

    Thank you for the opportunity to submit this statement on behalf of 
the National Association for State Community Services Programs 
(NASCSP). My name is Thomas Green, and I am the Director of the 
Arkansas Office of Community Services.
    I am pleased to report to this committee that according to the data 
the National Association for State Community Services Programs 
collected at the request of the U.S. Department of Health and Human 
Services, the Community Services Block Grant (CSBG) Network, which is 
made up of nearly 1,100 local Community Action Agencies (CAAs) 
nationwide, was able to respond with speed and flexibility to the needs 
of over 355,000 Hurricane Katrina evacuees. Our network has supported 
these Katrina evacuees by providing affordable housing, job training, 
reliable emergency services, and quality health care, among other 
critical recovery services. Unfortunately, our job is not yet done.
    Today, the State administered CSBG Network continues to play a 
pivotal role in the recovery of all of the States affected by Hurricane 
Katrina. State CSBG administrators are making a concerted effort to 
provide critical assistance across State Governments, and to closely 
coordinate statewide relief efforts by working through the extensive 
community action agency network.
    In my home State of Arkansas, the CSBG network assisted over 65,000 
evacuees, and helped over 13,635 of these evacuees with CSBG 
discretionary grants totaling $69,000. Under the direction of the 
State, the 16 Arkansas community action agencies worked with their 
local communities to address the gaps in services that were already 
being provided, including: transportation services to local agencies to 
apply for assistance, food for food pantries, medicines, clothing, home 
furnishings, and deposits for housing.
    The State administered network of Community Action Agencies have 
also begun to provide the long-term assistance that evacuees need as 
they relocate and re-establish themselves through self-sufficiency and 
family development programs. These programs offer comprehensive 
approaches to selecting and offering supportive services that promote, 
empower and nurture individuals and families seeking economic self-
sufficiency. At a minimum, these approaches include:

    <bullet> An assessment of the issues facing the family and the 
resources they bring to address these issues;
    <bullet> A written plan for financial independence and self-
sufficiency;
    <bullet> An individualized mix of services to help the participant 
implement the plan;
    <bullet> Professional staff who can establish trusting, long-term 
relationships with program participants; and
    <bullet> A formal method to track and evaluate progress and adjust 
the plan as needed.

    The CSBG Network has remained true to its fundamental purpose: to 
organize and provide a range of necessary services related to the needs 
of low-income individuals, families, and communities. The CSBG network 
helps to promote these services, which in turn helps to empower 
families and individuals to become fully self sufficient.
    According to the most recent CSBG Statistical Report, in 2004 the 
CSBG Network served over 15 million people, or approximately 6 million 
low-income families. Also in 2004, more than 3.7 million children, 1.7 
million seniors, and 1.1 million disabled individuals were served by 
the CSBG network. This Network is deeply committed to helping ensure 
the stability of all low-income individuals, families, communities, and 
States.
    I am proud of the assistance that the Arkansas Office of Community 
Services, and the National Association for State Community Services 
Programs, has provided to the Hurricane Katrina evacuees. The State 
administrators of the CSBG and the CSBG network have an impressive 
history of effective and efficient service provision. With Congress' 
continued support, our network will continue to serve our Nation's most 
vulnerable populations with swift and reliable expertise. Under the 
direction of the State and in partnership with other community-based 
and faith-based organizations, the CSBG network will continue its 
critical assistance to the Hurricane evacuees over the long-term as 
they relocate, re-establish themselves, and work toward total self-
sufficiency.
    Thank you for your time.

    The Chairman. Thank you.
    Mr. Daroff.

           WILLIAM DAROFF, UNITED JEWISH COMMUNITIES

    Mr. Daroff. Thank you, Mr. Chairman.
    On behalf of the United Jewish Communities, thank you and 
your staff for inviting all of us to participate.
    I would just like to follow up on what some of our 
colleagues have mentioned today, and that is that much of what 
we were able to accomplish, at least in the early stages, was 
due to happenstance--relationships that we had, phone numbers, 
knowing the mobile phone number to the Senator's chief of staff 
in Mississippi, for instance, having relationships at the White 
House that could cut through some of the bureaucracy--and those 
relationships obviously were by happenstance and an ability to 
formalize that by forming disaster task forces with 
representatives from government and community-based 
organizations through the VOAD process and through others I 
think is an excellent way to move forward. Maintaining and 
opening ongoing dialogues throughout the disaster to establish 
priorities and needs and to eliminate duplication is important. 
Coordinating essential recovery services and assigning roles 
between government and community-based organizations should be 
a priority, as well as publicizing locations of mass feeding 
centers.
    A couple of my colleagues have mentioned the mental health 
issue, and having just come back from the region a couple weeks 
ago, there is a belief by many of the folks down there that 
there is a burgeoning mental health crisis that, as folks see 
that their last appeal to FEMA has been denied, that their last 
appeal to their insurance agency has been denied, and they see 
that this is the final amount of money that they are going to 
be getting, there will be a massive mental health crisis. And 
the infrastructure, as I'm sure you know, Senator, in much of 
the region was not great to begin with, and with the exodus of 
folks post-Katrina, it is a crisis that we all need to address.
    Similar to that, we had folks who came from neighboring 
States and from across the country--doctors, dentists, social 
workers--who, because of State licensure restrictions, were not 
able to practice their professions in those States. We would 
advocate for there to be some sort of temporary relief that 
allows for the bending of these certification regulations.
    The other thing I want to mention is that, speaking about 
faith-based organizations, what we heard throughout the region 
was that faith-based organizations, churches, synagogues, the 
organizations around this table, really came in to save the day 
and to help where government was not able to help. We believe 
that the policy should be one that encourages our organizations 
and incentivizes us to care and help.
    [The prepared statement of Mr. Daroff follows:]

                Prepared Statement of William C. Daroff

    Good morning. I am William Daroff, Vice President for Public Policy 
and Director of the Washington Office of United Jewish Communities 
(UJC). I want to thank the Senate Committee on Health, Education, 
Labor, and Pensions (HELP) for the kind invitation to participate in 
this hearing focusing on the contributions of community-based 
organizations toward the post-Katrina and post-Rita relief and 
reconstruction efforts along our Nation's Gulf Coast region. I commend 
the Senate HELP Committee for recognizing the value of community-based 
organizations and the important role they play in enhancing, serving, 
protecting, and rebuilding the places called ``communities.''
    I have been asked in particular to comment on the activities 
undertaken by United Jewish Communities, in which we have effectively 
responded to the national disasters in the Gulf Coast region by working 
in partnership with other community-based organizations, as well as 
with local, State, and Federal officials. It is an honor and a 
privilege to be here today and share the UJC story. I would like to 
start by describing exactly what UJC is and how it has partnered with 
others to address the needs of the citizens of the Gulf Coast region. I 
believe that the efforts put forth by UJC in the region can serve as an 
action framework for others to make a difference in how our Nation 
responds to national disasters.
    United Jewish Communities is the national organization that 
represents and serves 155 Jewish federations and 400 independent Jewish 
communities in more than 800 cities and towns across North America. UJC 
is the central planning and coordinating organization for an extensive 
network of Jewish health and social services. We provide a wide realm 
of services through thousands of affiliated hospitals, nursing homes 
and long-term care campuses, refugee resettlement organizations, 
children and family service agencies, job counseling centers and food 
banks, community centers and camps, and primary and secondary schools, 
as well as our inter-related national organizations. UJC is one of 
America's largest and most effective networks of social service 
providers. This network provides support for more than 1 million 
clients each year in the Jewish and general community who are 
vulnerable and in need of assistance: families, the elderly, new 
immigrants, and the sick or disabled.
    In addition, to unilateral activity, UJC is a national board member 
of the Emergency Food Shelter Board and has worked with United Way as 
part of a non-profit task force to discuss how the Nation's largest 
nonprofits can cooperatively meet the social service needs of hurricane 
victims. UJC partners with other National Voluntary Agencies Active in 
Disaster (NVOAD) agencies including the American Red Cross, Catholic 
Charities, and Salvation Army to provide aid. We also serve on the 
National Advisory Committee for the Hurricane Fund for the Elderly of 
Grantmakers in Aging, which is a partnership with the Administration on 
Aging to direct philanthropic dollars and resources to organizations 
providing services to the most vulnerable older population in the Gulf 
Coast region.
    As an example of how UJC can quickly mobilize its vast network of 
federations and social services affiliates, I would like to share the 
following:

    UJC operates a standing Emergency Relief Committee that can marshal 
its resources within 24 hours. In the aftermath of Hurricane Katrina, 
this committee was charged with identifying the emerging disaster 
relief needs that UJC could help meet. To meet these emerging needs, 
UJC and the federations of North America raised more than $28 million 
in cash through a ``Katrina Relief Fund'' and facilitated the 
contribution of millions of dollars more through in-kind donations. 
Before the landfall of Hurricane Katrina devastated the Gulf Coast, UJC 
federations and our Gulf Coast affiliates were promptly alerted and 
began immediately arranging emergency shelter and food centers for 
evacuees. UJC sent senior staff to Baton Rouge, Louisiana, to help 
develop and coordinate support among community-based organizations. 
Their mission was to reinforce the infrastructure of Baton Rouge to 
handle the incoming evacuating New Orleans residents. In addition, UJC 
sent staff to Houston, Texas, to help buttress our Houston and New 
Orleans affiliates in planning strategic and tactical responses. 
Shortly thereafter, UJC funding was allocated to local communities in 
the Gulf Coast region for emergency needs such as food and basic 
supplies, financial aid, mental-health counseling, temporary housing, 
and respite care for thousands of evacuees in the Jewish and general 
communities.
    In the initial aftermath of the storm, UJC facilitated temporary 
shelter for Katrina evacuees in Jewish communities across the Southwest 
and South, including Austin, Dallas and Houston, Texas; Birmingham, 
Alabama; Baton Rouge and Shreveport, Louisiana; Memphis and Nashville, 
Tennessee; and Central Florida and as far south as Palm Beach, Florida. 
We also helped establish an e-mail and telephone communications network 
for evacuees through local host federations.
    Last month, senior officials from UJC and the federation system 
conducted a weeklong site visit to the region. The primary purpose of 
this site visit was to review the progress of the expenditures made 
from earlier UJC allocations, and to assess the more long-term social 
service needs of hurricane victims in the Jewish and general 
population. In addition, UJC wanted to express its strong commitment to 
aid the affected Gulf Coast communities in mapping recovery strategies.
    In Mississippi, UJC met with the Honorable Connie Rocko, President, 
of the Harrison County Board of Supervisors, General Joseph Spraggins, 
Director of the Harrison County Emergency Operations, Brian Sanderson, 
Deputy Director of the Governor's Office of Recovery and Renewal, and 
Suzanne Case, Director of the Gulfport office for U.S. Senator Thad 
Cochran. We gave these local, State, and Federal representatives a 
report of our efforts such as allocating emergency financial assistance 
to the Jackson, Mississippi community; along with sending thousands of 
school books and hundreds of boxes of clothing and blankets to Biloxi, 
Mississippi; and coordinating emergency financial and social service 
aid for Hurricane Katrina victims with St. Thomas Aquinas Catholic 
Church in Hattiesburg, Mississippi. We also asked the local, State, and 
Federal representatives how we could further support their government 
efforts to rebuild the Gulf Coast. The unanimous response was to 
continue ``the UJC network efforts.''
    Moreover, UJC reached out to the Mississippi Gulf Coast Convention 
& Visitors Bureau through its Executive Director, Stephen Richer, to 
gather background information on the post-Katrina economic impact on 
the region's primary revenue base and better assess how UJC could be 
resourceful. We also met with Virginia Newton, President of the Board 
of Trustees for the Mississippi Institutions of Higher Learning and 
Beverly Ward, from the U.S. Department of Education (now detailed to 
Mississippi). We discussed with these State and Federal officials the 
impact on the community's education system and in particular how 
students of the Gulf Coast region were able to relocate and continue 
their studies. Earlier, UJC had coordinated a donation by a New York 
advertising agency of 15 computers and 2,500 backpacks containing 
school supplies from ``Project Backpack'' for a high school in 
Hattiesburg, Mississippi.
    In Houston and Dallas, Texas, UJC pooled its resources and 
partnered with the United Way of the Texas Gulf Coast. The mission was 
to assess immediate needs and identify local community-based 
organizations that regularly provide emergency and social service 
needs. Such organizations would now be tasked to double their workload 
with a burgeoning ``new'' population post Hurricane Katrina. In 
partnership with the Dallas Jewish Federation, UJC donated $250,000 to 
the Dallas Mayor's Housing initiative to assist in providing housing 
for Katrina evacuees.
    UJC federations and affiliated groups interacted with many local, 
State, and Federal Government officials in the aftermath of Hurricane 
Katrina. A prime example of this kind of interaction in Baton Rouge 
involved local volunteer Richard Lipsey and the Baton Rouge Jewish 
Federation to coordinate efforts with the East Baton Rouge Parish 
Sheriff's Office so that off-duty officers and local volunteers were 
able to rescue individuals who were trapped in New Orleans. Friends and 
relatives called the New Orleans Federation, which was temporarily 
housed in Houston, with names and addresses of people who remained in 
New Orleans. The East Baton Rouge Parish Sheriff's office along with 
Baton Rouge volunteers then went in and evacuated them as well as 
anyone else they came across. The East Baton Rouge Parish Sheriff's 
office was also involved in the trip to rescue several Torah scrolls 
and other sacred objects from damaged synagogues in New Orleans.
    The Jewish Federation of Greater Houston participated in Texas 
Governor Rick Perry's faith-based organization conference calls, which 
assisted with the coordination of hurricane relief efforts to maximize 
input and output. They also coordinated hurricane relief efforts with 
Texas State Senator Todd Staples. In addition, the Jewish Federation of 
Greater Houston funded a grant for approximately $75,000 to the Harris 
County Medical Reserve Corporation to support 2,000 doctors, nurses, 
and other medical professionals at Reliant Stadium and the George R. 
Brown Convention Center providing medical treatment to Hurricane 
Katrina victims being housed there. This grant was timely, since the 
program was close to exhausting its funds. The medical program also 
increased from 200 volunteers to 2,000 volunteers.
    UJC provided financial assistance to over 12 non-Jewish community 
based organizations such as the Ripley House, West Houston Assistance 
Ministries, and the Second Mile Mission Center. These community-based 
organizations offered food pantries, soup kitchens, clothing centers, 
counseling, coordinated housing, job training, and job bank centers for 
Hurricane Katrina victims. During our recent site visit, we met with a 
number of Katrina victims who had relocated from New Orleans to The 
Ripley House. These former New Orleans residents were staffing the 
Ripley House's new ``stay connected'' program that allows e-mail set-up 
and cellular telephone communication between victims and their families 
separated in the aftermath of Hurricane Katrina.
    Some of the funds raised by UJC have been designated to rebuild 
community infrastructure, including federation buildings, day schools, 
and synagogues severely damaged by the storm. Other funds will be used 
to rebuild Jewish life in the affected areas and re-attract those who 
were evacuated to places across the country.
    UJC is an organization with a long history in effectively forming 
public-private partnerships. A key to that partnership over the years 
has been an on-going dialogue with civic and community leaders about 
the issues that citizens deal with day-to-day and during a national 
disaster. In preparation for the weeklong site tour, UJC networked with 
the Congressional delegation and the Governor's office of Mississippi, 
as well as the offices of the Mayors in Baton Rouge, Louisiana, and 
Houston. First, UJC invited representatives from Federal, State, and 
local government offices as well as community leaders and clergy to 
meet in Gulfport, Mississippi; Baton Rouge, Louisiana; Houston, Texas; 
and New Orleans, Louisiana. The two main topics of discussion at these 
small forums were the current status of the Gulf Coast region 
devastated by Hurricane Katrina and in particular how to begin to 
restore the social fabric of the Gulf Coast communities. Secondly, the 
eight-member site team toured on foot and by bus towns and cities now 
in ruins with destroyed highways/streets, businesses, recreation/
tourist areas, and suburbs/residential areas that form our Nations' 
Gulf Coast communities.
    We also toured Gulf Coast-based FEMA facilities and a trailer park 
(a ``FEMAVille'') where some hurricane victims and their families 
currently reside. In addition, the UJC site team met with hurricane 
victims who volunteered to share their personal stories of how they 
survived and had relocated to other towns, cities, and States. The 
hurricane victims also shared their views on whether they had plans to 
return to their respective communities and begin rebuilding their homes 
and lives. The hurricane victims gave first-hand accounts of the hours 
leading up to Hurricane Katrina making land fall along our Nation's 
Gulf Coast region and the aftermath they personally confronted later 
once Hurricane Katrina dissipated. The stories--and there were AND 
continue to be many experienced by native Gulf Coast residents--reveal 
the initial horror and desperation in the wake of a national disaster.
    A more effective response can be achieved to ensure prompt relief 
in a major national disaster. We recommend that the following action 
steps be adopted, which can lead to a more effective partnership 
between local, State, and Federal Governments and community-based 
organizations:

    <bullet> Form a ``Disaster Task Force'' with representatives from 
government and community-based organizations to assess needs, guide 
funding, identify gaps and solve problems;
    <bullet> Devise a match-up system for local, State, and Federal 
First Responders with community-based organizations as partners to aid 
relief efforts;
    <bullet> Maintain an open and ongoing dialogue throughout the 
disaster to establish priorities for needs and funding and eliminate 
duplication;
    <bullet> Coordinate essential recovery services and assign roles by 
dividing duties between government officials and community-based 
organizations;
    <bullet> Publicize guidelines with respect to publicly- and 
privately-available housing and set-up a registry of available housing;
    <bullet> Publicize locations of mass feeding centers;
    <bullet> Establish emergency toll-free hotlines for disaster 
victims and share the telephone numbers with community-based 
organizations to circulate;
    <bullet> Publicize information and referrals phone numbers for 
health and human services such as medical treatment/evaluation and 
counseling;
    <bullet> Expand licensure waivers for medical, dental, and 
counseling professionals, so that they are able to give aid in 
emergency situations in States where they are not licensed;
    <bullet> Expand guidelines for mortgage and utility payments for 
homeowners and leasing costs for renters;
    <bullet> Establish procedures whereby evacuees are able to bring 
their pets with them and/or establish sufficient facilities for 
sheltering pets; and,
    <bullet> Facilitate an organized distribution of in-kind donations 
by establishing a centralized location for food, clothing and other 
supplies.

    There is a critical need to match generosity with distribution in a 
national disaster. Local, State, and Federal Governments working with 
community-based organizations can design an efficient system to meet 
basic needs and address disbursement in a national disaster.
    UJC has a strong interest in a more effective public-private 
partnership and would like to continue to work with local, State, and 
Federal Governments to aid a more effective response to a national 
disaster. I saw evidence of human kindness, compassion, acts of 
courage, and outreach between diverse communities. I was heartened, for 
the stories I heard and what I witnessed first-hand reflect the true 
character and spirit of our Nation's communities. They are strong, they 
are resilient, and they can be greatly helped and strengthened by a 
structured partnership with regular and concise communication between 
local, State, and Federal Governments and community-based 
organizations.
    Thank you very much for the opportunity to present the UJC story.

    The Chairman. Thank you.
    Ms. Harris.

  TANYA HARRIS, LEAD ORGANIZER IN THE LOWER NINTH WARD OF NEW 
  ORLEANS FOR THE ASSOCIATION OF COMMUNITY ORGANIZATIONS FOR 
                           REFORM NOW

    Ms. Harris. Thank you.
    The experience that I had was as an evacuee going into 
shelters, going into a Red Cross shelter with 1,500 people and 
five telephones and, a month later, two computers. Everything 
that we did inside those shelters, any information that we came 
across, was word-of-mouth.
    So I think that a key part of this is making sure that 
information is available and properly disseminated amongst the 
evacuees or people who are victims of a disaster.
    What happened was that ACORN, as a matter of fact, I had to 
start organizing inside my own shelter in order to get 
information to people. And ACORN began doing this in other 
shelters around the Southeast region. The questions just kept 
arising about how do you get information, how do you get in 
touch with FEMA. These people were inside shelters, inside of 
Red Cross shelters, and did not have access to this 
information. So that is also a key component, having access to 
information, and also using our networks, of course, our own 
networks that were set up before Katrina, also using text 
messaging and things like that to get people information. But 
there needs to be some way to get people information more 
quickly and more efficiently.
    [The prepared statement of Ms. Harris follows:]

                   Prepared Statement of Tanya Harris

    Good Afternoon, my name is Tanya Harris and I am a community 
organizer for ACORN, the Association of Community Organizations for 
Reform Now. I am also a Katrina Survivor; I was born and raised in the 
lower ninth ward of New Orleans. Luckily my family had the resources to 
leave when Katrina hit. Eventually we ended up staying in a shelter 
right outside of Baton Rouge in Gonzales, LA, there we reconnected with 
ACORN. There were also volunteers there from the Red Cross who didn't 
seem ready to deal with a disaster this big. Even though we were in 
their shelter we had very little access to information, there was 
information on how to get out of Louisiana but if you were looking for 
services where we were you couldn't find anything. There were about 
1,500 people there and only five phones and two computers. The only way 
that we got to services was word of mouth.
    We have been active ACORN members for 20 years and ACORN was a 
piece of home for us when I didn't know when we would be able to get 
back. So I started working with ACORN doing a different type of 
community organizing, not door to door, but bed to bed in shelters. And 
at the same time that my family found ACORN in Baton Rouge, ACORN 
offices in other cities started to reach out to Katrina survivors, and 
New Orleans ACORN Members were pointed to their nearest ACORN office 
through ACORN's Web site and hotline in Houston, in Los Angeles, in San 
Antonio, in Dallas, in Arkansas, in Atlanta and even in New York. ACORN 
members all over were offering their homes and their assistance to 
their brothers and sisters who had been affected by the hurricane.
    And ACORN starting hearing back from survivors, there were many 
questions and concerns. And we searched for the answers. Some of them 
we found after hours and days and multiple calls to FEMA and other 
Government Agencies. Many of the answers we had to provide ourselves.
    That's when the ACORN Housing Corporation started to send their 
housing counselors all over the country to work with displaced 
homeowners to contact their mortgage lenders. We found out that even 
though many large lenders had decided to stop foreclosures on homes, 
several smaller companies were still expecting people to pay their 
mortgages in full and on time. And if they didn't homeowners were 
slapped with large fees and the threat of losing their homes. ACORN 
took on lenders like Ocwen Loan Services for continuing to charge 
prepayment fees and we won.
    Next after searching for help to get homes rebuilt in New Orleans, 
we decided to start our own program. We raised over a million dollars 
and hired crews to remove debris, rip out drywall, sanitize homes to 
get rid of the mold and of course tarping roofs to prevent any more 
water damage. So far the ACORN Home Clean Out Demonstration Program has 
cleaned out over 700 homes, and we plan to have 1,000 done before the 
end of March.
    As Government assistance started to run out ACORN looked to work 
with our allies to ensure that Katrina Survivors got all of the 
financial assistance that they could, so last month we announced our 
partnership with the William Jefferson Clinton Foundation to do Earned 
Income Tax Credit outreach. As a partner in the EITC Program, ACORN's 
Katrina Benefits Access Project will provide EITC screening and free 
tax preparation services to victims of Hurricane Katrina.
    There is a lot of work to be done in rebuilding New Orleans and the 
Gulf Coast. And the work that has been completed would have been easier 
if only we had the leadership of the Federal Government to look to. 
ACORN helped start NOAH, New Opportunities for Advocacy and Hope. This 
coalition held a rally in support of Louisiana workers getting 
contracts and fair pay in the rebuilding process and won the 
reinstatement of Davis Bacon. We also attended meetings with members of 
VOAD, but not much has come of it. We need the Government to play a 
leading role.
    ACORN would like to be a part of a comprehensive disaster relief 
plan that is formulated, because we know New Orleans. The people who 
live there have been our members for decades, and we are dedicated to 
doing everything possible to assist people in the rebuilding process, 
to make sure that every voice is heard during decisionmaking, and to 
ensure the right of return for the many who are scattered throughout 
the country.
    We couldn't wait for the Federal Government to rebuild our lives, 
but we would like to work with you to make sure that there is an 
overall disaster relief plan that includes every person in our city.

    The Chairman. Thank you.
    Ms. Franklin.
    Ms. Franklin. I just wanted to address that a bit in that 
in the rural areas, we used our case managers from the CSBG 
unit, from the Community Action Agency, and the Head Start 
program to go into the shelters with their laptops, and they 
were able to get the evacuees their FEMA numbers and get in 
contact with the Red Cross and all the other services that they 
needed.
    But one of the things that I thought would be so critical 
and that we needed to think about was having a national 
disaster response policy that would include all of those 
pieces, and the roles of the faith-based organizations and the 
CSBG unit, and the other nonprofits, and the CDFIs--all of 
those pieces pulled together in one policy so that when 
disasters happen like Katrina and Rita, we will be able to go 
to that policy and be able to relax rules and relax regulations 
so that we would be able to help people and help them quickly.
    The Chairman. Thank you.
    Mr. Hawks.

    MAJOR TODD HAWKS, NATIONAL PUBLIC AFFAIRS SECRETARY AND 
 ASSOCIATE COMMUNITY RELATIONS SECRETARY FOR THE SALVATION ARMY

    Mr. Hawks. Thank you, Mr. Chairman.
    You have some of our thoughts and observations as relates 
to our thoughts as to how the Federal Government could assist 
NGOs and faith-based organizations as relates to disaster 
services.
    It is interesting, following up on that thought, one of our 
recommendations--and it is actually materializing in part here 
today--is that we include NGOs as part of the process of 
revising the national response plan and making sure that NGOs 
have a big part, particularly in ESF-6 aspects of the national 
plan.
    One thing I want to note is that many of the folks around 
this table are generally at almost all disasters, and I think 
the thing that Katrina brought to bear was several hundred 
organizations and faith-based groups and individuals who 
perhaps had never been a part of the process before. And one of 
our recommendations--and the Federal Government can assist us 
with this, whether it is FEMA or whoever--is to incorporate 
NGOs in the exercises and training so that there is some 
interagency cross-training going on between the Salvation Army, 
the Red Cross, the faith-based organizations--everybody, from 
those who are very familiar with the systems to those who are 
least familiar with the systems--so that we all understand the 
different terms, the different acronyms, so that we know the 
assets and the experiences that the various groups bring to 
bear, and then they could be better utilized in the services.
    [The prepared statement of Mr. Hawks follows:]

                 Prepared Statement of Major Todd Hawks

    Good morning. The Salvation Army appreciates this opportunity to 
discuss our disaster relief services and to share our thoughts on how 
governments and NGOs can collaborate more effectively to provide food, 
water, supplies, and other needed services to disaster survivors.
    When this committee convened a similar roundtable discussion 
shortly after Hurricane Katrina struck the Gulf Coast, my colleague 
Major Marilyn White participated in the conversation. As Major White 
indicated in her testimony, The Salvation Army's response to disasters 
entails:

    <bullet> Providing food and water to both survivors and first-
responders;
    <bullet> Helping survivors clean up homes that weathered the storm;
    <bullet> Providing shelter to those who lost their homes;
    <bullet> Utilizing case management to assess the needs of families 
and harness the social services needed to help survivors put their 
lives back together again; and,
    <bullet> Offering emotional and spiritual comfort to disaster 
victims and emergency workers coping with the stress of the disaster.

    Now, 6 months later, I can update you on our activities in the Gulf 
Coast area and hopefully shed some light on how coordination can be 
improved in the future.
    One might assume that the need for our initial response services in 
the Gulf Coast would be tapering off. To the contrary, we're expanding 
our services and shifting the nature of our activities from immediate 
relief to recovery. We've doubled the number of caseworkers and opened 
another distribution center in New Gretna, Louisiana, to better serve 
the people of the New Orleans area.
    For a better sense of how an average family might benefit from 
these services, I'll share with you some of the highlights of a recent 
report from our Southern Mississippi Recovery Command Center. We now 
have four Disaster Recovery Centers operating in the area, in 
Pascagoula, Biloxi, Gulfport, and Pass Christian. Distributed at these 
centers are essential supplies required for returning home: boxes of 
food, cleanup kits, and other household items. For those who are unable 
to return home and are living in FEMA trailers, we're providing dishes, 
silverware, and other household necessities. Our case managers in the 
Disaster Recovery Centers are also working with families to assess 
their needs, and it is through this process that we are beginning to 
distribute furniture and appliances.
    We are also involved in long-term recovery efforts, although we 
often act in partnership with other organizations when we do so. Again 
using southern Mississippi as an example, The Salvation Army has 
partnered with Project Teamwork to house volunteer groups that are 
working to repair homes and remove debris so that families can return 
to their homes.
    We do not have an exit plan for the Gulf Coast. Our best and 
brightest will be there, on the ground, in the region for at least 2 
full years.
    The American people have supported all of these activities through 
donations, entrusting The Salvation Army to use their gifts efficiently 
and effectively.
    Each charitable organization uses contributions in a way that 
reflects their individual strengths. Different organizations have 
different strengths. Our use of contributions reflects these strengths 
in both the response and recovery phases.
    To date, the Army has received $336 million in donations. We've 
spent one-third of it--$122 million--largely on initial response 
services. Of the $122 million spent so far, 70 percent has gone towards 
direct financial assistance to survivors--including gift cards, 
accommodations assistance and utilities assistance. The remaining 30 
percent of the total spent has gone towards meal services, cleaning and 
personal hygiene supplies for survivors, equipment, and transportation 
and lodging for Salvation Army disaster personnel.
    The remaining donations will largely be spent on recovery projects, 
which typically require significant financial resources.
    That summarizes our activities and our distribution of donations to 
date. At this point, I'd like to share with you some of our thoughts 
and observations about the response to Hurricane Katrina.
    Mr. Chairman, The Salvation Army has over a century of experience 
in responding to disasters. Still, as an organization we've learned 
valuable lessons from the activities in the Gulf Coast--about how we 
can improve our own services and organizational structure to respond 
more efficiently and effectively when the next disaster strikes, and 
how NGOs and governments can better work together to achieve our common 
goals.

Thoughts and Observations on Katrina Response

    Given the nature of our activities, our observations will apply 
almost exclusively to the mass care element of the government's 
response. In the National Response Plan, those activities fall under 
Emergency Support Function #6, Mass Care, Housing, and Human Services.
    From our perspective, the types of services that were needed by 
Gulf Coast residents were no different than those provided to other 
victims of earlier hurricanes. The crucial differences between the 
response to Katrina and earlier hurricanes were the geographic scope of 
the disaster, the scale of the damage, and the multiple types of 
disasters triggered by a single event.
    If Congress is inclined to make changes in the Federal Government's 
disaster response protocols, then The Salvation Army has identified 
four items that we would like you to consider.

1. Include NGO Community When Revising the National Response Plan

    We have been heartened by calls to revise the National Response 
Plan and to better integrate charitable organizations into disaster 
response plans. The system as we know it doesn't work as well as it 
could. If I was limited to making a single suggestion today, it would 
be that the NGO community--all of the key players within the NGO 
community--should have a seat at the table as the National Response 
Plan is revised.
    Why? For two reasons. First, many States and municipalities have 
used the National Response Plan as a template for crafting their own 
response plans. Consequently, any coordination problems in the Federal 
plan are frequently repeated at the State and local levels.
    Second, the National Response Plan makes a broad assumption about 
NGOs that I would challenge. The plan assumes that NGOs will always be 
able to respond and to fill in the service gaps. For a typical 
disaster, this would be a reasonable assumption. For a catastrophic 
event, however, this is a risky assumption. Simultaneous events would 
seriously degrade the NGO community's ability to respond, as would a 
disaster zone that threatened the lives of volunteers. If the NGO 
community is consulted during the revision process, then this type of 
assumption can be properly addressed.

2. Assign a Government Office as the Primary Agency Responsible for the 
                    National Response Plan's ESF #6

    In our view, the role of government is to lead and coordinate. The 
role of organizations such as The Salvation Army is to support those 
efforts.
    Yet under ESF #6, an NGO--rather than a Federal Agency--is charged 
with coordinating the mass care activities of other NGOs. The Salvation 
Army urges you to review this organizational structure carefully.
    It might be worth noting that many States have taken a decidedly 
different path in designing their mass care plans. These States have 
tasked a State government agency with the responsibility for providing 
mass care coordination. Governors have recognized that they cannot 
order an NGO to perform a particular task. Moreover, there is 
insufficient accountability if the NGO fails to perform as expected. 
Consequently many States have moved to ensure that the function is 
performed by tasking a State agency to do it.
    If you are wondering how the Federal Government could possibly 
coordinate the NGO community, I would point out that FEMA already has a 
position called a Voluntary Agency Liaison or VAL. That position could 
be empowered to manage and coordinate the NGO community, and those 
Federal employees could be held accountable for coordinating and for 
identifying existing or emerging gaps in services.

Incorporate NGOs in Exercises and Training

    The single most effective vehicle for collaboration among 
government agencies and NGOs is on-going inter-agency cross-training.
    Standardized training is needed because all of the NGOs--especially 
the well-intentioned organizations and individuals who are new entrants 
in the disaster services field--must understand the government's 
emergency management systems and the language of those systems. Terms 
must have the same meaning when used by any government agency or NGO. 
It may even be prudent to establish a shared code of conduct for NGOs, 
similar to the code of conduct guiding the actions of international 
humanitarian relief organizations.
    Congress could help this by conditioning the receipt of State and 
local training grants upon the inclusion of NGOs in planning and 
training.

Educate the Public

    Just as there are roles for government and charitable organizations 
in disaster response, there is also a role for people who are moved to 
help in some way.
    All too frequently, people and corporations will send unwanted 
items to a disaster site. Their motivation is laudable, but the arrival 
of unsolicited in-kind contributions at a disaster site is problematic. 
Volunteers have to be diverted from feeding and directly assisting 
victims to sort through truckloads of miscellaneous clothes and other 
unneeded items. Further, storage space in a disaster is scarce and 
expensive.
    Likewise, the unexpected arrival of unsolicited and untrained 
volunteers is also problematic. As you can imagine, this situation 
taxes the ability of non-profits to effectively respond in the midst of 
a disaster.
    The unvarnished truth of the matter is that the best response is to 
send cash and stay out of the disaster zone, particularly when personal 
safety and health are at risk.
    The Federal Government should take the lead role in educating the 
American people about how to help disaster survivors. This could be 
achieved through public service announcements or by making prominent 
statements to that effect at the time of a disaster.

Plans for 2006

    As I mentioned, The Salvation Army has made improvements in our own 
procedures so that we are better prepared for the coming hurricane 
season or any other disaster.

    <bullet> We've learned that we can't do it all. No single 
organization can deliver all of the services needed by a distressed 
community or region.
    <bullet> Instead, we focus our efforts on what we do best--
providing food service, distributing essential relief supplies, and 
offering emotional and spiritual care to those in need.
    <bullet> And we collaborate with other organizations to avoid 
duplication of resources and to expedite delivery of services, 
enhancing our collective ability to serve those in need. For example, 
The Southern Baptists frequently prepare the meals we serve from our 
canteens. The Volunteer housing mentioned previously is available for 
volunteer groups organized by other NGOs.

    Mr. Chairman, that concludes my statement, and I would be happy to 
answer any questions you might have.

    The Chairman. Thank you.
    Mr. Mahboob.

              MOSTAFA MAHBOOB, ISLAMIC RELIEF USA

    Mr. Mahboob. Thank you, Senator, for inviting Islamic 
Relief.
    I think one of the main things that everybody has been 
saying is the importance of communication. For Islamic Relief, 
this is the biggest relief operation that we have undertaken in 
the U.S., and some of the experiences and the contacts that my 
colleagues here have had, we learned and acquired as we went 
along, and that was really helpful. I think that having this 
system of open communication lines and getting together ahead 
of a disaster and preparing for it will help all of us to 
better know each other and know what our strengths are and what 
our resources are to help each other out during a disaster.
    There are a couple of points I want to make and just some 
suggestions as well. In regard to government agencies or other 
agencies, for example, one of the best things our relief team 
in Louisiana has done is that since the beginning, they have 
been taking supplies from the warehouse that is provided in 
Baton Rouge and distributing those to areas that need it and do 
not have access to them.
    At the same time, I was in Mississippi for over 2\1/2\ 
months, and there were, from my understanding, resources such 
as that available, or maybe because we do not get communication 
of everything that is going on, I was not aware of it, but in 
Jackson, MS, which is about 2 hours north of Biloxi, which is 
one of the most devastated areas in Mississippi, that is where 
I heard the warehouse was.
    So one of the major suggestions I would make is having the 
sites of distribution of resources or registration sites for 
FEMA and other things that victims need, having close proximity 
to the disaster sites as well as the people who were affected 
most.
    One of the other obstacles that we faced was a legal 
obstacle. In Biloxi, MS, there is a big need for mobile showers 
and laundromats and tents and so forth. One of the things that 
stopped us from acquiring those supplies was the issue of 
liability and insurance and so forth. Issues such as that could 
be addressed in future legislation that allows relief 
organizations to work a little faster and easier.
    [The prepared statement of Mr. Mahboob follows:]

                 Prepared Statement of Mostafa Mahboob

    Islamic Relief immediately responded to the needs of the victims of 
Hurricane Katrina--one of the greatest natural disasters in United 
States history. Islamic Relief committed $2 million for Katrina relief 
projects, which include working in the affected areas of Louisiana, 
Mississippi, and Houston and Dallas, Texas.
    Hurricane Katrina was the first major response to a domestic 
emergency in Islamic Reliefs history. As part of its emergency 
response, Islamic Relief has carried out many activities to help 
victims of the hurricane. Islamic Relief has distributed needed food 
and non-food goods, purchased a building to house a clinic, provided 
shelter and housing, helped establish a community coordination and 
relief center, distributed medicines, hygiene kits, and cleaning kits, 
helped clean out homes and provided funding to rebuild others, bring 
volunteers to assist victims, and many other activities to help in the 
Hurricane Katrina relief and recovery efforts.
    Islamic Relief worked with many community-based, national, and 
governmental organizations in coordinating its relief efforts. A 
perfect example of such collaborative work is the establishment of the 
Coordination and Relief Center in Biloxi, Mississippi. Realizing the 
need to coordinate the efforts of the relief groups coming into the 
area and to better serve the victims in a timely and efficient manner, 
Islamic Relief worked with the local city councilman and Oxfam America, 
among many others, to make the center a reality. Other organizations 
that worked together to establish this center included: Urban League 
Ministries, Hands on USA, community groups and churches, the Salvation 
Army, the Red Cross, FEMA, Presbyterian Disaster Assistance, 
International Relief and Development, and many others.
    The center held at least two or more meetings per week to gather 
all the organizations working in the area, share information on the 
needs of the community, what services the groups were providing, what 
resources they needed to continue their work, and the challenges they 
were encountering. The other major goal of the Coordination Center 
encouraged community members to register in one central location and 
fill out surveys that informed us of their situation and their 
immediate needs. Hurricane victims would also pick up supplies that 
were available at the center. This effort helped match organizations 
offering specific services to community members who needed those 
services. Priority was given to the elderly and those needing the 
services urgently. Working in such a coordinated fashion not only 
helped the relief groups to efficiently carry out their work, but more 
importantly helped serve the victims in a more organized and timely 
fashion.
    A key for improving future response efforts is setting up an 
organized and coordinated emergency response structure--with an open 
and consistent communication system--that includes the participation of 
government agencies, relief organizations, and community based groups. 
Such a system will better coordinate the efforts of all those involved 
in responding to emergencies. Without this open communication line and 
an organized system of aid distribution, relief efforts will be 
tremendously hindered. Groups participating in such a structure would 
meet regularly to organize the best system in responding to disasters.
    Another effective method of responding to disasters is making sure 
points of supply distributions and other services are located in the 
area of, or close to the population that is most affected. Due to 
closed roads, lack of access to transportation, high gas prices, or 
other hurdles, victims and aid agencies cannot be expected to travel 
long distances to obtain supplies or services. In affected areas where 
distribution warehouses or registration sites for obtaining aid were 
located nearby, the relief efforts were much better. Having such 
resources close to the area affected will dramatically cut the aid 
delivery time and help disaster victims obtain vital resources faster.
    An area where Government support can improve future efforts is 
access to statistical information. Any post-disaster data that is 
collected by agencies or old data that can help aid agencies know the 
statistical make-up of an affected area can be crucial to relief 
efforts. For example, when trying to clean hurricane damaged homes, the 
Coordination Center in Biloxi wanted to send the volunteer groups first 
to the vulnerable elderly and disabled citizens, but there was no 
access to such data at hand. To collect this information, surveys had 
to be conducted in the neighborhood, which consumed time and delayed 
the delivery of assistance.
    In preparation for future disasters, Islamic Relief is planning the 
creation of an Emergency Response Team that is pre-selected and 
properly trained to immediately respond to disasters. Learning from our 
wealth of experience in response to Katrina, our goal is to systemize 
aspects that worked well and improve in other areas. This team would be 
trained to respond to disasters and know how to help victims once on 
the ground. Another area of preparedness includes recruiting the proper 
number of volunteers, training them with at least the basics, and 
having a system for them once on the ground. Also, the relationships we 
have forged with the many other aid agencies will be tapped into to 
help us respond as a group and better serve the population in need.
    Islamic Relief looks forward to continue its emergency relief and 
development work as we have done in over 30 countries for more than 2 
decades. It is essential for all groups involved in disaster response 
to work together in serving the needs of disaster victims. Islamic 
Relief would like to thank the Senate Committee on Health, Education, 
Labor, and Pensions for inviting us to be a part of this important 
discussion to better serve those in need when responding to future 
disasters.

    The Chairman. Thank you.
    Ms. Wilkins. Thank you, sir.
    I do want to comment and just add to some of the comments 
that were made earlier about some of the resources that can be 
provided after the disaster.
    Ms. Feltman, you talked about the fact that there are 
resources within your own organization that could come in and 
help us meet a community need. As we are looking to rebuild the 
New Orleans social services structure, one of the things that I 
found was that seeking out some of those smaller agencies and 
utilizing those resources certainly is helping us rebuild and 
recovery. And I appreciate the agencies that have come in and 
are working with us.
    As we look at the shelter situation--what you were talking 
about, Ms. Harris--I really would love to be able to find ways 
for us to have better communication in the shelters. I think 
you have a captive population that truly lives and dies by 
rumor. If we could get some type of communication system in 
place in our shelters that gives real-time information and also 
has a caseworker ability that can be brought to bear with some 
of our population, I think it will do much to help ease some of 
the anxiety--maybe even getting FEMA coming into the shelter 
and talking the next time there is a big disaster. Maybe that 
is a way that we can help provide information. Information is 
power, and you feel very powerless when you have none of that.
    The Chairman. Thank you.
    Ms. Bourg.
    Ms. Bourg. I want to speak a little further about the 
health conditions. We were so alarmed what we were seeing 
happening with the mold exposure and a lot of the heavy metals 
exposure in some of the waste matter in the homes. And by the 
way, I would just like to say also that were it not for the 
levee failures in New Orleans, which were certainly horrendous, 
we would mostly be talking about Hurricane Rita. So I just ask 
my colleagues, when we talk about Hurricane Katrina to either 
say ``Katrina'' or ``Katrina-Rita.'' Those of us in the rural 
areas who have been devastated by this hurricane would very 
much appreciate that. We feel left out so much already.
    The reentry kits, we had to issue ourselves with the help 
of Oxfam America, because we asked FEMA to try to do that, and 
FEMA went to the Centers for Disease Control, who said that 
only if there was an outbreak of cholera or some such extreme 
situation should FEMA do that. So FEMA did not do that, even 
after we had joint hearings in the legislature, in the House 
and the Senate, to try to urge that FEMA do that. So it was all 
done through private funds, and really, something needs to be 
relaxed where FEMA is concerned about the prevention of disease 
and not waiting until a major outbreak takes place to get these 
reentry kits and the kinds of things that you needed, like 
masks and so on.
    The Chairman. Thank you.
    Mr. Nemitz. Mr. Chairman, in my own experience, when we 
hear about communication during a disaster, it is not always a 
lack of communication. One of the issues that I think the 
technology age has given us now is almost, at times, too much 
communication, too much information.
    At one point, when I was in Jackson, MS, I had a member of 
my staff coordinate a series of either FEMA, State emergency 
management, local emergency management, or national VOAD calls 
for the day. There were 38 conference calls scheduled for 1 
day.
    So it is not just a matter of no information--it is from 
whom are we getting it from, who is credible, and during time 
of crisis, where do you want to look for the most reliable 
sources of information. So it is not always the issue of no 
information; it is sometimes who is talking at the microphone. 
I think that is something where, at the Federal level, perhaps, 
there could be some assistance with working with the media, 
training the media, training other organizations on funneling 
how they are going to release information from various 
government agencies, too, because someone saying, ``Hey, we are 
on a phone call with Washington,'' when you are out in the 
sticks, that does carry a lot of weight--but to whom am I 
talking, and do they have anything worth listening to.
    The Chairman. Thank you.
    Mr. Hazelwood. In the conversations about Mississippi a few 
moments ago, I was reminded of another issue that came along 
for us, which is the ability to house volunteers. We have a 
wealth of volunteers who are able to lend assistance, but one 
of the greatest needs we have at times is the ways in which 
volunteers can be housed in the disaster zones.
    One of the things--and my colleagues and I approached 
FEMA--there was a camp--Camp Vancleave, I think is the name of 
it--in Mississippi that was there that had been used to house 
families and had then been vacated. We as voluntary agencies 
approached FEMA and asked if we could use that facility. We 
would manage it, we would fund it. We just wanted them to leave 
the tents and leave the village there so we could use it, but 
we were not allowed to do that.
    If something as simple as that could be left there, we 
would have better access and could bring a lot more resources 
to the table through our people. But we just simply do not have 
places to put people.
    The Chairman. Mr. Daroff.
    Mr. Daroff. Similarly, as far as bringing in volunteers, we 
do have volunteers from throughout the Jewish communities of 
the country who would like to come in and help and volunteer. 
Our understanding from talking to folks down there is that 
there is obviously a need for it, but there is a critical need 
for places for these volunteers to say. I know there are issues 
with FEMA with the campground outside New Orleans in Baton 
Rouge, where the number of folks who are able to stay there is 
actually decreasing because of infrastructure problems.
    One thing that Ms. Bourg said that I wanted to follow up on 
is about liability issues with FEMA. We went down to one of the 
``FEMA-villes'' in Baton Rouge--I don't know if you have been 
to one, Mr. Chairman--but the one that we went to is 1,000 
trailers, lots of rocks, no grass, no greenery. We asked about 
what the kids do when they are not in school, and we were told 
that the New Orleans Saints had offered to donate $40,000 worth 
of playground equipment but that FEMA, for liability reasons, 
could not accept it.
    It is going to be a critical issue when school stops and 
summertime comes around as far as what these kinds are going to 
be doing, and it is just not a very pleasant environment.
    One last thing just to throw into the mix--in talking to 
General Joseph Spraggens, who is the Harrison County emergency 
operations coordinator, he said that one of the biggest 
problems that they have down there has to do with pets, people 
not leaving their homes or their homesteads because of their 
pets. And he could list a dozen folks that he knew just off the 
top of his head who either stayed behind in order to care for 
their pets or refused to evacuate because those who were 
evacuating them would not allow them to take their pets with 
them. That is obviously a critical need.
    Senator Enzi. Thank you.
    Ms. Harris.
    Ms. Harris. Just to piggyback on what Mr. Hazelwood and Mr. 
Daroff said about the volunteer situation, ACORN has been 
involved for the past few months in cleaning and stabilizing 
the homes in New Orleans. We have done almost 800 homes at this 
point, and we are heavily dependent on volunteer labor. We 
raised $1 million to start this program, and the volunteer 
effort is what has helped us to continue to do this. And we 
were informed just last week that there would be downsizing of 
the FEMA camp in Algiers from about 2,000 beds to 600 beds. 
Well, we are expecting over 1,600 volunteers over the next 2 
months, and this kind of activity, this downsizing, is going to 
heavily impact the way that we are able to help the community 
in stabilizing the homes in New Orleans and the rebuild effort.
    Also, a point that I do not think anyone has brought up is 
mortgage information and actually aiding people in disaster 
situations with mortgage help. The Housing Corporation sent out 
housing counselors to the various shelters to help people with 
mortgage questions. That is something that comes up that you 
may not be able to communicate with anybody else, but a lot of 
people understand one thing--that their mortgage is still due, 
regardless of whether they have a job or the house still 
exists.
    So that is also a problem for people who have mortgages, 
who have questions about their mortgages during a time of 
disaster and what is going to happen. These fees are still 
accruing, and we actually had to engage ourselves in a fight 
with the loan services because they were charging repayment 
fees to people as they were going through a disaster situation. 
So that is also an issue that should be out at the forefront.
    The Chairman. Thank you.
    Ms. Bourg.
    Ms. Bourg. Senator, we have also had volunteers from 14 
States and two counties, and I wonder if there is a national 
good samaritan law that protects folks who go in and work in a 
disaster area. It seems to me that that would be extremely 
helpful, that--unless there were intentional gross negligence 
or intentional harm--there ought to be some sort of national 
good samaritan law to protect those folks.
    Finally, I would just like to say a little bit on behalf of 
the Community Development Financial Institutions. I think that 
strengthening those in America, especially in rural 
communities, is very critical in getting some affordable 
capital out for the rebuilding and redevelopment effort. Those 
Community Development Financial Institutions that are chartered 
by the Treasury I think are very critical.
    The new markets tax credits that you have done in the 
Senate and in the Congress are very important, because that is 
going to help us rebuild those businesses all along the coast. 
So the set-aside dollars for the Gulf Coast and the CDFI, 
Community Development Financial Institutions, money is really 
critical in a time of disaster.
    The Chairman. Thank you.
    Mr. Nemitz.
    Mr. Nemitz. Thank you, Mr. Chairman.
    As I am sure you have seen and you have read and you have 
heard, many organizations around this table--houses of worship, 
foodbanks, shelters, various places--have become first 
responders. And I think one of the things we need to understand 
or to get others at various levels to understand is that 
``first responders'' does not necessarily mean police and fire. 
It has to be all of us around this table, and it has to be all 
those who are involved with disaster response recovery and 
long-term recovery.
    Along that same line, though, there needs to be a level 
playing surface. When it comes to things like houses of 
worship, foodbanks, various buildings being allowed to apply to 
the SBA, the Small Business Administration, for disaster 
mitigation loans, nonprofit organizations are not allowed to 
apply.
    However, if a foodbank is damaged or a house of worship is 
damaged after a storm, you can apply for a low-interest loan to 
rebuild. There is a little problem there. The logic escapes me 
on why organizations that are expected or by mandate are 
helping during times of disaster cannot improve their 
infrastructure, either with a generator, repairing their roof, 
reinforcing their building, to be there for the long haul to 
help State, Federal and local government officials.
    The Chairman. Thank you.
    Mr. Green.
    Mr. Green. Thank you, Senator.
    One of the concerns--and it has been stated already, but I 
want to emphasize it--is the need for waivers. As you probably 
know, in Arkansas, we have quite a few mobile homes that are 
still there that were designed to assist the evacuees to return 
home. A lot of the reason--and again, this goes to the 
communication issue--is that they cannot return because of 
different environmental concerns and code enforcement issues--
and in some cases, even being on flood plains, the fact of 
replacing those mobile homes back on flood plains.
    So from my perspective, if we are talking about a once in a 
lifetime--I am hoping it is a once in a lifetime situation with 
the devastation that was caused in New Orleans--we need to take 
extraordinary measures to make sure that these mobile homes are 
there for the people, the volunteers, whomever, so that they 
can be working.
    The other concern that I have is that again, in some 
cases--because this is again a once in a lifetime situation--we 
are talking about people who are not going back home because, 
first of all, many of the persons who left, the evacuees, did 
not have resources or means to get out. Our hotels in Arkansas 
were filled, all the way from Little Rock to Fayetteville and 
portions of the communities bordering Louisiana.
    There were fewer persons who were able to get out. The 
persons who were last to get out were the ones who were on 
buses or in airplanes or what-have-you who came to Arkansas and 
other States in the Union. A lot of those people are not coming 
back. They are going to stay in those respective communities. 
Services are still needed for them, and this again is one of 
the concerns that I have in a situation like this, because for 
once in a lifetime, you do not just stop temporarily after a 
disaster is over. This is ongoing. And again, from that 
perspective, there needs to be consideration given to those 
persons who are going to remain in these communities, because 
those persons who are there in a lot of cases have no 
resources.
    What we have done in our State, again, is provided those 
resources through our processing, but we checked to make sure 
they needed medicine and what-have-you; that was done. But 
again, when those persons get into a community and reassociate 
themselves in our State--and we anticipate close to 4,000 or 
5,000 people coming to Arkansas, saying in Arkansas--they have 
to have a way to maintain their livelihood and way to get back 
to providing for their families.
    So we are looking for the opportunity for our Community 
Action Agencies and other nonprofit organizations to provide a 
way in which this can be accomplished. So there will have to be 
some type of resources available to those organizations that 
are not necessarily in New Orleans or in other parts of 
Mississippi. Those organizations are also going to need 
resources to address this problem.
    The Chairman. Thank you.
    Ms. Franklin.
    Ms. Franklin. I just want to piggyback on that just a 
little further, Mr. Chairman, to say that for those mobile 
homes that are in Arkansas--just to put a little pitch in so 
that nonprofits will have access to those units, because in 
Louisiana, there is lots of property that is not located in 
flood zones where those units could be used. We are talking 
about a housing crisis in the State of Louisiana. We talked 
about how we could get efficient housing quick and in a hurry 
for those persons who are in hotels or living multifamily where 
you have five or six families living in one unit together. That 
would be an ideal solution to the crisis, to remove 
restrictions and to have waivers where nonprofits and faith-
based organizations who have the property and have the 
infrastructure can get those units and put them on the ground 
quickly.
    It is an excellent, innovative idea for a housing crisis.
    The Chairman. Thank you.
    I am going to change the discussion slightly. This has been 
the best roundtable that I have attended. First of all, you 
have stayed below the time limits, and you have just been 
rapid-fire on ideas. I have a whole list, and I am going to 
have to go back through them, and I am sure we will have more 
questions regarding some of the poor notes that I took--not 
some of the things that you said. Fortunately, we have others 
taking notes, too. But I will say that this has been one of the 
best sessions for getting those things.
    I want to move the discussion just a little bit to the 
National Voluntary Organization Active in Disaster, which has 
an important role in the national plan.
    Do you have any comments on how VOAD can more effectively 
carry out its responsibilities.
    Yes. You have been very silent, so I will call on you 
first.

      ANDE MILLER, EXECUTIVE DIRECTOR, NATIONAL VOLUNTARY 
                ORGANIZATIONS ACTIVE IN DISASTER

    Ms. Miller. Thank you.
    I think that what you are addressing primarily is the role 
related to volunteer management, unaffiliated volunteers and 
unsolicited donations, because my members--Tom Hazelwood, 
Heather Feltman and Craig and others around here--addressed the 
piece in the plan regarding what services the voluntary 
organizations provide.
    In the case of unaffiliated volunteers and unsolicited 
donations, our support is as part of the annex to FEMA and to 
their activity related to that on a national scale. But having 
said that, the responsibility for donations and volunteers 
falls to the States--and if you read that through, you can see 
how that activity occurred.
    Now, we have all heard about the infrastructure in the 
affected States here, and to look at an expectation of a very 
quick ability to work with this massive amount of donations 
coming in would be a little short-sighted on our part.
    But having said that, we are already moving forward. We are 
already moving forward with the support of FEMA on a 
sophisticated system of both telephone and technology so that 
we can begin to grab those calls, and when they call Tom 
Hazelwood's office and Heather Feltman's office, and then they 
call me and they call Jayne, that one person, we now know, will 
have called all five people instead of counting them as five 
calls.
    So, will we be ready for this hurricane season? Craig 
Nemitz was talking about that last night. The fully-
sophisticated set-up, no--but in terms of knowing what we need 
to activate the moment the first newscast has begun is our 
story, for a national call center of some kind.
    The Points of Light Foundation, one of our members, has 
stepped forward and has significantly stepped forward to say 
that they too know that we need a national plan for dealing 
with incoming calls; that to put that on a State and on a local 
volunteer center in the early days of a catastrophic event or a 
significant event is unfair. So let us begin to hold onto those 
and use them appropriately.
    Right now, in terms of donations, a big thing that we had 
was offers made in the first 24 to 48 hours, not needed then 
but desperately needed now that the excitement is over, and 
people are back to work in their regular scheme of things.
    So, did we do what we wanted to do? No. Did we try? Yes. Do 
we know we can address this hurricane season much differently? 
Absolutely--faster and with much more forcefulness.
    In closing on this particular topic, one of our challenges 
has been messages coming out at varying levels of government 
that are inconsistent with what works--meaning that to 
encourage people to come on down, everyone, is not to ensure 
that organizations and places here have the people you need at 
the time you need them.
    I am a firm believer that every person with their truck, 
collecting things across the country, truly believes they are 
the only person doing that. But there is nothing on the other 
end to say are those things necessary now; the quilted vest is 
not needed in July, but where is it now that we are in 
February, and it is needed?
    So we are better, but those are all the things we still 
have to master.
    [The prepared statement of Ms. Miller follows:]

                   Prepared Statement of Ande Miller

THE NATIONAL VOLUNTARY ORGANIZATIONS ACTIVE IN DISASTER (NATIONAL VOAD) 
                            A BRIEF HISTORY

    In the wake of Hurricane Camille's 1969 devastation of the Gulf 
Coast--it was obvious to voluntary organizations that they could better 
serve those affected by disaster through a more cooperative and 
coordinated approach. Seven of those organizations--7th-day Adventist 
Church, Southern Baptist Convention, Mennonite Disaster Service, St. 
Vincent De Paul Society, Christian Reformed World Relief Committee, the 
National Disaster Relief Office of the Roman Catholic Church and the 
American Red Cross--met in the ARC headquarters to begin a movement of 
communication, cooperation, coordination and collaboration among 
disaster response and relief organizations. All of these organizations 
came to the organizing table with decades of disaster relief history. 
Since the first meeting in 1970--the organization now counts 40 members 
(25 faith based and 15 humanitarian, nonprofit and/or community-based--
member list attached) A membership funded organization the National 
VOAD continued as a volunteer staffed organization until the mid-1990's 
when a part-time executive secretary was appointed. A part-time 
Executive Director was appointed in September 2003 and became full-time 
in July 2005. Administrative support has been authorized and will be 
funded through the Points of Light Foundation, UPS/APCO Foundation and 
the United Methodist Committee on Relief.

Hurricane Season 2005

    In the summer of 2003 the Federal Emergency Management Agency 
(FEMA) secured a seat in their Emergency Support Team (EST) Operations 
Center for the National VOAD. This seat is adjacent to Emergency 
Support Function (ESF) 6--Mass Care, ESF-11-Food (USDA), Donations 
Management and Recovery's Individual Assistance. We began staffing the 
EST during Hurricane Isabel, spent most of the late summer and fall in 
the EST for Hurricane Season 2004, participated in TOPOFF 3 from what 
is now the National Resource Coordination Center (NRCC)--same chair--
same pod mates and reported to the NRCC on August 28 in anticipation of 
Hurricane Katrina. As we did during Hurricane Season 2004--on August 29 
the National VOAD members began daily conference calls to share 
information, identify challenges, propose and accept solutions and 
start all over the next day. I've looked through all my notes and these 
seem to be the most representative of the first 3 months:

    <bullet> CRWRC had no churches in the affected area and looked for 
a base church for their clean up and debris removal crews.
    <bullet> Southern Baptist Convention/North American Mission Board 
agreements with the American Red Cross and The Salvation Army were 
activated to support mass feeding efforts. At the same time SBC 
mobilized clean up and debris removal crews; deployed laundry and 
shower trailers as well as mobile kitchens.
    <bullet> Mercy Medical Airlift (the DHS HSEATS project and the 
disaster arm of Angel Flight) began moving disaster leadership and 
skilled workers for most of our members and other disaster groups.
    <bullet> Mennonite Disaster Service (MDS) provided birds eye view 
of Gulf Coast damage from a Mercy Med over flight--MDS brought Bayou La 
Batre, AL to our attention on day 2.
    <bullet> United Jewish Communities provided updates on the UJF of 
New Orleans move to Houston as a result of significant damage to their 
offices, etc., and to support the New Orleans Jewish community that had 
relocated to the area.
    <bullet> World Vision focused on warehousing and social services in 
the Dallas area.
    <bullet> KatrinaHousing.org not only provided resources but also 
sought out the expertise of long time disaster providers to preclude 
some of the pitfalls of donated housing.

    These are very few of the type of things we shared each day. 
Oftentimes the information sharing helped ``fill in the map'' to 
determine if affected areas were covered; sometimes a ``new'' group 
like Humanitarian International Services Group needed to be connected 
to the distribution systems in place through other voluntary 
organizations like America's Second Harvest and local, State and 
Federal Government.
    As time passed our calls grew to a peak of nearly 200 
organizations--some of whom have expressed a desire to seek membership 
in National VOAD or the State VOAD where they are located.
    All of our members responded in the affected States and in host 
States--now if I can just get them to share statistical information.
    The more I type the more I have to say--Hope Coalition America is 
linked to MDS, FEMA and others providing financial counseling.
    The Department of Labor--Workforce Investment Board--has been very 
forward moving in connecting with the voluntary organizations 
individually as appropriate and the Recovery Committees throughout the 
country. Jacqueline Halbig of the DOL office of faith based and 
community initiatives and Under Secretary Emily DiRocco have made 
themselves, their offices and staff available to organizations and 
committees to ensure that case managers are aware of the significant 
resources available.
    The Rural Development Authority (USDA) was very responsive and we 
actually saw housing made available and used by evacuees.
    As systems and structures and communication became more and more 
functioning in the affected states, our calls have been replaced with 
State VOAD meetings, Recovery Committees and other communication and 
cooperation activities.
    The future:

    <bullet> At all levels of government, the faith-based and community 
initiatives offices should accept the invitation to meet the VOAD in 
their jurisdiction.
    <bullet> Government can support collaboration and coordination by 
inviting organizations to the planning and response table.
    <bullet> Recognize the individuality of the member organizations 
but acknowledge their greater influence and strength united.
    <bullet> Help ensure that the collaborations reflect the community 
population.
    <bullet> The VOAD is usually under funded--host the meeting--help 
them take a breath.

National VOAD

    <bullet> The National VOAD Board of Directors has agreed to develop 
a cadre to staff the FEMA NRCC.
    <bullet> The National VOAD Board of Directors has developed a 
strategic plan for presentation to their members including 
inclusiveness, support to local and State VOAD development, and 
preparing for the threats in front of us--pandemic, etc.
    <bullet> The National VOAD Board of Directors has authorized 
administrative support and National VOAD is now housed in an office 
building.
    <bullet> May 9-12, 2006--14th Annual VOAD Conference, Raleigh, NC--
committees will focus on Hurricane Season 2006--Mass Care, Emotional 
and Spiritual Care, Recovery, Communications, Public Policy, Volunteer 
Management, Donations Management.

Members

    1. Adventist Community Services
    2. America's Second Harvest
    3. American Baptist Churches USA
    4. American Disaster Reserve
    5. American Radio Relay League (ARRL, National Association for 
Amateur Radio)
    6. American Red Cross
    7. AMURT (Ananda Marga Universal Relief Team)
    8. Catholic Charities USA
    9. Christian Disaster Response International
    10. Christian Reformed World Relief Committee (CRWRC)
    11. Church of the Brethren--Emergency Response/Service Ministries
    12. Church World Service
    13. Convoy of Hope
    14. Disaster Psychiatry Outreach
    15. The Episcopal Church
    16. Friends Disaster Service, Inc.
    17. The Humane Society of the United States
    18. International Aid
    19. International Critical Incident Stress Foundation
    20. International Relief Friendship Foundation
    21. Lutheran Disaster Response
    22. Mennonite Disaster Service
    23. Mercy Medical Airlift
    24. National Emergency Response Teams (NERT)
    25. National Organization for Victim Assistance (NOVA)
    26. Nazarene Disaster Response
    27. Northwest Medical Teams International
    28. The Phoenix Society for Burn Survivors
    29. The Points of Light Foundation and Volunteer Center National 
Network
    30. Presbyterian Church (U.S.A.)
    31. REACT International, Inc.
    32. The Salvation Army
    33. Society of St. Vincent de Paul
    34. Southern Baptist Convention--North American Mission Board
    35. United Jewish Communities
    36. United Church of Christ--Wider Church Ministries
    37. United Methodist Committee on Relief (UMCOR)
    38. United Way of America
    39. Volunteers of America
    40. World Vision

Government Partners

    41. Federal Emergency Management Agency (FEMA) Department of 
Homeland Security (DHS)
    42. Citizen Corp/Department of Homeland Security (DHS)

Private Partners

    43. Center for International Disaster Information (formerly 
Volunteers in Technical Assistance

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Ms. Wright.
    Ms. Wright. I just want to offer a hearty ``Amen'' on the 
messages coming out from various levels of government--and I 
have made the same comment to our State government as well in 
respect to calling for volunteers.
    The search and rescue operations that were going on in New 
Orleans, and our government's calls for people with boats to 
come down--this is just an example--and then the people who 
were coordinating search and rescue on the State level 
consistently told me, ``No, we do not want volunteers.'' But 
our own government is calling for volunteers, and they are all 
calling me.
    It was a very difficult spot to be in, so a national call 
center for volunteers, I would echo that that would be a 
tremendous help to the person who is getting calls all night 
long, and people are very frustrated because they wanted to 
help and wanted to find a place to do that and were responding 
to the very calls from the government, but then, on my end, 
when I tried to get those folks linked up to those agencies and 
was being told ``No,'' it was a very bad situation.
    On donation coordination, again, the call center would be 
effective. We set up a call center, but it was days into it, 
and in the initial few days, we were just overwhelmed. The 
system, the technology, was overwhelmed, but then, from a 
people standpoint as well, we were just overwhelmed with calls. 
So that would be fantastic.
    The Chairman. Mr. Nemitz.
    Mr. Nemitz. Ande's comments about the national VOAD and 
their roles and responsibilities as far as the national 
response plan is concerned--I would say that Ande in her 
capacity as executive director for national VOAD did a 
fantastic job during the Katrina-Rita-Wilma nightmare that we 
all lived through.
    I think part of the problem, though, is that the national 
response plan is not necessarily understood at the State level, 
that we have people in emergency management who work for 
various governors' offices who do not get it, and they think: 
``Oh, I need to start asking for donations.''
    Our task with national VOAD for many years has been to get 
the message out that we do not need truckloads of stuff--and 
that acronym is ``Supplies that are useless to frantic 
folks''--we do not need winter blankets coming down to New 
Orleans in August. Yes, we will need them in February or 
January, but we do not need them day one, item one, in August.
    We do not need the church groups--and I apologize for 
putting it in those terms--but I received phone calls from the 
church ladies in Spokane, WA who are knitting booties for 
rescue dogs. We do not really need to send a truckload of 
knitted booties down to New Orleans for the rescue dogs.
    There is example after example after example, and we work 
very hard to try to get the message out--cash is the best 
donation to voluntary organizations, be it faith-based groups, 
the Red Cross, America's Second Harvest, the Salvation Army. 
The problem we run into, then, is that the governors' offices 
also set up their own funds where they are competing with us 
for dollars. That does not help us complete our mission.
    And when you look at bigger things such as the Bush-Clinton 
Fund, no CEO in the world is going to turn down a former 
President knocking at his door, asking for a donation--but they 
are sure going to turn me away when I knock on the door. There 
are only so many pieces of the pie for voluntary organizations 
to take donations.
    So any help that you can give in getting governors to 
understand that there is a plan in place, let the plan work, 
would be helpful.
    The Chairman. Thank you.
    Mr. Green.
    Mr. Green. I agree with the challenge that you have in a 
situation such as this. One of the things that happened in this 
situation was that there was no communication. The 
communication system was down. You heard all kinds of 
misinformation from relatives--and I had friends who were there 
who called me, just like I am sure a lot of other people did, 
trying to get out.
    You look at the media, and the media is your only source of 
information--right or wrong, it is your source of information. 
You see people screaming, asking for help; no help is being 
provided. What are you going to do? As an individual, you are 
going to try to provide help. And that is what happened. People 
were trying to provide help.
    The challenge for us is communication. Now, whatever we 
say, people are going to respond one way or another. They are 
going to provide. We had folks from Arkansas who provided help 
for the animals. We still have animals in Arkansas without 
people; we do not know where they are. They are there. Their 
dogs and pits are there because people in Arkansas did not want 
those animals to be put to death.
    So you have all this need, and you have situation, and the 
challenge, again, is going to be how do you communicate this 
information. Do you have the networks coordinate their 
information through one central source? I do not think that is 
going to happen, but that would be a good idea. But the 
challenge again is for organizations at the local level, if you 
can do that, to try to coordinate. That is going to be the 
biggest challenge--trying to coordinate and get the 
communication that is needed.
    The Chairman. Ms. Wilkins.
    Ms. Wilkins. I would like to comment on what Ms. Miller 
said about the VOAD and now, 6 months later, give you a 
perspective from New Orleans.
    We continue to feed hot meals 6 months after the disaster 
to people in the New Orleans area--Saint Bernard and the 
Plaquemines area--who were affected by Katrina. A year ago, we 
participated in an exercise called ``Hurricane Pam,'' in which 
we thought we had envisioned the worst-case scenario that could 
happen to New Orleans. We were wrong. Katrina certainly proved 
that.
    But I am thinking that maybe a suggestion going forward is 
that within the time line, we always think about a disaster as 
being a short-term response. Katrina's response, Rita's 
response, is certainly very long-term. Now there are 
certainly--if we were getting calls from people who wanted to 
donate food items or wanted to donate household goods, clean-up 
items, we would be most appreciative, because we are out in the 
communities now distributing those. And as Ande mentioned, the 
people who were offering during those first 3 weeks when they 
saw those TV spots--and the media was helping show the pictures 
of New Orleans--are not calling now. So maybe as we look 
forward in planning, we can also plan out some kind of project 
time line where we capture someone in those first 3 weeks, but 
we get back to them 3 months later to make sure that their 
donation and their offer of help can still be forthcoming.
    The Chairman. Thank you.
    I would mention that they have called the vote now, and 
when we see a few more lights appear up there, Senator Isakson 
and I will have to leave and go vote.
    Before we do that, I do want to again express my 
appreciation to all of you who have participated in this. We 
have gotten just a tremendous number of messages from this. 
Some of the things, I hope we have already included in some of 
the legislation, but I will go back and check to make sure that 
we have--the medical licensure and perhaps some of the 
liability things.
    Somebody did suggest to me--we had a little incident in 
Wright, and they had the same problem; they had people shipping 
stuff there from all over the country, and they did not have 
anyplace to put it, hang it up, sort it, and get it out to the 
people who needed it. And somebody came up with the idea of 
having--well, another problem we found was registering people. 
They did not realize they had to register when there is a 
disaster so that they can be put in contact with people who can 
provide for their needs later, including the Small Business 
Administration and others. So I do appreciate the community-
based organizations that helped get the word out down there. We 
were constantly mentioning that people needed to register, 
because they were all over the country. That got done, but it 
led a person to give us an idea that we needed to have a Web 
site that would be by town and by individual that would work 
like a Christmas angel, where people could pick a family and 
fill some of their needs and remove them from the list and get 
some coordination that way. A couple of Wyoming towns adopted 
towns in the Katrina-Rita area, found out what their needs 
were, and then hauled the stuff down there. Of course, that was 
2 to 4 weeks after the disaster, when there was some 
communication and people could know that sort of thing.
    So there are some ideas out there, and my thanks really 
goes out to you for the way that all of you pitched in and 
handled all of these problems which, because it was the biggest 
series of natural disasters that we have ever had in this 
country, I do not know that anybody could foresee that--of 
course, hindsight really helps, and that is what we are doing 
now is hindsight, so that it will be foresight for the next 
time. And your help and expertise is just really appreciated.
    We will, as I said, leave the record open so that you can 
continue to feed ideas to us as you have them or you are in 
contact with other people who have them, and we will make use 
of them--and if it does not come under the jurisdiction of our 
committee, we will share it with other committees. This is 
really helpful.
    Ms. Fagnoni, would you take over for me here and continue 
the discussion? And again I will apologize that we have a vote. 
The lights are up there, and that means we have just a couple 
of minutes to get over there and vote.
    My thanks to you for all of this help.
    Ms. Fagnoni. Thank you.
    As Senator Enzi said, all of your comments are being 
recorded, so please be assured that even though the Senators 
had to leave, the information going forward will be of great 
use to the committee and staff.
    OK, I have the order now. Ms. Feltman?
    Ms. Feltman. Thank you.
    I just wanted to add to the discussion of VOAD that I think 
as we move forward in addressing the large-scale response to 
these disasters, the membership of VOAD continues to grow in 
its expertise and its learning, and there is huge value in 
that, in the level of competency.
    In addition to that, I just want to go on the record that 
as we move into the long-term recovery, the State VOAD system 
is highly important for those other organizations, the 
community organizations, those that may not sit at the national 
table of VOAD but are huge community investors who really need 
to be at those tables, and they are of high value. So the more 
we can build that infrastructure of the State-level VOADs, or 
even county-level, or however we organize that, it is going to 
be crucial. So, thank you.
    Ms. Fagnoni. Ms. Bourg.
    Ms. Bourg. I guess I am a fiscal conservative, so I am 
really interested in prevention. You cannot stop hurricanes. 
Louisiana and Texas have the most hurricanes after Florida, 
which has the most hurricanes that hit. So I think we are going 
to be seeing, as I understand it, a lot more of these.
    I am concerned, really, about two things. One, along the 
coast of Louisiana, we have so much of our Nation's energy 
infrastructure, and we really need to look at building up the 
coastal barrier islands all along the coast if we are going to 
not have to use the rest of my lifetime and many other people's 
lives in responding to the disasters at such a level. With that 
first ounce of prevention there, we would see a lot less damage 
than we have seen particularly from Rita, with the surge.
    Second, I think we need to have infrastructure in place, so 
I really believe that our Nation needs to do more to 
incentivize philanthropy toward building the capacity of 
Community Development Corporations. We have that for our great 
universities and our museums and our hospitals, which are 
wonderful structures that we need in our civilized communities, 
but we need better capacity to respond to this in our Community 
Development Corporations in our communities.
    Ms. Fagnoni. Thank you.
    Mr. Hawks.
    Mr. Hawks. Thank you.
    I would like to make a comment that relates to VOAD and 
VOAD's role and perhaps the government's role as it relates to, 
again, exercises and training, as well as educating the public 
on in-kind gifts.
    I think that with the influx of all of the different 
organizations that are trying to help during the Katrina-Rita 
effort, there are a lot of folks who came into the impacted 
areas who had very little experience. And you would try to take 
those undesignated or unaffiliated volunteers, and you would 
try to plug them in--and now we are talking about not having 
room for them to even stay as they want to come now, when they 
are desperately needed.
    I think that VOAD as well as the Government plays a very 
important role in the ongoing training of the organizations as 
well as the individuals. There are some courses in disaster 
training that some of the organizations around the table here 
do extremely well, and those are your strengths. I think that 
VOAD could come up with a cadre of training materials for the 
organizations, federally as well as statewide, and then push 
them down locally.
    I know that one of the lessons learned as it relates to the 
White House is that in the funding that is being pushed down to 
the State and local levels, the NGOs be included in the 
training and the exercises.
    The other thing is the education process. I do not know if 
the Federal Government could orchestrate some kind of PSA ad 
campaign that involves a number of the organizations that are 
involved during the course of a disaster, illustrating 
sometimes the piles of debris that are left there and unloaded 
when you cannot utilize them, just giving some visible 
illustrations and some education, not just in response to a 
disaster but prior to. This is year-around education that we 
need.
    Thank you.

 CYNTHIA FAGNONI, DIRECTOR FOR EDUCATION, WORKFORCE AND INCOME 
    SECURITY ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

    Ms. Fagnoni. Our team was lucky enough to be in Biloxi, 
talking to the Salvation Army representative down there, and it 
really hit home, talking directly to somebody, hearing about 
how the most difficult commodities to get are used clothing. I 
think all feel like we want to help, but listening and hearing 
about how problematic that can be was very helpful to hear.
    Thank you.
    Ms. Franklin.
    Ms. Franklin. Thank you.
    I want to talk a bit about the volunteers and the call out 
for volunteers. When we sent an SOS out to the Community 
Services Block Grant, we were specific about what we needed in 
terms of food and clothing, down to baby clothes and what size 
Pampers we needed--because we did not want to have waste coming 
through our network. Our network responded in kind, and we got 
all the things that we needed, and they were all useful things. 
But I want to say that the California jurisdiction of the 
Church of God and Christ as an answer to that call came down 
with specialists, including doctors and psychologists and 
nurses. And the local hospital, Franklin Foundation Hospital, 
used the second floor of the hospital to house all those 
specialists. They fed them and took care of them, and they 
stayed with us for 3 weeks, going into the shelters, taking 
care of the people who needed that care.
    And I just want to say that that is the kind of thing that 
we are going to have to be looking at as we talk about 
volunteers and who comes into our local communities--not just 
having people come there just to be there.
    Also, we had people who had boats who volunteered to go 
into New Orleans to get people out, who were turned around. 
Many of those people wound up dying in houses or on rooftops 
because they were not able to get in to do that work. I just 
think that is something else that we need to look at as we 
start to develop these policies.
    Finally, I want to say that as we talk about long-term 
recovery, we look at the CDBG dollars and tax credits and home 
moneys going to community-based groups and to assist CDBG units 
and to the Community Action Agency and other nonprofits, 
especially faith-based organizations, to do this work that 
needs to be done to help these families become whole again.
    Ms. Fagnoni. Thank you.
    Mr. Mahboob.
    Mr. Mahboob. I just wanted to emphasize the area of long-
term development and assistance. What happens most of the time, 
I think we all see that this happens with donors and the 
population that sees the need on TV and want to help out, but 
unfortunately, relief organizations run into the same problem 
where, in the beginning, you get a lot of supplies and aid, but 
later on, it does not come when it is needed, when people need 
it most.
    I think that is an area that we need to emphasize.
    What also happens when you are down there giving aid to the 
local community is that they become dependent on you, and when 
you leave, they are just left out in the open. One way we need 
to deal with that is to, in our relief efforts, include the 
local population and empower them as well, so that by the time 
we leave, they know what is going on, and they can take charge 
of the operations we have started or they can help rebuild 
their communities and get back on their feet.
    Another way to deal with it--for example, our organization 
and every other organization has limits on its resources and 
the amount of time it can spend in a disaster area--is to help 
fund these other local organizations and NGOs, as has been 
mentioned, so they can carry on the work longer in the 
disaster-affected areas.
    Ms. Fagnoni. Thank you.
    Mr. Gaddy.
    Mr. Gaddy. Just one observation in response to two or three 
things I have heard this morning about disasters being a time 
to suspend policies to increase the flow of governmental money 
into various agencies, even into faith-based agencies.
    One of the points that I made in the first statement was 
that one reason we got enthusiastic and compassionate care from 
faith-based communities, particularly houses of worship, was 
because they were acting out of their compassion, out of their 
religious conviction.
    A disaster is not a time to violate the first amendment to 
the Constitution and have government supporting overt faith-
based activities. That money there within houses of worship. We 
talked with houses of worship all over Baton Rouge and the area 
about that. I think it is time, before the crisis, to establish 
the policy that in the midst of a crisis, we will not give up 
on something that has served religion so well in this Nation 
since the first amendment to the Constitution. Rather, if we 
protect that, we will multiply over and over, in the most 
religiously pluralistic Nation in the world, more volunteers 
from more diverse religious communities that will do their work 
according to the dictates of their conscience and with the 
rhetoric of their own tradition.
    Ms. Fagnoni. Thank you.
    Ms. Miller.
    Ms. Miller. Thank you.
    I think it is important to note, and I think everyone 
around the table knows it, that VOAD is a philosophy, it is a 
principle. It is not a thing. It is a group of organizations 
that came together a long, long time ago, who had been doing 
disaster work for decades before that and said we can do that. 
Each major event, as Heather brought up earlier, looks at the 
membership, but the key to it is that it is a focus on bringing 
a great number of community- and faith-based groups together 
for one purpose, and that is the focus of disaster response, 
relief and recovery. And then, the difference that occur 
otherwise do fall away for the purpose of doing this, but the 
organization piece is that they all know what each other are 
doing. That is the start to how the response occurs in an 
organized manner, quickly.
    Ms. Fagnoni. Thank you.
    Mr. Hazelwood.
    Mr. Hazelwood. I want to echo a little more of what Ande 
Miller said a few moments ago about the coordination, 
particularly of unsolicited volunteers. Many of our 
organizations deal with volunteers every day. My own particular 
organization puts 300,000 volunteers a year in the field, and 
other colleagues around the table have similar numbers. So, 
managing volunteers is not a new phenomenon to any of us. But 
when you have an event that is as large as Katrina, Rita, 
Wilma, and all those that hit us this year, the influx of new 
volunteers can be overwhelming.
    So the whole point of the National Voluntary Organizations 
Active in Disaster is for us to be able to coordinate all of 
that, all of the influx of volunteers, and we have had 
organizations like Points of Light who are members of the 
national VOAD say that they will begin to work with us and to 
organize in a way that helps channel those unsolicited 
volunteers.
    I think that where the frustration comes for many of us is 
at times from the government level, when the Government seems 
to think that we do not know how to manage the volunteers and 
want to offer their own solutions without ever talking to us 
first. Sometimes, we know how to do it, but we just lack the 
resource maybe to get it done, and what we need are some extra 
resources to be able to manage what we already know how to do.
    Ms. Fagnoni. Thank you.
    Ms. Wilkins.
    Ms. Wilkins. Thank you.
    I did not want to leave here today without bringing up 
another crisis that I see in the making, and it was alluded to 
earlier in some of the first conversations we had. That is that 
we have a fragile population in New Orleans who are on an 
emotional roller-coaster. As we approach hurricane seasons, 
less than 90 days out, I wonder what is going to happen the 
first time a tropical storm is headed anywhere near the United 
States, whether it is toward Florida or, as you have pointed 
out, Louisiana or Texas.
    I am very concerned about our population. I think it is 
going to take resource not only at the local level, but it is 
going to take some State coordination and some Federal 
coordination to really look at what the emotional fallout could 
be and will be.
    You have talked about FEMA villages being very sterile 
environments. I have 15 staff members who lost their homes 
because of Katrina. I watch this being played out every day in 
some way with someone who is on that emotional roller-coaster, 
and I am very concerned, because support systems that were 
there for last year's hurricane season are not there this year.
    So I think if we talk about VOAD, there are some other 
resources that we can bring in, and we probably should start 
looking at that right now, both at the national, State and 
local levels.
    Ms. Fagnoni. Actually, since I do not see anymore name tags 
up, I would like to cover the third piece that the committee is 
interested in.
    I am sorry, I did not see you. Go ahead, Mr. Daroff.
    Mr. Daroff. I wanted to echo what Ms. Wilkins just said. 
One thing that struck us when we were down there is that 
everyone has a story--every rescuer, every doctor, every social 
worker, every evacuee. People who are there helping folks now 
deal with the crisis have their own crises that they are 
dealing with and have dealt with, and that infrastructure is 
tender, and it is really amazing to see these folks, the 
counselors, the psychiatrists, who are telling their patients 
their own problems while they are hearing the problems from 
their patients--because they too had to swim out of their 
houses or had to wear borrowed boxer shorts.
    One thing I also wanted to mention in reaction to Mr. 
Gaddy's comments is that certainly, church-state considerations 
need to be paramount, and there needs to be a real 
consideration for the first amendment. But I think there is 
also a need for a common-sense approach when we are in the 
midst of a crisis. In New Orleans particularly, a massive 
percentage of kids in parochial schools were dispersed 
throughout the country in other parochial schools and Jewish 
day schools and other religious schools. And the Congress, in I 
think an enlightened sense, saw the need to approve the 
reimbursement of funds for kids who are in religious schools. I 
think that common-sense approaches like that, that help out 
even institutions that are pervasively religious are a 
worthwhile step.
    Ms. Fagnoni. Thank you.
    To the third question, which I know we have covered quite a 
bit, but I just want to give any of you, each of you, an 
opportunity to share any final insights--that is, thinking 
about how the different levels of government, in particular 
local/State/Federal, could better structure its approach to 
disaster relief to better enable community-based groups to do 
what they do best.
    Mr. Nemitz.
    Mr. Nemitz. One of the points--and this is in my written 
submission, too--is that by virtue of how my network of 
foodbanks, America's Second Harvest, we work not only state-to-
state, we cover all 50 States, Puerto Rico, and the District of 
Columbia. And my perspective, working at the national office in 
Chicago allows me to work with various States. I have been to 
Texas, I have been to Louisiana, I have been to Arkansas. In 
2004, I was about 3 days short of being eligible to vote in 
Florida because I was down there so much. So you get to see 
what works and what does not. And one issue that I think could 
be very helpful to nonprofit organizations would be some 
semblance of sameness working with National Guard units.
    In the State of Mississippi, the foodbanks had wonderful 
support. It made sense. We had the food; they had the vehicles 
and the personnel to get into areas. Roads were closed, trees 
were down, and they got the food out there. It was a great 
idea.
    In the great State of Texas, though, the standing orders 
for the National Guard were that they could not transport any 
product that came from a nonprofit organization. So there are 
some things that can be done--and I realize the National Guard 
is a State entity, but there is a national office for the 
National Guard in D.C.--if we could get some help working with 
the military end of the response for what resources they could 
bring to the table, I think that would be very helpful for a 
lot of us to get our work done.
    Ms. Fagnoni. Thank you.
    Mr. Green.
    Mr. Green. I may have actually said it first. I agree that 
the National Guard plays a prominent role. I was fortunate in 
that I happened to be at the Capital when the Governor put the 
call out for all of the State agencies to do what they were 
going to do. Our national parks looked at the parks available; 
looked at the hotels--we had an existing web base for every 
person who was coming into the State. We looked at the 
situation where we were going to notify people about the 
available resources. Either the local county offices or the 
National Guard Armory was the site to be used.
    It is critical when you have situations like this that all 
players are involved, and it is important from the standpoint 
that the Governor's office, the country judge's office or 
parish jurisdiction--whoever--are involved, because all have an 
important role in trying to disseminate information and 
coordinate resources.
    As a State employee, I feel fortunate that we have a 
network that is recognized in our State that can provide those 
services at the local level. A lot of times, they are the lead 
agencies in the respective communities, and it is important 
that all these organizations--and the faith-based organizations 
are encouraged to be a part of that process. I think that is 
the key that you have to look at, is making sure that those 
processes are available.
    Ms. Fagnoni. Thank you.
    Ms. Wright.
    Ms. Wright. Thanks.
    With regard to how government can work better with 
voluntary agencies, I think the first key to that is that all 
levels of government, whether Federal, State or local, and all 
the components of that educate themselves first of all as to 
what the plan is. Knowing what your State plan is and knowing 
how things happen is critical during a time like this.
    In our situation, we had lots of folks who, as Craig said 
earlier, just simply did not get it and started other processes 
outside of where the plan already made provisions--donations 
coordination, call for volunteers--those things were already in 
place, yet they created additional avenues for that to happen, 
and it is confusing for the public when they want to help, and 
it is also confusing for people within the Government who are 
trying to work in the situation--do I work with the Governor's 
office, or do I work with what the donations plan calls for? It 
is very difficult in the middle of such a chaotic situation 
already to have dual systems operating. So that would be the 
first thing.
    Then, for the entities, whether they are State, local, or 
Federal, to work with the voluntary agencies in the planning 
process and making sure they understand that the voluntary 
agencies are there to support them in a variety of the ESF 
functions.
    Thank you.
    Ms. Fagnoni. Thank you.
    Ms. Franklin.
    Ms. Franklin. I still think we need to look at developing a 
national disaster response plan and that that plan needs to be 
developed heavily around the community-based groups, around the 
CSBG groups, around the other community development 
organizations, and around the faith-based organizations. We do 
need to include government and Homeland Security, the Office of 
Emergency Preparedness. They should all come to the table, but 
the lead entities should be the people who are actually doing 
that work on the ground.
    The other thing is I think that whole plan needs to be 
driven by the three big C's--communication, coordination, 
cooperation.
    Thank you.
    Ms. Fagnoni. Thank you.
    Ms. Bourg.
    Ms. Bourg. Right after Hurricane Katrina, I spent about 10 
hours in a helicopter, landing in all the little rural villages 
and settlements and towns that I could. And one thing I noticed 
was a National Guard presence everywhere, guarding basically 
nothing, because there was nothing left to guard. Our hospitals 
and our clinics were gone. Our schools were gutted.
    So I guess I am just slow in understanding this, but if we 
have our National Guard rebuilding, thank goodness, parts of 
Iraq, with schools and roads and clinics, why can't our 
National Guard not be back in Vermilion Parish and in New 
Cameron Parish, helping to rebuild our roads and our schools 
and our clinics? I do not get it in America. I just do not 
understand it.
    Ms. Fagnoni. Thank you.
    Mr. Hawks.
    Mr. Hawks. From my standpoint of working with the Salvation 
Army, I think the Federal Government--and we have talked about 
it, and again, this is a good step in the right direction 
today, including the NGO community in the revision of the 
national plan and in State plans and local plans; that at 
whatever level, NGOs be included; that perhaps the Government 
could take a closer look at the ESF-6 particularly and their 
role. What happens if there are a couple of catastrophic 
activities on the different sides of the country, and how do we 
respond as national organizations to events like that?
    As has already been mentioned, I think the Government has a 
real role in education, in the public as it relates to gifts-
in-kind and the use of donations, and also in the training of 
NGOs. I was thinking in terms of the Incident Command Training 
Program, as an example, that all of us for the most part are in 
agreement that that is a good model for exercising leadership 
during a time of disaster; that perhaps the Government could 
assist with the Incident Command Training.
    Second, we talked about the VAL positions earlier. Perhaps 
that VAL position, if it were strengthened and empowered, could 
help link the Federal, the State, and the local governments, if 
it were given a little more latitude as it relates to 
coordinating the NGOs and the volunteer agencies--because from 
the Salvation Army's standpoint, the VAL positions have been 
very, very helpful, and the idea of having them as permanent 
employees as opposed to rotating is also a good idea from a 
relational standpoint.
    Ms. Fagnoni. Thank you.
    Mr. Mahboob.
    Mr. Mahboob. One thing we did in East Biloxi--there was 
only one local community clinic which was totally damaged in 
Katrina--we bought a mobile home, and where the Government came 
in to help in that area was that the city basically expedited 
the donation of the land, and that is where we placed the 
mobile clinic--basically, it was a mobile home that was 
converted into a clinic--and that is still ongoing and 
operating in the local area consistently.
    That is one area where government can help, and as was 
mentioned, sometimes organizations could not get into areas 
because of security and the checkpoint set-up. Special access 
is required. So agencies that are predesignated to have that 
kind of permission to go into certain areas where they can help 
deliver aid faster, or even sometimes, for some agencies like 
ourselves, when we want to show pictures to our donors to 
really see what is going on on the ground, when they see the 
more dramatic pictures, they are more likely to donate more. 
Unfortunately, sometimes, that is what it takes.
    The last suggestion I would make is that if there are aid 
organizations on the ground that are really doing something 
well, and they have been doing it for a while, that instead of 
going in there and starting another operation, to just support 
those local agencies and provide the assistance that they need.
    Ms. Fagnoni. Thank you.
    Ms. Wilkins.
    Ms. Wilkins. In Southeast Louisiana now, there are many 
long-term recovery committee meetings that are being held. They 
go by different names. It is sometimes called ``long-term 
recovery,'' sometimes it is called ``unmet needs,'' but all 
have a specific purpose, and that is looking at the community 
and helping to figure out the best way to help the people in 
that community recover and rebuild.
    One way that government can structure itself is to continue 
to be part of the conversation and continue to be at the table 
as we approach these building blocks of community recovery. My 
hope is that these long-term recovery committees evolve into a 
disaster response and relief committee that continues to carry 
on the conversation, continues to form partnerships with new 
community-based organizations and new stakeholders.
    Ms. Fagnoni. Thank you.
    Mr. Green.
    Mr. Green. I was basically going to echo what Ms. Wilkins 
said. In regard to the gaps in services, it is critical that 
ongoing processes are in place to meet those needs. That is one 
of the challenges that you often run into, where everybody is 
running and doing everything they think is needed and not 
necessarily meeting the needs. So that is one of the important 
aspects, that you have those ongoing meetings. We talked about 
communications, and I too had my computer inundated with 
communications from everywhere, but it was important. I took 
the time to review and see what was necessary, and then, when 
we met with our network, we were able to provide those services 
that were not being provided.
    So it is critical that you have that process in place also 
and that the Government, the local communities, are there, 
being a part of that process.
    Ms. Fagnoni. Thank you.
    Ms. Bourg.
    Ms. Bourg. I and my staff, both after Hurricane Andrew and 
also since the Katrina and Rita hurricanes, have attended 
several parish--that is what they call counties in Louisiana--
meetings on unmet needs, and we found them to be close to 
useless. They are pretty dysfunctional. They have not helped 
one, single poor person do anything to recover. They are fairly 
argumentative and heavy-handed by those who want to put many 
structures in place suddenly, much to the disgruntlement of 
those others that have been working in the community and may be 
in smaller organizations.
    It soaks up a lot of leadership time. I am not saying that 
we should not have them, but I have not seen them function well 
over 15 years. So I do not know why they would suddenly in 
Louisiana start functioning better.
    They are very focused on services, talking about services, 
and not development. The one place that I saw after Hurricane 
Andrew in 1992 was about 2 years later, when most of what had 
to be done was done. People would come together and find those 
folks who had kind of fallen through the cracks. That was about 
the best I have seen of the unmet needs committees.
    Ms. Fagnoni. Thank you. There are just a couple more people 
wanting to talk.
    Ms. Franklin.
    Ms. Franklin. I want to echo what Lorna said. It is the 
same thing in my parish. We are seeing the very same thing. The 
meetings are tedious. They are held every Wednesday. I guess 
the thing that I looked at was that the people who are actually 
doing the work are the people who are not at these meetings, 
and the meetings are being facilitated by people who are not 
even from the State of Louisiana, who do not have a clue about 
what we need to be doing and feeling the voice of the people 
that we bring to the table.
    The Community Action Agencies, the other Community Services 
Block Grant units, the faith-based organizations, the other 
community-based groups--we have been doing this work for 
decades, so we are the voices and the eyes and the ears of the 
people in the community.
    It is just appalling to me that people would come into the 
community and start telling us how we need to do this work that 
we have been doing very successfully for years.
    Ms. Fagnoni. Thank you.
    Ms. Wright.
    Ms. Wright. I have a different take on long-term recovery 
committees. I will go back to a much smaller disaster that hit 
at Thanksgiving 2004. A very small community in Louisiana 
called Allen was hit by a tornado and was deemed by the folks 
at FEMA too small to qualify for individual assistance.
    So the people of that community formed a long-term recovery 
committee or unmet needs committee from scratch. We had to do 
everything from raising money to getting lumber donated and 
volunteer management--the whole nine yards. It involved 
business and community leaders from Central Louisiana. It was a 
long and arduous process. A long-term recovery committee is 
just that--it is hard. And it is creating a new organization 
from lots of groups that have been there since day one, slaving 
over details and logistics and being there when nobody else is 
there. It is very difficult to bring those groups together to 
where they are a functioning organization.
    So it is hard, it is tedious, but it does work. And the 
people who are there trying to help form those committees, yes, 
are from other parts of the country and the States, but they 
are there to help organize the group.
    One thing that is very hard--it is difficult to understand 
when people are not being helped immediately. If the ground 
rules are not established for how that group is going to work 
up front, then down the road, when cases are being worked and 
things are being managed and the system starts to work, it 
becomes very dysfunctional if those things are not agreed upon 
right away. So I definitely want to support the long-term 
committees.
    We have a grant through the Corporation for National 
Service that provides VISTA volunteers to help staff those 
committees, so we have people going out right now to try to 
recruit the committees to hire those people and get them in 
place to help be facilitators for the groups.
    Ms. Fagnoni. Thank you.
    Mr. Hazelwood.
    Mr. Hazelwood. I just want to comment that I find it 
disappointing when you talk about the long-term recovery groups 
being made up of people who are actually not there to help, 
because that is not the way they are intended to be.
    I know that from our own experience--and I do not know how 
well-received this comment will be--but so often, when the 
long-term recovery committee's sole existence is to form a 
501(c)(3) and get a board, they spend all their time trying to 
create a reason for their existence, and that is not what they 
are designed for. They are designed to be there to bring 
resources to the table so that when a case is brought to the 
table, we can resolve the case. That is what they are designed 
for, and if anything other than that is what is going on there, 
that is disappointing to hear from my perspective, because as 
an organization whose primary goal is to do the case management 
and work with the clients to get their recovery plan completed 
to whatever their satisfaction is, that is what that table is 
for--to bring the resources to the table to help people. And if 
there are other agendas there, they really should not be there.
    Ms. Fagnoni. Thank you, Mr. Hazelwood.
    Mr. Hawks.
    Mr. Hawks. It is interesting, the mixed feelings about the 
unmet needs committees and whatever else they are called, 
because there is a variety of terms used.
    NGOs can be hampered by their own need to compete, and I 
think when we are focused on our own competitiveness rather 
than the needs of the people in those communities, they are 
probably not going to be very well-run, very helpful 
committees. And it may take, whether it is a VAL position or a 
State position or a local government position, somebody who is 
not in the competition to sit down and broker the process so 
that people's needs are met.
    I guess all of us have had experiences where they have been 
very good and they have been very bad, and the competition that 
exists in the industry is part of the problem, I think.
    Ms. Fagnoni. Thank you.
    Ms. Wilkins.
    Ms. Wilkins. To echo what you said, Katrina was a great 
equalizer for us. Many of our community-based organizations 
suffered the same losses, so the competitiveness has been 
thrown out the window.
    We have had experiences with unmet needs committees that 
were some of the ugliest ones I have seen. So one of the things 
that we did early on in the New Orleans area was to create some 
regional committee oversight, so that volunteer management--we 
have talked a lot about volunteers coming in and having 
particular needs--could be brought to that particular 
committee. In addition to the local parish unmet needs or long-
term recovery committees in the New Orleans area, there is a 
regional committee that just deals with some of the issues and 
challenges and sees if there is any common ground that we can 
build on to help them meet those challenges.
    The same with donations management and client management. 
And we are also looking--again, I go back to the emotional 
support that is going to be needed down the line--we have 
established a mental health component to that. So I agree with 
what Tom said. It is disappointing to hear that there are 
people there with agendas that are not the same, but I can tell 
you when those agendas are the same, and the fences are down, 
and you look across the table and try to figure out whose 
resources can better be brought to bear on a particular issue, 
it works.
    Ms. Fagnoni. Thank you.
    Mr. Daroff.
    Mr. Daroff. Just one final comment along this threat, and 
that is that one thing we heard throughout Mississippi is that 
the recovery has been the best thing to happen to inter-
religious, interfaith, interracial relations throughout the 
region; that, perhaps in some part due to government's action 
or inaction, folks coming together themselves through groups 
like those represented around this table has really brought 
them together and helped to strengthen the bonds of the mosaic 
of that community.
    Ms. Fagnoni. Thank you.
    Are there any other comments, or will that be the final 
comment before we close out? I just want to give people one 
more chance for any final comments.
    [Pause.]
    Ms. Fagnoni. All right. Thank you very much again on behalf 
of the committee and staff. We very much appreciate the time 
you have spent.
    As Senator Enzi said, the record will remain open.
    Also, I understand that the Corporation for National and 
Community Service has made some materials available. If you 
would like any of the materials that the Corporation for 
National and Community Service has put together, please see 
Kathy in the back.
    Once again, thank you very much again for your time and 
your thoughts and ideas.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                      Statement of Senator Kennedy

    It's a privilege to be part of the roundtable discussion 
today. Hurricane Katrina changed the lives of thousands of 
Americans in Louisiana, Mississippi, and Alabama, and we knew 
the enormity of the disaster would make the road to recovery 
long and difficult. You heard the call to action, and you 
responded with great skill and compassion. I commend you for 
all you've done so well and for all you continue to do each 
day.
    More than 1,000 people lost their lives in the hurricanes, 
and over 700,000 people were affected. Families suddenly found 
themselves homeless, with only the clothes on their back and 
little hope for transportation, food and water. Many evacuees 
were minorities and some faced language barriers. Many of us 
visited the region and were horrified at the devastation of 
lives and communities.
    Many of us hoped that if there was any ray of light, it was 
because the plight of the poor was so clear to all that it 
would shock the Nation into action and end the silent slavery 
of poverty. But in the weeks since then, that hope was not 
fulfilled.
    In a survey conducted by The Public Policy Research Lab in 
Louisiana, residents rated the response of religious and 
community-based organizations as highly effective, but 
government's response--at all levels--was rated much more 
negatively.
    Americans know they have a role to play in looking out for 
each other. Everyone here saw the need and heard the pleas of 
the victims and immediately went to their assistance. Your role 
was particularly inspiring, when you yourselves and your 
organizations were also affected by the storms.
    It's a wonderful country when citizens themselves respond 
like that. But we also have to wonder, what kind of country is 
it that relies solely on the caring of its people, while the 
Government hides and fails to meet its own responsibility.
    Personal responsibility, community responsibility, and 
government responsibility go hand in hand. When one of them 
breaks down, as it did in preparing, responding, and recovering 
from this disaster, we have to fix it.
    The President's disaster plan calls on the National 
Voluntary Organizations Active in Disaster to play a major role 
in response and recovery efforts. I'm interested in learning 
more about the good work you have done and how your 
organizations have met the needs of the hurricane victims.
    We are also here to learn how your organizations worked 
together, and what Federal, State, and local government should 
have done as well. You saw devastation and you rushed to the 
front lines, not because you were asked to, but because it's 
what you do--not just in times of emergency, but every day.
    You're vital to the strength of the Gulf Coast communities 
you serve and you're essential in making them whole again.
    Your experiences, recommendations, and guidance now can 
help us formulate more effective response to future crises, in 
which government meets its responsibility too.
    Thank you again for joining us today, and I look forward to 
hearing from each of you.

  Prepared Statement of the National Disability Rights Network (NDRN)

    In the past, too many communities have dismissed the needs of 
people with disabilities. With the recent disastrous hurricanes on the 
Gulf Coast, this dismissal often has proved deadly. If towns and cities 
viewed individuals with disabilities as valued members of the 
community, they would ensure that they were at the table when important 
decisions were being made--such as emergency preparedness. Thirty plus 
years after the integration of children with disabilities into public 
schools and 15 years after the enactment of the Americans with 
Disabilities Act and people with disabilities are still often 
forgotten.
    In every State and community, there are disability advocacy 
programs such as the Protection & Advocacy (P&A) network and the 
Independent Living Centers which have the capacity to address issues of 
emergency preparedness. There also are a wide variety of advocacy 
organizations that address the needs of people with disabilities--such 
as The Arc, Paralyzed Veterans of America, the National Mental Health 
Association, etc. As decisions are made, people with disabilities and 
representatives of disability organizations must be at the table.
    Individuals with disabilities make up well over 20 percent of the 
population in most of the areas on the Louisiana, Mississippi, and 
Alabama coasts hardest hit by Hurricane Katrina. Individuals with 
disabilities are also disproportionately represented among the poorest 
of the poor. The impact of the storms and their aftermath was 
disproportionately negative for them due to lack of community planning; 
lack of accessible transportation; and the failure of first responders, 
the Red Cross and other shelter providers to recognize their special 
needs and be willing to address them. In addition, individuals with 
disabilities were often:

    <bullet> separated from family members and caregivers, mobility 
devices, assistive technology, service animals, and critically needed 
medications;
    <bullet> improperly referred to institutional settings in violation 
of every precept of disability policy; and
    <bullet> turned away from, or not provided, reasonable shelter, or 
segregated in so-called ``special needs'' shelters.

    In addition, organizations such as the federally mandated and 
funded Protection and Advocacy agencies in the affected States were 
improperly denied their legal access to shelters and/or individuals 
with disabilities.
    Throughout this entire ordeal, FEMA has been woefully uneducated as 
to the needs of individuals with disabilities and unprepared to address 
these needs. Six months after the disaster struck, the Advocacy 
Center--Louisiana's federally mandated P&A for individuals with 
disabilities--Mississippi Center for Justice, the Welfare Law Center, 
Inc. and the Public Interest Law Project filed a class action suit in 
U.S. District Court for the Eastern District of Louisiana against FEMA. 
The suit challenges FEMA's failure to provide accessible temporary 
housing--often in the form of trailers--that is usable by people with 
disabilities.
    The Congressional Charter and the Fundamental Principles of the 
International Red Cross Movement promise assistance without 
discrimination or partiality, but guided solely by the needs of those 
seeking assistance. Unfortunately, this was not the case in the 
aftermath of Hurricanes Katrina and Rita, as the needs of individuals 
with disabilities were too often overlooked or not properly met. As an 
organization with a Federal charter, the Red Cross must be better 
equipped to address the unique needs of individuals with disabilities 
and their families in a truly impartial manner. Indeed, natural 
disasters do not discriminate--neither should emergency responders.
    NDRN encourages public policymakers to ensure that the needs of 
people with disabilities are adequately addressed in all future 
emergency preparedness plans and at all levels--the needs of 
individuals with disabilities must not be ignored by those responsible 
for establishing State and local emergency preparedness plans.

    [Whereupon, at 11:59 a.m., the roundtable was concluded.]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
